<html>
<title> - THE PRESIDENT'S HEALTHY FORESTS INITIATIVE AND H.R. 5214, H.R. 5309 AND H.R. 5319</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
 THE PRESIDENT'S HEALTHY FORESTS INITIATIVE AND H.R. 5214, H.R. 5309 
                             AND H.R. 5319

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           September 5, 2002

                               __________

                           Serial No. 107-150

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov



                                 ______

81-551              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona               Tim Holden, Pennsylvania
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 5, 2002................................     1

Statement of Members:
    DeFazio, Hon. Peter A., a Representative in Congress from the 
      State of Oregon............................................    27
    Gallegly, Hon. Elton, a Representative in Congress from the 
      State of California, Prepared statement of.................   104
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     2
        Prepared statement of....................................     3
    Herger, Hon. Wally, a Representative in Congress from the 
      State of California, Prepared statement of.................   104
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado..........................................     6
        Prepared statement on H.R. 5319..........................     8
    Miller, Hon. George, a Representative in Congress from the 
      State of California........................................     5
    Rehberg, Hon. Dennis R., a Representative in Congress from 
      the State of Montana.......................................    13
        Prepared statement of....................................    14
    Shadegg, Hon. John B., a Representative in Congress from the 
      State of Arizona...........................................    15
        Prepared statement on H.R. 5309..........................    17
        Scottsdale Tribune article submitted for the record......    19
    Solis, Hon. Hilda, a Representative in Congress from the 
      State of California........................................    36
    Udall, Hon. Tom, a Representative in Congress from the State 
      of New Mexico, Prepared statement of.......................    83

Statement of Witnesses:
    Burley, Charles H., President, Burley & Associates, LLC, on 
      behalf of the American Forest Resource Council.............    44
        Prepared statement on the President's Healthy Forests 
          Initiative.............................................    46
    Calahan, David, Retired Firefighter..........................    54
        Prepared statement on the President's Healthy Forests 
          Initiative.............................................    56
    Covington, Dr. William Wallace, Regents' Professor and 
      Director of the Ecological Restoration Institute, Northern 
      Arizona University.........................................    39
        Prepared statement on the President's Healthy Forests 
          Initiative.............................................    41
    Creal, Dr. Timothy H., Superintendent, Custer School 
      District, South Dakota, on behalf of the Forest Counties 
      Payments Committee.........................................    51
        Prepared statement on the President's Healthy Forests 
          Initiative.............................................    53
    Norton, Hon. Gale A., Secretary, U.S. Department of the 
      Interior...................................................    22
        Prepared joint statement on the President's Healthy 
          Forests Initiative.....................................    25
    Schulke, Todd, Forest Policy Director, Center for Biological 
      Diversity..................................................    61
        Prepared statement on the President's Healthy Forests 
          Initiative.............................................    63
    Veneman, Hon. Ann M., Secretary, U.S. Department of 
      Agriculture................................................    20
        Prepared joint statement on the President's Healthy 
          Forests Initiative.....................................    25

Additional materials supplied:
    Hoppe, The Honorable Diane, Colorado State Representative, 
      Letter submitted for the record............................    11
 HEARING ON THE PRESIDENT'S HEALTHY FORESTS: AN INITIATIVE FOR 
WILDFIRE PREVENTION AND STRONGER COMMUNITIES; AND H.R. 5214, TO 
   AUTHORIZE AND DIRECT THE SECRETARY OF AGRICULTURE TO TAKE 
    ACTIONS TO PROMPTLY ADDRESS THE RISK OF FIRE AND INSECT 
 INFESTATION IN NATIONAL FOREST SYSTEM LANDS. (NATIONAL FOREST 
  FIRE PREVENTION ACT); H.R. 5309, TO AUTHORIZE THE REGIONAL 
FORESTERS TO EXEMPT TREE-THINNING PROJECTS, WHICH ARE NECESSARY 
 TO PREVENT THE OCCURRENCE OF WILDFIRE LIKELY TO CAUSE EXTREME 
HARM TO THE FOREST ECOSYSTEM, FROM LAWS THAT GIVE RISE TO LEGAL 
CAUSES OF ACTION THAT DELAY OR PREVENT SUCH PROJECTS. (WILDFIRE 
  PREVENTION AND FOREST HEALTH PROTECTION ACT OF 2002); H.R. 
 5319, TO IMPROVE CAPACITY OF SECRETARY OF AGRICULTURE AND THE 
 SECRETARY OF INTERIOR TO EXPEDITIOUSLY ADDRESS WILDFIRE PRONE 
 CONDITIONS ON NATIONAL FOREST SYSTEM LANDS AND DEPARTMENT OF 
INTERIOR LANDS THAT THREATEN COMMUNITIES, WATERSHEDS, AND OTHER 
     AT-RISK LANDSCAPES THROUGH ESTABLISHMENT OF EXPEDITED 
ENVIRONMENTAL ANALYSIS PROCEDURES UNDER NATIONAL ENVIRONMENTAL 
   POLICY ACT OF 1969, THE ESTABLISHMENT OF A PREDECISIONAL 
   ADMINISTRATIVE REVIEW PROCESS FOR CERTAIN FOREST SERVICE 
 PROJECTS AND FOR OTHER PURPOSES. (THE HEALTHY FORESTS REFORMS 
                          ACT OF 2002)

                              ----------                              


                      Thursday, September 5, 2002

                     U.S. House of Representatives

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to call, at 9:34 a.m., in room 
1324, Longworth House Office Building, Hon. James V. Hansen 
(Chairman of the Committee) presiding.
    The Chairman. This meeting will come to order.
    Mr. Rehberg, it is a pleasure to see you, sir. We are 
expecting the Secretary of Interior and the Secretary of 
Agriculture to walk in, but, as you all know, the traffic was 
horrible this morning and everyone is trying to get in here so 
they can testify. But we have got a lot of ground to cover 
today, so we may move ahead.
    Mr. Rehberg, you are going to testify, aren't you? So we 
could start with you as soon as we get these opening 
statements.
    We welcome the Secretary of Agriculture and the Secretary 
of Interior just walking in. Thank you for being here, and I 
think you just about made it on time. We understand the traffic 
was horrible this morning, and we all had that same problem. We 
appreciate you being here.
    I will give my opening statement and then turn to the 
minority for theirs.

  STATEMENT OF THE HON. JAMES V. HANSEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    The Chairman. So far this year more than 6.3 million acres 
of forestland and rangeland have burned in wildland fires. This 
is more land than the entire acreage of Maryland, Vermont, 
Rhode Island, New Hampshire, New Jersey, Massachusetts, and 
Connecticut. Sadly, 20 firefighters have died, more than 2,000 
homes and structures have been destroyed, and tens of thousands 
of people have had to evacuate their homes.
    In addition to destroying lives and property, these fires 
have decimated millions of acres of habitat, killed millions of 
trees and severely damaged watersheds for decades to come. 
According to the Forest Service, currently 231 million acres of 
the Federal estate are at increased risk of catastrophic forest 
fires like the ones we are seeing today. I sincerely hope that 
this year marks the turning point in how we care for our 
forestlands and rangelands.
    It deeply concerns this Committee that it take so much 
destruction and tax dollars spent on firefighting to convince 
some people that we need to do better management of our 
forests. The greatest tragedy of fire seasons like these are 
that they are predictable and preventable. While drought has 
made this fire season worse than it otherwise would be, the 
real problem is that there is an unnatural buildup of fuel in 
the forests as a result of a century of fire suppression and a 
lack of active management. Now, instead of fires that burn at 
low intensity, sparing the large trees while burning the 
underbrush and ground cover, we have catastrophic fires that 
destroy hundreds and thousands of acres and much of the habitat 
that the forests provided.
    We have understood for a long time that years of fire 
suppression has impaired the health of the forests, but lately 
when we have tried to thin the forests or get it back to a more 
healthy condition we been thwarted by groups that apparently 
care more for environmental laws than for the health of the 
actual environment. The Center for Biological Diversity website 
says it all. They wrote, quote: `` It is critical to act now to 
help preserve our environmental laws, end of quote. They don't 
say that it is critical to act now to protect the environment. 
They say it is critical to act now to protect environmental 
laws.''
    Personally, I care about on-the-ground improvements and 
management. If we need to amend some environmental laws to 
improve the health of the environment, then that is what we 
need to do. But the current state of the forest is a direct 
result of allowing the courts instead of foresters to manage 
our forests.
    We also get these disastrous results when we manage areas 
for one species and not for the health of the forest as a 
whole. What some don't realize is that when then ice sheet 
receded from North America they left behind a new inhabitant, 
humans. For the last 10,000 years, man has been managing the 
new forests of North America. The early inhabitants used fire 
to manage the landscape and create habitats they favored. Some 
now believe that we should leave the responsibility of managing 
the forests to the forests themselves. However, as long as we 
have had the current forests of North America, we have had 
humans manage them. To take humans out now is an unnatural 
experiment.
    We are glad to see that Senator Daschle also subscribes to 
the views that humans need to be more active managing forests. 
He also realizes that one of the major impediments to good 
management are frivolous lawsuits as shown by his rider on the 
supplemental appropriations bill. In that bill, Senator Daschle 
includes language to exempt a fuels reduction project in the 
Black Hills from environmental laws and judicial review.
    Among the projects I would like to see expedited is the 
Griffith Springs project in the Dixie National Forest in Utah. 
This project is a sanitation and salvage harvest that would 
remove spruce beetle infected trees and recently killed trees 
on 714 acres.
    During the last week I was down on the Dixie, I walked it, 
I flew over it. It is a tragedy. Having relatives from that 
area, I could hardly believe what has occurred. That was not a 
forest when the pioneers came into that area. Due to the 
imagination and good management of the Forest Service, they 
went in and planted trees, and now it has been known for years 
as one of the finest and most beautiful forests there is in 
America. Now it is just one dead tree after another.
    The Forest Service supervisor is a fellow by the name of 
Hugh Thompson. Hugh said, when I first saw this heavy 
infestation of pine beetle, I could have gone in there and cut 
out 17,000 acres, and the healthier trees would have made it. 
One lawsuit after another, and now we have an entire dead 
forest.
    I asked the new forest supervisor, what is going to happen 
to the Dixie forest? He said, there is a 100 percent guarantee 
it will burn to the ground. Then what? There is a 100 percent 
guarantee we will have a flood.
    What did we gain by those lawsuits that completely took 
apart this beautiful forest?
    The Committee applauds President Bush to be willing to 
stand up for the health of the forests. It is ironic that the 
President is vilified when he argues that we need to more 
actively manage the forest, while Senator Daschle is hardly 
criticized for taking a far more aggressive position in South 
Dakota.
    The President and members of this Committee have sound 
plans for moving forward and improving the health of the 
forests. We hope to have the types of improvements in the rest 
of the country that Mr. Daschle secured for South Dakota. As 
the old saying goes, an ounce of prevention is worth a pound of 
cure. Never has that saying been more appropriate than it is 
now.
    [The prepared statement of Mr. Hansen follows:]

  Statement of James V. Hansen, a Representative in Congress from the 
                             State of Utah

    So far this year more than 6.3 million acres of forestland and 
rangeland have burned in wildland fires. This is more land than the 
entire acreage of Maryland, Vermont, Rhode Island, New Hampshire, New 
Jersey, Massachusetts, or Connecticut. Sadly, 20 firefighters have 
died, more than 2,000 homes and structures have been destroyed, and 
tens of thousands of people have had to evacuate their homes.
    In addition to destroying lives and property, these fires have 
decimated millions of acres of habitat, killed millions of trees, and 
severely damaged watersheds for decades to come. According to the 
Forest Service, currently 231 million acres of the federal estate is at 
increased risk of catastrophic forest fires like the ones we are seeing 
today.
    I sincerely hope that this year marks a turning point in how we 
care for our forestlands and rangelands. It deeply concerns this 
Committee that it takes so much destruction and tax dollars spent on 
fire fighting to convince some people that we need to better manage our 
forests.
    The greatest tragedy of fire seasons like these is that they are 
predictable and preventable. While drought has made this fire season 
worse than it otherwise would be, the real problem is that there is an 
unnatural build-up of fuel in the forest as a result of a century of 
fire suppression and a lack of active management. Now, instead of fires 
that burn at low intensities, sparing the larger trees while burning 
the underbrush and ground cover, we have catastrophic fires that 
destroy hundreds of thousands of acres and much of the habitat that the 
forest provided.
    We have understood for a long time that years of fire suppression 
has impaired the health of the forest. But lately, when we have tried 
to thin the forest to get it back to more healthy conditions, we have 
been thwarted by groups that apparently care more for environmental 
laws than for the health of the actual environment. The Center for 
Biological Diversity's website says it all. They warn, ``It's critical 
to act now to help preserve our environmental laws.'' They don't say 
that its critical to act now to protect the environment; they say its 
critical to act now to protect environmental laws. Personally, I care 
about on-the-ground improvements and management. If we need to amend 
some environmental laws to improve the health of the environment, then 
that's what we need to do.
    But the current state of the forest is a direct result of allowing 
the courts, instead of foresters, to manage our forests. We also get 
these disastrous results when we manage areas for one species and not 
for the health of the forest as a whole.
    What some don't realize is that when the ice sheets receded from 
North America, they left behind a new inhabitant--humans. For the last 
10,000 years, man has been managing the new forests of North America. 
The early inhabitants of this continent used fire to manage the 
landscape and create habitats they favored. Some now believe that 
believe we should leave the responsibility of managing the forests to 
the forests themselves. However, as long as we have had the current 
forests of North America, we have had human managing them. To take 
humans out now is an unnatural experiment.
    We are glad that Mr. Daschle also subscribes to the view that 
humans need to more actively manage forests. He also realizes that one 
of the major impediments to good management is frivolous lawsuits, as 
shown by his rider on the Supplemental Appropriations bill. In that 
bill, Mr. Daschle included language to exempt a fuels reduction project 
in the Black Hill from environmental laws and judicial review.
    Among the projects I would like to see expedited is the Griffin 
Springs project on the Dixie National Forest in Utah. That project is a 
sanitation and salvage harvest that would remove spruce beetle infested 
trees and recently killed trees on 714 acres. For years the Forest 
Service has tried to eliminate fire risk on the Dixie National Forest 
through fuel reduction projects such as this. However, this project, 
along with others, has been halted due to appeals. The question is not 
if these trees will burn, but when. We need to make sure that when 
there is a fire on the Dixie, it will be a low-intensity fire that is 
beneficial to the forest, and not a catastrophic one that will destroy 
the forest the habitat it provides.
    The Committee applauds President Bush for be willing to stand up 
for the health of the forest. It is ironic that the President is 
vilified when he argues that we need to more actively manage the 
forests, while Mr. Daschle was hardly criticized for taking a far more 
aggressive position in South Dakota. The President, and members of this 
Committee have sound plans for moving forward and improving the health 
of the forest. We hope to have the types of improvements in the rest of 
the country that Mr. Daschle secured for South Dakota. As the old 
saying goes, ``An ounce of prevention is worth a pound of cure.'' Never 
has that saying been more appropriate than with the current situation 
on our forest and rangelands.
    I look forward to hearing from our witnesses today.
                                 ______
                                 
    The Chairman. I look forward to hearing from our witnesses 
today. I don't see Mr. Rahall here. I imagine Mr. Miller is 
going to speak for him. But before Mr. Miller, let me say, we 
will go to our three Congressmen, we will take the two 
Secretaries, and then go to our first panel.
    I understand, Madam Secretary, Ms. Norton, that you have to 
get out of here in a short time, so we will take you first, if 
that is all right, as soon as we finish with these gentlemen.
    Mr. Miller.

   STATEMENT OF THE HON. GEORGE MILLER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Miller. Thank you, Mr. Chairman.
    I wouldn't pretend for a moment to speak for Mr. Rahall, 
but I will speak in his place; and we join you in sharing your 
very serious concern about the issues of forest health and the 
fires in our forests and the threat that they pose to many of 
our communities and the health of those very same forests.
    I would say that I am concerned that the tragic fires that 
we have experienced both last year and this year are being used 
for a means to waive the basic environmental laws, and I think 
the evidence is clear that that is not necessary. In fact, we 
see in my own State of California, where we have reached 
agreement on our Sierra Nevada plan, after 10 years and some 
$23 million of scientific study and management development of 
those lands, a plan is now in place which will prioritize the 
treatment of those forests that will allow within the first 
quarter mile in the interface area of the taking--of the 
thinning and the taking of trees up to 30 inches, and in the 
next mile and a quarter, I believe it is, or mile and a half of 
the interface area you can take trees out up to 20 inches and 
with all the thinning that goes along with that.
    That is a plan in place on the ground. Unfortunately, this 
administration has chosen to now spend the money to re-review 
that 10 years of science where we have agreement in the 
environmental community, we have agreement in the logging 
community, we have agreement in the communities, to re-review 
that rather than get on with the treatment of those lands.
    The Western Governors Association, under the leadership of 
your Governor, came forth with a plan that again was agreed to 
by all of the parties for the treatment of the lands within the 
environmental laws, setting the priorities once again about the 
most critical areas, the areas that pose the greatest danger of 
loss of life and property; and yet we are back here suggesting 
that the only way we can do this is to waive the environmental 
laws.
    It is also a little questionable in terms of the proposals 
being put forth exactly what it is we are going to treat. The 
Forest Service has treated about 275,000 acres, if my figures 
are correct, and yet we see the testimony from the industry and 
others suggest that there needs to be treatment of about 72 
million acres. The Forest Service has estimated it will cost 
about $1,685 per acre to thin some of those forested lands. On 
the average, the Forest Service timber projects generate about 
$800 an acre. If timber revenues are supposed to convert the 
cost of the thinning, it has been suggested that you will have 
these forest stewardship contracts and you will be able to take 
the money out and put it into the treatment of the forest. If 
that is the case, if these figures are accurate, you will have 
to have forest projects on 447 million acres. There is only 191 
million acres in the forest.
    So I don't quite get how you are going to get this $121 
billion, but the answer obviously is you think you can waive 
environmental laws and therefore you can raise the amount of 
money taken off of each of these lands, and the only way you 
can do that is to take more and more of the large trees off of 
the lands to get the--to take the cost from $800 an acre that 
the lands yield under the sales programs to get to the $1,600 
that it costs to thin these lands, according to the Forest 
Service.
    I think what we should really be doing is we should be 
putting the money that has now been held up in the 
supplemental, we should be putting the money into the treatment 
under the plans that are on the ground that have agreement 
across the communities, across the interest groups, and get on 
with the thinning of these lands and quit trying to use these 
sales as a means to eviscerate the environmental laws of this 
Nation. Because it is very clear, both from our experience in 
California and the experience of the Western Governors 
Association, that that is not necessary and that in fact we can 
get on with the thinning program now.
    But what the thinning program is going to need, it is going 
to need a combination of both stewardship contracts and Federal 
dollars, because the stewardship contracts--it would be a 
misnomer to call them stewardship if they have to generate the 
revenues necessary for the treatment of the lands, because they 
simply will have to cut down the forests to save it. I have 
seen that policy before. It doesn't work terribly well.
    So I would urge that the Committee would give very 
thoughtful consideration to these bills that are before us and 
understand that, one, they simply may not be necessary; two, 
they may do a great deal of harm; and, three, financially they 
are unsustainable, simply unsustainable. It won't work. And if 
you are going to treat the level of acreage and forestlands 
that has been suggested by the industry and others in testimony 
before this Committee--.
    I don't know if I have time left. If I do, I would be 
happy--.
    The Chairman. The time of the gentleman has expired. I 
appreciate the gentleman's comments.
    We have our three sponsors of these bills with us. Could I 
limit you each to 5 minutes? We have to get these two 
Secretaries out of here by 10:45. Can you get it done in that 
time?
    Mr. McInnis, we will start with you. Mac.

   STATEMENT OF THE HON. SCOTT MCINNIS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. McInnis. Thank you, Mr. Chairman.
    First of all, I would like to make a comment in regards to 
Mr. Miller's comments.
    Mr. Miller, the only individual I am aware of in the 
entire--Mr. Miller. Mr. Miller, I am addressing my comments to 
you. The only person that I am aware of in the entire Congress 
that is making an effort, and frankly has been very successful 
at waiving environmental laws, was Mr. Daschle with his 
attachment on the bill over there. He is the only Member of 
Congress that I have seen that has been successful in the 
waiver of those; and, as mentioned by the Chairman, it is of 
interest that the National Sierra Club and the National 
Wilderness Society haven't even blinked an eye at his process.
    My bill does not follow that process. My bill, in fact, 
incorporates some of what you have said.
    I agree with you that the stewardship, for example, as 
highlighted in my bill--which my bill I think is pretty much a 
middle-of-the-road bill--the stewardship alone cannot carry the 
weight of the financial burden. It is going to have to have 
contribution from the Federal Government. So we agree on that 
point.
    I also agree very strongly with you, as does my bill, that 
we should not waive environmental regulation and go into the 
forests with a timber company with the idea of being the 
largest lumber manufacturer in the world. That is not the idea 
here. The fact is, what I am doing here is expediting a 
process. Our whole problem out there and which my bill I think 
attempts to address, our whole problem out there is paralysis 
by analysis. It goes appeal after appeal after appeal. My 
letter to the General Accounting Office last year came back and 
said less than 1 percent I think or something of these projects 
are appealed. They immediately withdrew that letter and said 
they made a dramatic mistake in the calculation, that in fact 
it was closer to 50 percent.
    What my bill does is allows a preprocess decision to be 
made. It does not eliminate at all the appeal process, but it 
expedites the appeal process so you can't do as they did in 
Colorado where we had hundreds of thousands of trees blowing 
down. Every scientist in the world was saying to us the beetles 
are going to move in first on the dead trees, then they are 
going to move into the live trees; and, by the way, this thing 
is also going to be a fire hazard in 2 or 3 years. We are still 
tied up in the process up there. In the meantime, the beetles 
have moved into the live trees now, and that was the big fire 
that we had up in Steamboat Springs, Colorado, which we just 
recently got under control.
    I am trying to get a fair hearing by all sides but get it 
done in a timely process. My bill is the kind of bill that you 
ought to support. It is--you put a category up there that these 
bills are bills that are--all the bills we are hearing today, 
you make it seem as if it is some type of radical approach. 
Mine isn't at all. Mine is a reasonable approach.
    I might also want to say to you that when we talk about 
thinning, we can't just talk about the interface. A lot of the 
water you get out of Colorado to your State of California, the 
water tables and the water storage areas we have up there are 
deep in the forest. Denver right now, because of the Hayman 
fire up there, because we weren't allowed to send a round there 
where they store their water and so on now has huge amounts of 
sludge going into their city water system.
    So it goes beyond the urban interface. We have got to look 
at forest by forest on a custom basis. That wasn't done by Mr. 
Daschle, with the exception of one forest in his State. What I 
am saying, across the country we ought to take a look at forest 
by forest, not limit it to just interface but also go up into 
the watersheds or the water storage areas, go into the areas 
where we have endangered species, where every tree being the 
same age growing up is knocking out our usual fire blocks. 
There is a lot that we can do, and I think that my bill is a 
reasonable approach to that.
    Now, in response to what Mr. Daschle has done over on the 
Senate side, I think Members of the House of Representatives 
ought to be able to come in with the same thing. I am 
attempting to do the same thing Mr. Daschle did with my blow 
down in the beetle kill up in Steamboat Springs. But I think my 
bill is a reasonable approach, and I would urge that the 
Committee take a careful look at my bill.
    I have got 5 minutes worth of comments, Mr. Chairman, that 
I ask that I be able to incorporate into the record. But I 
would just summarize my comments by saying that I think the 
testimony we are going to get today from the two Secretaries 
respectfully is going to buttress the approach that we use in 
the middle of the road, that we don't go around environmental 
laws but we put these environmental laws in what the average 
person out there using common sense would say the reasonable, 
prudent standard to be, is this thing ought to be heard and 
ought to be decided within a period of time that doesn't put 
the forests at risk because we have delayed it in court action 
after court action after court action. So I would ask for a 
favorable consideration of my bill, and I appreciate the 
Chairman's allowance for me to testify.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    [The prepared statement of Mr. McInnis follows:]

Statement of Hon. Scott McInnis, a Representative in Congress from the 
                           State of Colorado

    Today we have the rare privilege hearing from America's two land-
managers-in-chief--Interior Secretary Gale Norton and Agriculture 
Secretary Ann Veneman--on the most pressing issue facing land managers 
today - the wildfire crisis in the American West. I want to applaud 
both Secretary Veneman and my old friend from Colorado Secretary Norton 
- along with their Boss down the street a block or two - for their 
forward engagement in attacking this problem. After wrestling with the 
issue as Chairman of the Forests Subcommittee over the last couple 
years, it's become clear to me that it's going to take some good-old-
fashioned elbow grease from those in the highest levels of our 
government to get the upper hand on this wildland epidemic. So I 
commend the President, Secretaries Norton and Veneman - as well the 
sub-cabinet officials here with us today, Undersecretary Rey and 
Assistant Secretary Watson - for your good faith leadership on this 
issue.
    In the last 6 months, the American public has undergone a sea 
change in its understandings about our national forests. Mere months 
ago, many viewed these great natural resources in the same manner that 
they thought about grandma's antique China - if you shelter it from the 
elements, lock it up, and just plain leave it alone, it will be 
preserved in its present state for generations to come. Benign neglect, 
many believed, was the best way to protect this intergenerational 
asset.
    Well, it's not news to anyone in this room that the 2002 fire 
season has smashed this myth like so much antique China under an anvil. 
After record setting fires in Colorado, Arizona and Oregon - and the 
thousands of other wildfires that have made this fire season among the 
worst in the last half century - the ill-informed mythology of laissez 
faire forest management is on life support. There's a fresh consensus 
in the American West that we need to--no, we must!--start managing our 
forests in a meaningful way.
    For those not convinced of this dramatic change in public attitude, 
consider the growing list of once reticent Senate Democrats who have 
joined in the chorus of calling for big changes in the way we manage 
our forests--names like Wyden and Feinstein. I guess one could even 
make the case that Senator Daschle is prepared to make a change or two 
in current law when it comes to managing our forests. More 
impressively, environmental groups that mere months ago embraced a ``no 
cut'' philosophy now propose thinning our forests, even if on a limited 
scale. Now, these environmental proposals are, in my estimation, little 
more than half measures, and a more cynical person might describe them 
as a political fig leaf to help deflect growing frustration with this 
movement on the wildfire issue. But their proposals are a start, and 
they underscore just how far even once ardent opponents of forest 
management have come.
    Today we will discuss a series meaningful legislative proposals 
focused on solutions. I want to briefly describe why I believe that my 
legislation--The Healthy Forests Reforms Act--is a reasoned and prudent 
approach to getting our arms around the West's wildfire crisis.
    The legislation was built two principles that, I believe, are the 
beginnings of common ground and a bipartisan approach.
    First, public input in forest management is a must. And yes, that 
includes the opportunity for aggrieved parties to challenge forest 
management projects administratively and in the federal courts under 
our new procedures. As a general maxim, public engagement is a 
necessary pre-condition of good, sound forest management.
    The second principle underlying my legislation is this--at present, 
the process that governs management of our forests and rangelands 
simply moves too slowly given the massive size of the wildfire threat 
hanging over us. To say that our forest management process moves at a 
snail's pace is to insult the foot speed of a snail. I think that every 
Member here today would agree that it just flat doesn't make any sense 
that it takes hazardous fuels projects--in the wildland urban 
interface, near watersheds, anywhere--upwards of several years to work 
their way through the NEPA process and any subsequent appeals and 
lawsuits.
    Senator Daschle's Black Hills project was ensnared in bureaucracy 
and lawsuits for over a decade. A thinning project in my District on 
the Routt National Forest aimed at slowing the spread of bark beetles 
took over a year and half just to work its way through the NEPA 
process. Incidentally, that project is now under administrative appeal. 
As the process drags-on, the beetles continue to spread, destroying a 
broad swath of once scenic forest.
    In the Colorado case, the South Dakota case, and in more cases than 
I care to count, the slow moving nature of our management process has 
been a primary culprit in the decline of forest health and in the 
related rise in catastrophic wildfire.
    So what do we do about?
    Well, the authors of NEPA and its implementing regulations 
recognized that there would be emergency instances in which the federal 
government would need to use so-called alternative arrangements in 
weighing environmental effects in lieu of the more typically used (and 
typically slow moving) Environmental Assessment or Environmental Impact 
Statement processes. If the wildfire situation isn't an emergency, I 
don't know what is. So my bill directs the Council on Environmental 
Quality to establish an expedited environmental analysis process for 
fuels projects on at risk landscapes, placing reasoned limits on the 
amount of process and documentation required. This expedited process 
would still allow for extensive public input, including an opportunity 
to appeal and litigate projects, and require a complete assessment of 
environmental effects and public input. But instead of taking upwards 
of several years to complete, this administrative process would be 
complete in 120 days.
    If 120 days isn't enough time for ``process'', I ask my Colleagues, 
how much is?
    Next, my legislation would replace the current Forest Service 
appeals process, which invites conflicts, moves slowly and discourages 
meaningful public participation during the early formulation of 
projects, with a more collaborative predecisional review process. 
Unlike the current appeals framework, the predecisional review process 
would allow the appeals officer to enter into collaborative dispute 
resolution with appellants and other interested stakeholders, and 
authorizes the appeals officer to sign off on negotiated agreements, so 
as to avoid the months-long remand process.
    Next, my legislation would continue to give opponents of thinning 
projects implemented under this process the authority to challenge 
agency actions in federal court. Once challenged in federal court, the 
Secretary would be required to stay the project for 45 days, during 
which time the court would decide on the merits of the overarching 
cause of action. The legislation gives the judiciary the authority to 
appoint special masters to ensure disposition of legal challenges 
within the 45-day time frame. And it also includes the caveat that, if 
the judiciary feels like it can't dispose of the challenge in that time 
frame for Constitutional reasons, it can extend that deadline at its 
discretion.
    Additionally, the Healthy Forest Act would apply the Black Hills 
National Forest sufficiency rider to the aforementioned thinning 
project in Colorado's Routt National Forest, with an understanding that 
other Members may wish to propose one time exemptions to thinning 
projects in their Districts that are similarly bogged down in 
bureaucracy, appeals or lawsuits. If nothing else, it will be 
interesting to find out if what's good for Mr. Daschle's goose is good 
for everyone else's gander.
    My bill would expand stewardship contracting authority for the 
Forest Service and Department of Interior agencies, as the 
Administration has called for and my Colleague from Virginia Mr. 
Goodlatte has tirelessly championed in recent months. And it would 
authorize hazardous fuels reduction funding over the next 8 years at 
the levels requested by the bipartisan Western Governor's Association.
    Lastly, the bill creates rigid monitoring safeguards to protect 
against the kind of Chicken Little attacks that some environmental 
groups have already begun to levy against the bill. It would require 
the General Accounting Office to conduct an annual programmatic 
assessment to ensure that this new expedited process is giving the 
public a meaningful opportunity to comment on projects, and to 
challenge those projects after the fact, both administratively and in 
the Courts. What's more, the bill directs the Secretaries of Interior 
and Agriculture to create a scientific monitoring panel, consisting in 
part of appointees of the Chairman and Ranking Member of this Committee 
and its counterpart in the Senate, to assess the relative success of 
fuels projects implemented under this act. The bill specifically 
requires that panel to catalogue any abuses, should they occur.
    So what emerges, Colleagues, is a bill that gives our land managers 
the tools to move with greater dispatch to reduce the threat of 
wildfire, but in a way that provides hard-hitting and objective checks 
and balances.
    As this process and my legislation move forward, I would say to my 
Democratic Colleagues that nothing in this bill is sacrosanct, except 
the underlying mission to establish a more reasoned and efficient 
process. I repeat the overture that I've made to a few of you 
personally already--lets sit down, work out the details, and move 
forward in a bipartisan way.
    I hope that my Democratic Colleagues will see and accept this olive 
branch. Don't let the fiery rhetoric of those defending the status quo 
burn that down too.
                                 ______
                                 
    [A letter submitted for the record by Mr. McInnis follows:]

    [GRAPHIC] [TIFF OMITTED] T1551.020
    
    [GRAPHIC] [TIFF OMITTED] T1551.021
    
    The Chairman. Mr. Rehberg.

 STATEMENT OF THE HON. DENNIS R. REHBERG, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF MONTANA

    Mr. Rehberg. Thank you, Mr. Chairman.
    The most common question asked when you return from a break 
is, how was your break and what did you do? Well, I brought 
along a newspaper to show you what I have been doing. I have 
been fighting fire on my own ranch, fire that got into the 
trees, fire that we had an inability to get out because we 
didn't have roads to get in there. Thank God I don't have to 
deal with the Federal Government. I only have to deal with the 
State of Montana. The Bureau of Land Management did come and 
help me fight that fire. But we live with this every day. I am 
a little tired right now because I have been up many nights 
fighting this fire.
    These are human problems, but not only that, they are 
environmental problems. I am glad that finally Senator Daschle 
recognized this problem. My bill, H.R. 5214, I thank you, Mr. 
Chairman, and the members of the Committee that have co-
sponsored that legislation and for giving us this hearing 
today.
    I am glad that Senator Daschle finally recognized the 
problem. So what I did is in House Resolution 5214 I am 
attempting to do for the other 49 States what Senator Daschle 
felt necessary to do for his own State.
    What this Congress has done--and I take issue with Mr. 
Miller as well on his comments about these fires creating this 
heartache and this desire to change these environmental laws. 
No. We have been calling for this since 1988, and this Congress 
has failed to act. In the year of 2000, we burned almost a 
million acres in Montana, and the Congress failed to act. We 
are now seeing fires in Arizona, Colorado. Other States are 
starting to see the same problems that we have been living with 
in Montana and Idaho for many, many years, and there is one 
thing we know that will happen: These fires will occur again.
    I, as well as Congressman McInnis, take a little issue with 
the comments about interface. Fires don't respect fences. 
Twenty-mile-an-hour winds create a situation where you don't 
know where the fire is going to go.
    Now, fire can be a tool to manage your property in. I am 
not that far out of the management of property, I am not that 
far into being a Congressman yet that I have lost sight of what 
it takes to manage land. And there are only so many tools in 
your satchel, and one is grazing, and undergrazed grass kills 
grass as much as an overgrazed grass. CRP does in fact create 
fire danger.
    One of the other tools that is in your satchel would be 
fire. But an uncontrolled fire is a catastrophe. It kills 
animals, it kills the environment, it kills trees.
    So if we don't come up with the various tools to be used 
and look at perhaps logging companies a little different than 
we have in the past, we are loving our forests to death. They 
are dying out there, and we are the reason for it. You can sit 
in Congress all you want and talk about all these various laws 
that are important to be in place, but one thing I have learned 
since I have been here for now about 21 months is, everybody 
admits there is a problem, something needs to be done, and 
people in Congress support reform as long as it doesn't change 
anything. But we have got to change something in our forests, 
because what we have done now is we have created a situation 
where judges and lawsuits are making the determination in our 
natural resource policy.
    For those of you on the Committee and those that are in the 
audience that have actually managed forests or managed 
pastureland, you know that you have got to get on your hands 
and knees. You have got to count the bugs. You have got to see 
what the manure is doing. You have got to look at your water 
cycle. You have got to look at your mineral cycle. And a judge 
sitting in a black robe behind a desk making a determination 
based on briefs filed by opposing parties is not the way that 
we have got to manage our forests.
    Finally, Senator Daschle has recognized the problem, and I 
think it is important that we recognize his recognition and 
support the exact same legislation verbatim that he was willing 
to put on a rider in the U.S. Senate. So, Mr. Chairman, I hope 
you will incorporate either my bill into one of the other 
bills--.
    I tremendously respect Mr. McInnis and thank him for 
continually bringing this issue out in his Subcommittee, as has 
Mr. Goodlatte; and I served on that Subcommittee in the 
Agriculture Committee. I thank Mr. Shadegg as well and am proud 
to co-sponsor his legislation. It is fine time within this 
Congress to quit talking about the management of our forests, 
quit loving them to death, quit allowing ourselves to divvy in 
the corners and sue each other back out of those corners, and 
try and actively manage our public lands for the betterment of 
not only the people and the economy and the jobs--and it is not 
about money, but the environment, the animals, and ultimately 
building a more secure future for the communities in this 
Nation.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    [The prepared statement of Mr. Rehberg follows:]

Statement of Hon. Denny Rehberg, a Representative in Congress from the 
                            State of Montana

    Mr. Chairman, I thank you for scheduling this hearing today to 
consider the National Forest Fire Prevention Act, my legislation to 
expand the Daschle rider so it applies to fire-prone National Forest 
lands across the nation, not just those in the Black Hills of South 
Dakota. My bill is supported by many of my colleagues on this 
Committee, evidence that it is time to change the system.
    Many of America's public lands have become so overgrown and 
neglected that they are now powder kegs just waiting to erupt. We all 
have watched the wild fires rage across the forests--destroying homes, 
property, and the environment in their wake--and it is time to stand up 
and address the problems facing America's forests.
    Montana experienced total forest devastation during the summer of 
2000, when 655,000 acres of the Bitterroot National Forest burned. I 
have personally witnessed the devastation wrought by wildfires. Just 
this past week, Montanans asked me, as their voice in Washington, to 
push for sound forest management that reduces fuel loads and prevents 
fires from ruining the lives of those caught in their deadly path.
    Forest fires are not Democrat or Republican issues. They are public 
safety issues. Mother nature has already unleashed the awesome power of 
fire throughout the West this year and burned more than 6 million acres 
- an area the size of New Hampshire.
    This year's fires alone have driven tens of thousands of people 
from their homes, destroyed more than 2,000 structures, and caused the 
deaths of many firefighters. These fires have also killed hundreds of 
millions of trees, devastated habitat, and severely damaged forest 
soils and watersheds for decades to come. Though such devastation can 
hardly be quantified, the total cost of these fires is already more 
than a billion dollars.
    We must do something to improve the process to give forest managers 
the tools they need to manage for a healthy ecosystem and treat the 
forest to prevent further devastation.
    That is why I introduced legislation, the National Forest Fire 
Prevention Act, to address this serious situation. My legislation takes 
the common sense policy, originally outlined by Senator Daschle, and 
extends its benefits to the rest of America. The National Forest Fire 
Prevention Act simply allows forests facing the most serious public 
safety threats to be treated by the Forest Service, without waiting for 
the full completion of lengthy and burdensome bureaucratic processes.
    The bill does not overturn NEPA or NFMA, though it will no doubt be 
inaccurately characterized as doing so. There is no language in the 
bill to overturn those laws and is not an intended consequence of the 
legislation.
    A healthy forest makes for a healthy community. We can't lose sight 
of that. But a delicate balance must be struck. We must have strong 
laws to protect the environment, there's no question about that. Yet 
those same laws should not be so burdensome that they prevent local 
forest managers from implementing common-sense land management 
solutions.
    I'm encouraged by the President's plan - it's certainly an 
important step toward improving the health of America's forests. We 
simply must implement some regulatory streamlining so we can clear out 
the dead, dying, bug-infested timber that is making our forests 
unhealthy and prone to wildfires.
    I look forward to hearing the testimony on my bill, and the 
proposals introduced by my colleagues Mr. Shadegg and Mr. McInnis, as 
well as the President's Healthy Forests Initiative. Thank you, Mr. 
Chairman, for bringing us all together to consider each of these 
proposals today.
                                 ______
                                 
    The Chairman. The gentleman from Arizona, Mr. Shadegg.

  STATEMENT OF THE HON. JOHN B. SHADEGG, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Shadegg. Thank you. It is a great privilege for me to 
be back here and testify, and thank you for your support--.
    The Chairman. Your microphone is off.
    Mr. Shadegg. I thank you and thank Chairman McInnis for 
working with me on this issue and for his co-sponsorship of my 
bill.
    I want to take this opportunity to welcome Dr. Wally 
Covington of Northern Arizona University to the hearing. He is 
a nationally recognized expert in this area, and I think we 
will enjoy his testimony. I think he can teach us a lot.
    It is a great privilege for me to be back in the Resources 
Committee. If I had my preference, I never would have left the 
Committee, and I would be here permanently. But it is nice to 
be back amongst you, even just for today.
    If I have a single message to get across, it would be a 
message to address to this Committee that we simply cannot 
allow partisan preconceptions to stop us from acting today on 
this issue. I respect Mr. Miller immensely and his knowledge 
and his expertise, but I have to say, fundamentally, the 
concept that we may not need this legislation is simply wrong.
    The second point I want to make is, we can find a 
compromise here. When you look at the incredible consequences 
of the policies we have pursued, you recognize we not only can 
find a compromise, we must find a compromise. This year has 
been one of the most catastrophic periods in the history of 
wildlands fire and fire management. A total of 6.328 million 
acres have been consumed by fire already this year, including 
almost 650,000 in my own State of Arizona. We have to do 
something about this.
    There are, of course, many causes for these wildland fires, 
but--and we will hear more from Dr. Covington later about what 
those causes are. They include long-term policy of suppressing 
every fire, but they also include, importantly--and I think 
this is the significance of Senator Daschle's legislation--they 
include a recognition that we have collectively allowed an 
excessive buildup of unnatural fuels, of high fuel load in our 
forests. Everyone has come to an agreement on that point.
    That was the key to Senator Daschle's legislation. He 
recognized and those who worked with him on that compromise 
recognized that we have this high fuel load, that it is 
dangerous, that it is doing severe damage, that it leads to 
high temperature crown fires, and that those high temperature 
crown fires do severe damage.
    Recognizing that, you have to ask, how did we get there? 
And the answer is, the policy we have in place is not working. 
The current law, as Mr. McInnis clearly articulated and Mr. 
Rehberg articulated, does not serve our interests. It allows a 
single individual to bring a lawsuit and to stop good public 
policy from going forward to allow these fuel loads to buildup. 
We can do something about that, and I think it is important, 
and I--.
    Again, Mr. Miller, I hope you would be listening to this 
because I think you are key to this discussion, Mr. Miller.
    Mr. Miller. I am listening. I can think and listen at the 
same time.
    Mr. Shadegg. I appreciate that.
    It seems to me we can find a middle ground. Each of the 
bills before you today contains a middle ground. All three of 
them are proposing that there are compromises that could be 
struck here.
    Mr. McInnis's bill says, all right, we won't take out the 
administrative process altogether, but we will expedite it.
    Mr. Rehberg's bill follows the compromises set forth in the 
Daschle legislation.
    My own bill says, let us look at the experts in the field, 
the regional forester, and defer to his judgment and let him 
make a decision about whether or not we must act in a given 
area, base that on good science, and then allow that action to 
occur without an unnecessary delaying lawsuit which can result 
not only in damage to the forest but in damage to habitat.
    In my own State of Arizona, lawsuits were filed by well-
intended environmental groups in the area later plagued by the 
Rodeo-Chediski fire. Those lawsuits stopped the thinning of 
area which was critical habitat for a number of endangered 
species, including 21 northern goss hawks and 12 spotted owls.
    The reality is, as a result of that litigation, the forest 
was not thinned. As a result of the fact that the forest was 
not thinned, we had a high-intensity crown fire, as Dr. 
Covington will explain to you, and it absolutely destroyed the 
habitat.
    You can go to my State of Arizona, you can go to my 
colleague Congressman Hayworth's district, and you can walk 
through that fire and you can walk through sections of the fire 
which were not treated and they are destroyed. There is nothing 
living. It is a moonscape. It is gone. I beg you. Come there 
and see it. And you can walk 20 feet across a line to a section 
of the forest that was treated, that was thinned as Dr. 
Covington and other experts advocate, and you can hardly tell 
the fire was there, and you have a continuing habitat where 
these endangered species can live.
    But we are in charge of this. We have to change the policy; 
and, if we don't, then we will be responsible for what is going 
on.
    My legislation includes a number of compromises. It is an 
effort to reach a reasonable balance. It says the regional 
forester must examine the area, he must make a certification, 
he must certify that the project is necessary to save that 
section of the forest. I believe it is critical for us to find 
a common ground here, and I appreciate the Committee's 
willingness to undertake this important task.
    The Chairman. I appreciate the gentleman's comments.
    [The prepared statement of Mr. Shadegg follows:]

Statement of the Hon. John Shadegg, a Representative from the State of 
                                Arizona

    Let me first thank Chairman Hansen for the opportunity to testify 
at today's hearing, and Chairman McInnis for working with me on this 
issue. Let me also take the opportunity to welcome Dr. Wally Covington 
of Northern Arizona University who is a nationally recognized expert in 
the area of forest ecosystem restoration. I am happy to be back in the 
Resources Committee...even for only one day...to speak with you about 
the crucial issues of wildlands fire prevention and forest management.
    This year has been one of the most catastrophic periods in the 
history of wildlands fire management. A total of 6.328 million acres 
has been consumed by fire this year including 649,000 acres in my own 
state of Arizona, 993,000 acres in Oregon, and an incredible 2.2 
million acres in Alaska. Nor has the destruction of this fire season 
been confined to the West: Georgia has lost over 159,000 acres to fire 
this year and other Eastern states have also been hit hard. In fact, 
over 5 million acres have burned annually in three of the last four 
years.
    Why have recent fire seasons been so devastating? While there are a 
variety of reasons, one which most objective observers will agree on is 
the lack of proper management of our National Forests and other federal 
lands. Many National Forest areas have an unnaturally high fuel load, 
including dense stands of younger trees. As Dr. Covington will discuss 
in greater detail, this is in contrast to pre-settlement vegetation 
patterns in many types of forests, most notably ponderosa pine and dry 
mixed conifer forests which, under more normal circumstances, feature 
lower densities of larger, more fire resistant trees. In forests of 
these types, reducing the fuel load through removal of some trees is 
needed to reduce the likelihood of catastrophic fires and restore 
healthy forest ecosystems.
    While objective observers can agree on the need to thin trees as a 
necessary part of managing a healthy, relatively fire resistant forest, 
current law allows even a single radical individual who is not 
interested in objectivity to stop even the most scientifically 
defensible project. Laws such as the National Environmental Policy Act 
and the Endangered Species Act were written to allow citizens to use 
the court system to ensure that federal agencies were making 
responsible land and resource management decisions. However, they have 
been seized upon by radical groups and individuals as means to bring 
activities which are legal and legitimate to a standstill under the 
guise of environmental protection.
    Ironically, the actions of these groups and individuals are 
actually worse for the environment than the actions they seek to 
curtail. They attack projects primarily on the basis of short-term 
considerations and often with the primary objective of preventing 
thinning projects which include a commercial component.
    However, the result of these attacks is the inability to remove 
excess trees from forests and the consequent overcrowding of unhealthy 
trees and build-up of fuel load. The long-term results are high 
intensity crown fires which wipe out all vegetation and wildlife, cause 
erosion by removing the plant structure which holds soil in place, and 
create air pollution. The excess fuel load causes these fires to burn 
at such high heat that the soil in many areas is literally sterilized.
    An excellent example of the irony of the actions of these groups 
occurred this summer in my state of Arizona. The Center for Biological 
Diversity used the National Environmental Policy Act to sue the Forest 
Service in May, 2000 to stop a tree thinning project in the Apache-
Sitgraves National Forest. This is an area which, according to Brian 
Segee of the Center, was home to endangered species including 21 
Northern Goshawks and 12 Spotted Owls. The Center succeeded in stopping 
the project and thus prevented the Forest Service from reducing the 
fuel load by removing excess trees.
    This June, the high fuel load in this area caused the Rodeo-
Chediski fire to burn at an intensity which wiped out the habitat of 
these Northern Goshawks and Spotted Owls. Presumably these birds were 
able to fly away but thanks to the Center, their habitat is now a 
charred wasteland. To further show how the Center was able to bring 
this, now obviously needed, thinning project to a halt, I am submitting 
for the Record of the Hearing an article from the Scottsdale Tribune on 
the issue.
    To ensure that badly needed projects can move forward in the 
future, I have introduced H.R. 5309, the Wildfire Prevention and Forest 
Health Protection Act of 2002, along with 19 of my colleagues. H.R. 
5309 is designed to break the current gridlock on responsible forest 
management by allowing projects involving the removal of trees to 
proceed if they meet certain criteria.
    The legislation allows the Forest Service to proceed with a tree 
removal project on National Forest lands if the Regional Forester finds 
that the project will take place in an area with a high fuel load and 
that a significant possibility exists that a crown fire could occur 
which would cause extreme harm to the forest ecosystem. This criteria 
is based on the fact that fires in areas of high fuel load burn at such 
a high intensity that they devastate the ecosystem. Alternatively, a 
project could proceed if it involves trees which are either dead or 
severely damaged by fire. This criteria acknowledges that dead and 
dying trees can pose forest health concerns by providing an environment 
conducive to insect infestation.
    In addition, the process incorporates two safeguards to ensure that 
these projects are in fact necessary for responsible forest management. 
First, the Regional Forester must make all decisions regarding the 
necessity of the projects on the basis of the best available scientific 
information to ensure an objective factual basis for the project. 
Second, the Regional Forester must certify the necessity of the 
projects to both the Chief of the Forest Service and Congress. This 
gives a meaningful opportunity for Congress and Forest Service 
headquarters to oversee the Regional Forester's findings and override 
them if they do not believe that the project is warranted or factually 
supported.
    Once the Regional Forester has made these findings on the basis of 
the best available science and given Congress and the Chief of the 
Forest Service the opportunity to oversee his findings, the project may 
proceed without legal challenge or review using the exact same language 
inserted by Senator Tom Daschle in the Supplemental Appropriations Act 
for fiscal year 2001. Unlike the Daschle approach, H.R. 5309 embodies 
greater flexibility because it is not project specific: it can be 
applied to projects in any Forest Service region which meet the 
science-based criteria and can withstand the oversight. Perhaps most 
importantly, it treats all areas of the country equally instead of 
decreeing that certain areas are more equal than others.
    In closing, let me again thank Chairmen Hansen and McInnis for the 
opportunity to participate in today's hearing. I look forward to the 
testimony of the witnesses and to passing legislation which will break 
the gridlock in forest management.
                                 ______
                                 
    [An article submitted by Mr. Shadegg follows:]

    [GRAPHIC] [TIFF OMITTED] T1551.019
    
    The Chairman. I would ask unanimous consent the gentleman 
from Arizona be allowed to sit on the dais with us. And thank 
you so much for being here.
    Secretary Norton, Secretary Veneman, we appreciate you both 
taking a place there.
    Mr. DeFazio. Mr. Chairman, we are not going to ask 
questions of the Members then?
    The Chairman. Both of these Secretaries, Mr. DeFazio, have 
to leave in a very short time, so we thought to accommodate 
them we would do that. After they are done, if you would like 
to ask questions of our colleagues--.
    Mr. DeFazio. Well, are we going to get a chance to ask the 
Secretaries questions?
    The Chairman. Well, that depends on how long it takes, I 
guess.
    Mr. DeFazio. The first--you know, we have been here for 
half an hour and we have heard from four Republican members, 
one Democrat who represents a much more urban area. I represent 
the most--the largest fire in the United States. I hope I have 
an opportunity at some point to speak on the issue today, Mr. 
Chairman. That is all.
    The Chairman. Of course you will be.
    I appreciate the two Secretaries being with us at this 
time.
    Secretary Norton, we will turn the time to you.
    Ms. Norton. Mr. Chairman, if I can make an adjustment in 
terms of the schedule. I conferred with Secretary Veneman. We 
both have--I have a plane to catch. She has another commitment. 
I can stay until 11:15.
    The Chairman. Fine. Whatever you folks want.
    Ms. Norton. She has to leave at 10:45.
    The Chairman. Secretary Veneman, we will hear from you.

   STATEMENT OF THE HONORABLE ANN VENEMAN, SECRETARY, UNITED 
                STATES DEPARTMENT OF AGRICULTURE

    Secretary Veneman. Thank you.
    Mr. Chairman and members of the Committee, it is an honor 
to appear before you today. I do want to apologize for having 
to leave early today. We had other commitments before this 
hearing was scheduled. Under Secretary Mark Ray, who is here 
with me today, will be available to stay and answer the 
questions of the Committee for those that come up after I am 
finished.
    It is also an honor for me to appear here today with 
Secretary Norton. We have worked very closely together on the 
issues related to our public lands, and I feel truly honored to 
be able to serve in this administration with her.
    The issues that we are discussing today are very important 
to the President and to both of us as Secretaries of our 
respective departments that deal with public lands. Our Nation 
is experiencing a devastating fire season, one as severe as the 
previous record-setting season of the year 2000; and to date 
wild fires have burned 6.3 million acres. This year matches the 
number of acres burned in the year 2000 and doubles the 10-year 
average for the number of acres burned.
    Firefighting costs for the Forest Service this year alone 
are projected to exceed $1.25 billion. Hundreds of communities 
have been affected, and thousands of people have fled their 
homes. Thousands of homes and structures have been burned. Most 
tragically, 20 firefighters have lost their lives.
    Most agree that this is not acceptable. Our Nation cannot 
afford to continue on a course that will result in more severe 
fire seasons like the one that we are having this year. We 
cannot afford the environmental devastation these fires cause 
to our forests, our rangelands, our rivers, and our air. We 
cannot afford the terrible human toll they take on communities 
and families, especially when human lives are lost.
    Last May, Secretary Norton and I, along with a bipartisan 
group of 17 western Governors, signed an historic 10-year 
comprehensive strategy and implementation plan to proactively 
reduce the risk of wildfire to communities and the environment, 
and we appreciate that the leadership that this Committee has 
shown in passing House Concurrent Resolution 352, which 
endorsed the 10-year strategy.
    The 10-year strategy and implementation plan acknowledges 
the need to actively manage our forests, to thin crowded trees, 
remove underbrush and deadwood, and to restore healthy, fire-
resistant forest conditions. They outline the process through 
which Federal, State, and local parties are cooperating to get 
work done in a timely way. They also recognize the critical 
need to reduce catastrophic fire risks both around communities 
and in strategic areas across the broader landscape.
    Yet, notwithstanding the unprecedented cooperation achieved 
through the 10-year strategy and implementation plan, land 
managers continue to face burdensome procedural requirements, 
appeals, and litigation that threaten to delay critical 
projects until it is too late.
    The Forest Service estimates that planning and analysis 
consumes 40 percent of the total work at the forest level. 
Routine prescribed fire treatments can take 6 months to plan. 
Projects that involve forest thinning or other mechanical 
treatments require 2 to 4 years of analysis at a cost that can 
exceed a million dollars per project.
    Once project planning is completed, the Forest Service is 
often confronted with time-consuming appeals and litigation 
that add months and sometimes years to the process. Between 
January of 2001 and July of 2002, 48 percent of all proposed 
Forest Service mechanical fuels reduction projects were 
appealed. In northern Idaho and Montana, 100 percent of 
projects were appealed. Unless our land managers have the tools 
and flexibility that they need to work with States, local 
governments, and communities to make good decisions in a timely 
manner, we will not achieve the goals of the 10-year strategy 
and implementation plan; and that is why President Bush has 
announced the Healthy Forest Initiative.
    The central purpose of the Healthy Forest Initiative is to 
provide the tools needed to actively manage our forests and 
rangelands and to make them less prone to devastating wildfire. 
The Healthy Forest Initiative focuses on what we leave on the 
land rather than what we take from it. It recognizes that time 
is not on our side and that resource managers working closely 
with States and local communities must be empowered to act 
quickly and strategically to make forests, rangelands, and 
communities more fire safe.
    Today the administration is transmitting to Congress 
proposed legislation to implement key elements of the 
President's Healthy Forest Initiative. The legislation has four 
parts.
    First, it authorizes emergency fuels reduction projects in 
priority areas that pose the greatest risk to people, 
communities, and the environment. These include areas 
surrounding communities, municipal watersheds, areas affected 
by disease and insects, and burned areas prone to catastrophic 
reburn. It provides a process for selecting these projects that 
is consistent with the 10-year comprehensive strategy and 
implementation plan, and it allows for the timely consideration 
of legal challenges.
    Second, the legislation provides authority for Federal land 
managers to enter into long-term stewardship contracts with the 
private sector, non-profit organizations, and local 
communities. This authority focuses again on what we leave in 
the forest for the overall long-term health of the forest. It 
allows contractors to provide valuable services, such as 
thinning trees and removing brush and deadwood and to utilize 
the materials which may have incidental value. It also provides 
incentives for contractors in local communities to invest in 
needed equipment and infrastructure, such as biomass plants, to 
produce energy.
    Third, the legislation repeals the rider that was added to 
the fiscal year 1993 Interior appropriation bill that imposes 
extraordinary administrative appeal requirements on the Forest 
Service that are not required of any other Federal agency.
    Finally, the legislation establishes a standard of review 
for Federal courts to ensure that they weigh the risks of 
irreparable environmental harm caused by catastrophic fires 
against the effects of management activities that reduce fire 
risks.
    The President intends to work cooperatively and in a 
bipartisan way with Congress, Governors, and local communities 
to move forward on these legislative proposals. We acknowledge 
the good work that this Committee has already done, including 
the legislation proposed by the Chairman and many other members 
of the Committee as we heard today. We look forward to working 
with you on the Healthy Forest Initiative and as we cooperate 
to make our forests, our rangelands and our communities 
healthier and more fire safe.
    Thank you again, Mr. Chairman, for the opportunity to 
appear before you today.
    The Chairman. Thank you, Secretary Veneman.
    The Chairman. Secretary Norton, we will turn the time to 
you, ma'am.

     STATEMENT OF THE HONORABLE GALE A. NORTON, SECRETARY, 
                   DEPARTMENT OF THE INTERIOR

    Secretary Norton. Thank you, Mr. Chairman. I appreciate the 
opportunity to talk with you all today about the Healthy Forest 
Initiative.
    As Secretary Veneman mentioned, her Department and mine 
have worked very closely together on this project and on 
coordinating our overall fire management program; and in 
cooperating with her on the presentation today I would like to 
focus on some of the visual issues here, to talk about 
essentially how these problems look.
    As I have talked with people who may not be as familiar 
with our forests as I think most of these Committee members 
are, I found that there is some misunderstandings and failure 
to grasp what the reality of the situation is, and I think 
looking at some of the photos is most helpful.
    First, let me introduce Rebecca Watson, who is our 
Assistant Secretary for Lands and Minerals Management. She 
oversees, among other things, the Bureau of Land Management.
    The first set of photos that we have here--and these are 
also found in the President's Healthy Forest Initiative report 
that was included in members' packets--shows what has happened 
in forest areas throughout the West.
    In the 1890's, when the top picture was taken, we see a 
cabin that is in what forests usually looked like at that time, 
a ponderosa pine-type forest that has a great deal of open 
grassland between the trees.
    The next photo was taken, the same cabin, the same forest 
in the 1980's. In that area, we see vastly more dense forests. 
Across the board in the West in many of our forest areas there 
are 15 times as many trees today as there were in the early 
1900's.
    That cabin was moved early in the year 2000, and during the 
summer of 2000 a fire came through and destroyed the entire 
forest behind the cabin. It was an overly dense area that was 
subject to the same kind of catastrophic fires that we are 
concerned about; and had the cabin not been moved, it 
undoubtedly would have been destroyed.
    But the last picture was taken earlier this year, and it 
shows that the trees are indeed dead.
    The difference between the dense forests and what we see 
with fire behavior there and a natural forest is illustrated 
here. Fire is truly a natural part of our ecosystem, and we 
don't want to guard against fire entirely. What we want to 
guard against is the catastrophic fire that occurs in overly 
dense forests.
    As you see here, the flames are very small. They are really 
focusing on the undergrowth and small trees.
    The next picture is one that shows what happens when a fire 
goes through a dense forest. This is a catastrophic fire. This 
is hitting the crowns of the trees. It is destroying old trees 
that would have survived the much smaller natural fires that we 
see going through.
    In order to make the changes that need to be made, we are 
talking about thinning the forests. And thinning the forests 
takes our forests from an overly dense set of trees to ones 
that are much more--are further apart and that have cleared out 
the small trees and the underbrush.
    And if you can put up the before and after photos.
    We have some areas where the fires have gone through, but 
the trees were thinned. And we have essentially the areas that 
were thinned and the areas that were not thinned. If you can 
just hold up both of those photos together. Hold up the other 
Squires photo.
    This is an area in Oregon, and the fire has gone through 
this area. I am sorry, we haven't--that one. Yes. OK. Well, I 
am looking for the after-fire photos here. Well, I will tell 
you what. Just hold up the Rodeo-Chediski photo. OK. This--all 
right.
    This is an area that was not treated in the Squires area in 
Oregon--I apologize--and, as you can see, it is a devastated 
forest.
    The same area--the furthest back photo that is up there. 
The next one. This is an area where the fire actually went 
through. You can see there is some burned areas, but it is a 
very little problem. Then the Rodeo-Chediski fire shows it most 
clearly.
    We have in the same area in Arizona where the areas were 
treated and untreated. You can see thinned and unthinned. Where 
the thinned fires, the trees are still alive. The same fire 
went through both of these forest areas. The unthinned area 
obviously is devastated. The thinned area, the trees are 
surviving.
    That is the result we want to get. We want to get our 
forests into a condition that will survive fires, that will 
restore the natural ecosystems.
    Now, from the Department of the Interior perspective, we 
have something over 50 million acres of forested lands in the 
lower 48. We manage our forests, for the most part, with the 
ecosystem of the forest in mind as the primary factor. We have 
some areas that are timber areas, especially on Indian 
reservations and in our Oregon and California designated lands 
that are BLM areas managed for commercial timber.
    But we also see the effects on the forest ecosystems. Birds 
like the white-crowned sparrows, western bluebirds, Rufus 
hummingbirds, white-headed woodpeckers, Lewis woodpeckers and 
so forth are historically common to the West, but they are 
species of birds that require open areas. Their populations are 
declining because of the lack of open areas. The dense forest 
ecosystems are not conducive to those kinds of wildlife. So, 
for the management of wildlife and the enhancement of our 
forested areas for wildlife, we need to have more active 
management of the forests.
    The Department of the Interior worked with the Department 
of Agriculture on our program with the Western Governors, the 
National Association of Counties and so forth to come up with a 
plan for dealing with the fire problem. We look forward to 
using the collaborative process that was identified in 
cooperation with those groups in order to identify the areas 
where emergency fuels treatment needs to take place, and our 
legislative proposal would provide that that process could go 
forward on 10 million acres. That would be areas in watersheds, 
areas that would be affected by disease, wildland urban 
interface and other high priority areas.
    For the Department of the Interior, the stewardship 
contracting approach is a new one. The areas where we would be 
looking are sometimes areas that might be considered commercial 
timber areas, but, for the most part, our lands are not that. 
We are going to be trying to be creative, to identify ways of 
shifting some of the costs for the thinning that needs to take 
place for the health of our forests onto the private sector and 
finding some way to get other people involved in this process.
    Frankly, for us, it is not going to be easy. We might have 
to look, for example, to a small landscape company that would 
be willing to thin out an area of juniper in order to have us 
pay for part of the contract, but they could keep wood for 
firewood or for mulch. That is the kind of contracting that we 
see perhaps taking place for the Department of the Interior. 
That, for us, gives us a way of expanding our ability to do 
fuels treatment. It is not something that is just being done in 
the context of the areas of the Pacific Northwest that we 
usually think of as the area of commercial forest. For us, it 
covers our rangelands and our forests that are not commercial-
type forests.
    Thank you.
    The Chairman. Thank you, Madam Secretary.
    [The prepared statement of Secretary Veneman and Secretary 
Norton follows:]

 Statement of Hon. Ann M. Veneman, Secretary of Agriculture, and Hon. 
               Gale A. Norton, Secretary of the Interior

    Chairman Hansen and Members of the Committee:
    We appreciate the opportunity to meet with you today to discuss the 
President's Healthy Forests Initiative and legislation that will 
improve fire management and forest health on our public lands.
    We would like to provide for the record written comments on the 
legislation that is being heard today. Our Departments are reviewing 
these bills and evaluating how they compare with the Administration's 
proposals. We want to commend the Committee and particularly, 
Subcommittee Chairman McInnis, for his active attention to the issue 
and the energy he has put into drafting a legislative proposal. We 
would also like to thank Representatives Rehberg and Shadegg for their 
proposals. There are common themes in our legislation and we look 
forward to working with you as the legislation moves through the 
process.
    The need for a plan to restore our forests and rangelands to long-
term health has never been greater. Today, the forests and rangelands 
of the West have become unnaturally dense and ecosystem health has 
suffered significantly. When coupled with seasonal droughts, these 
unhealthy forests, overloaded with fuels, are vulnerable to unnaturally 
severe wildfires. Currently, a 190 million acres of public land are at 
increased risk of catastrophic wildfires. It is in this context, and 
during this severe and ongoing wildland fire season, that we discuss 
President Bush's recently introduced Healthy Forests Initiative and 
legislation designed to promote efficiency and timely and more 
effective implementation plans to restore and sustain healthy forests 
and rangelands.
    The nation is experiencing one of the worst wildfire seasons in 
modern history. The Hayman fire in Colorado, the Rodeo-Chediski fires 
in Arizona, the McNally fire in California and the Biscuit fire in 
Oregon have come in sequence over the last several months. These 
incredibly fast moving, destructive fires have resulted in catastrophic 
environmental, social and economic impacts. They have been the worst in 
each state's history. These infernos, along with over 60,000 other 
wildfire starts, have burned over six million acres so far this year, 
matching the pace of the previous record-setting 2000 fire season and 
doubling the 10-year average. Based on current fuel conditions and 
weather predictions the potential for more fires remains high through 
the fall. The cost of fighting these fires has been staggering. 
Firefighting costs for the Forest Service alone will exceed $1.25 
billion. Hundreds of communities and thousands of people have fled 
their homes, and, most tragically, 20 brave firefighters have lost 
their lives.
    Our firefighters are more effective than ever, controlling over 99% 
of all fires on initial attack. Yet, as the severity of the season 
demonstrates, even our best firefighting efforts are not enough without 
an effective strategy to reduce the risk of catastrophic wildfire. In 
May of this year, working with the Western Governors' Association and a 
broad cross-section of interests including county commissioners, state 
foresters, tribal officials and other stakeholders, we reached 
consensus on a 10-Year Comprehensive Strategy and Implementation Plan 
to reduce fire risks to communities and the environment. The plan sets 
forth the blueprint for making communities and the environment safer 
from destructive wildfires. The plan calls for active forest management 
focusing on hazardous fuels reduction both in the wildland-urban 
interface and across the broader landscape. Active forest management 
includes: thinning trees from over-dense stands that produce commercial 
or pre-commercial products, biomass removal and utilization, and 
prescribed fire and other fuels reduction tools. We want to thank 
Representative Pombo and the members of the House of Representatives 
for initiating and passing House Concurrent Resolution 352 endorsing 
the Collaborative 10-Year Strategy. We take seriously our 
responsibilities under the Implementation Plan. For example, within 
five weeks of signing the Agreement, we completed detailed work plans 
to address the 23 implementation tasks identified in the Plan.
    Timely and strategically placed fuels treatment projects are 
effective in preventing or stopping fires. A recently published study 
by the Western Forest Fire Research Center concluded that treated 
stands experience lower fire severity than untreated stands that burn 
under similar weather and topographic condition. This report was 
released in March before this fire season, but we have many examples 
from this summer including the Squires Fire near Medford, Oregon, where 
untreated forest burned intensely while fire dropped to the ground in 
the treated areas giving firefighters the chance to attack the fire 
safely. On the Rodeo-Chediski and Cache Mountain Fires, damage to 
forest stands was minimized in areas treated to reduce hazardous fuel 
3-5 years earlier.
    In order for the 10-Year Implementation Plan to succeed, the Forest 
Service and Interior agencies must be able to implement critical fuels 
reduction and restoration projects associated with the plan goals in a 
timely manner. Too often, however, the agencies are constrained by 
procedural requirements and litigation that delay actual on-the-ground 
implementation. A June 2002 Forest Service study, The Process 
Predicament, identified three factors most contributing to project 
delay: 1) excessive analysis; 2) ineffective public involvement; and 3) 
management inefficiencies.
    The situation in this country has reached a point where the 
roadblocks which prevent agencies charged with the responsibility for 
forest health to implement management decisions must change. On August 
22, 2002, President Bush announced Healthy Forests: An Initiative for 
Wildfire Prevention and Stronger Communities. The Healthy Forest 
Initiative will implement core components of the 10-Year Implementation 
Plan, enhancing and facilitating the work and collaboration agreed to 
in that document. The Healthy Forests initiative directs the agencies 
to improve regulatory processes to ensure more timely decisions, 
greater efficiencies and better results in reducing the risks of 
catastrophic wildfires by restoring forest health. The President's 
initiative directs us, together with Council on Environmental Quality 
Chairman Connaughton, to: improve procedures for developing and 
implementing fuels treatments and forest and rangeland restoration 
projects in priority forests and rangelands in collaboration with local 
governments; reduce the number of overlapping environmental reviews by 
combining project analysis and establishing a process for concurrent 
project clearance by Federal agencies; develop guidance for weighing 
the short-term risks against the long-term benefits of fuels treatment 
and restoration projects; and develop guidance to ensure consistent 
NEPA procedures for fuels treatment activities and restoration 
activities, including development of a model Environmental Assessment 
for these types of projects.
    In accordance with the Healthy Forests Initiative, we have 
submitted to the Congress for consideration a legislative proposal 
designed to accomplish more timely, efficient, and effective 
implementation of forest and rangeland health projects. The intent of 
this proposal is to significantly increase and improve forest and 
rangeland health and to prevent the damage caused by catastrophic 
wildfires.
    The first section would expedite implementation of fuels reduction 
projects, where hazardous fuels pose the greatest risk to people, 
communities, and the environment, consistent with more targeted 
legislation passed in July. In implementing projects under this 
section, the highest priority will be given to wildland urban interface 
areas; municipal watersheds; and forested or rangeland areas affected 
by disease, insect activity, or wind throw; or areas susceptible to 
catastrophic reburn.
    Section 2 would authorize agencies to enter into long-term 
stewardship contracts with the private sector, non-profit 
organizations, and local communities. Stewardship contracts allow 
contractors to keep forest products and other vegetative material in 
exchange for the service of thinning trees and brush and removing dead 
wood. Long-term contracts provide contractors the opportunity to invest 
in equipment and infrastructure needed to productively use material 
generated from forest thinning to make forest products or to produce 
energy.
    Section 3 would remove a rider contained in Section 322 of the 
Fiscal Year 1993 Interior and Related Agencies Appropriations bill that 
imposed extraordinary procedural requirements on the Forest Service 
that are not required of any other Federal agency. The goal of 
meaningful public participation and consensus building will be better 
served through pre-decisional public notice and comment rather than 
through post-decision appeals.
    The fourth section would address standards of injunctive relief for 
activities necessary to restore fire-adapted forest and rangeland 
ecosystems. This section is designed to ensure that judges consider 
long-term risks of harm to people, property and the environment in 
challenges based on short-term risks of forest health projects.
    In addition, the Administration will work with Congress on 
legislation to supplement the Agriculture and Interior Departments 
effort to fulfill the original promise of the 1994 Northwest Forest 
Plan.
    President Bush's proposed Healthy Forests Initiative is based upon 
a common-sense approach to reducing the threat of catastrophic 
wildfires by restoring forest and rangeland health. Our goal is to 
ensure the long-term safety and health of communities and ecosystems in 
our care. Our responsibility is to ensure the long-term health of our 
forests and rangelands for the use, benefit and enjoyment of our 
citizens and for generations to come. These are goals and 
responsibilities that we take seriously and we fully commit ourselves, 
our agencies and the resources you have provided us with to fulfill 
them. We appreciate the continued bipartisan support we have received 
from the Congress, and we look forward to working with you on these 
legislative proposals.
                                 ______
                                 
    The Chairman. May I ask the two Secretaries, do you have 
any time left that we could ask you some questions? All right. 
I will--they have quite a heavy schedule. It reminds me of Mr. 
Babbitt, who used to come in here and do the same thing.
    Mr. DeFazio, do you want to take 5 minutes? Go right ahead.

  STATEMENT OF THE HON. PETER A. DEFAZIO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. DeFazio. Well, Mr. Chairman, you might remember at many 
times I disagreed with the past administration and didn't 
support those sorts of activities, either.
    Since I didn't have an opening statement, since the largest 
fire thus far this summer is still burning in my district, an 
area shared with Representative Walden, and there is a lot to 
say about this, I can use most of this for an opening 
statement, hoping that the Secretaries are listening.
    I raised this issue previously with Secretary Veneman and 
Assistant Secretary Rey in terms of the needs for thinning and 
a way of, as I described it to Assistant Secretary Rey, Nixon 
going to China. Mark, you could bring a lot of credibility to 
this.
    We have a choice, Mr. Chairman. We can either engage in the 
old battles here, let us repeal the environmental laws--and 
that is whole problem--or we can deal with this seriously. And 
I don't think we are dealing with it seriously. I just heard 
about a bill that the administration is going to propose that 
we don't have before us or they have sent up today. We don't 
have that bill before us. I would hope that before the 
Committee marks up a bill we would be allowed to perhaps hold a 
hearing on the administration's bill and we will be given a 
little bit of time to prepare.
    I found out about this on Thursday. I believe most 
Democrats found out about this on last Thursday before Labor 
Day weekend. We didn't have adequate time to prepare.
    There are experts in my district who do bring incredible 
credentials to this issue who are pretty neutral on it who do 
look at the problem and propose real solutions, as opposed to, 
hey, let us have fun. Senator Daschle snuck something into a 
bill. Nobody knew it was there. Let us beat the hell out of him 
for it, and let us beat the Democrats over the head with it, 
and let us pretend this is a solution to our problems. It isn't 
the solution. Now, let us get to the seriousness.
    I mean, Secretary, just on the Bitter Root, I just changed 
your headlines a little bit. Unmanaged forests, no, that is a 
mismanaged forest in the second one with all the overgrowth. We 
are talking about a hundred years of mismanagement, Democrat 
and Republican mismanagement of the forestlands of the United 
States. It is going to take a long time to dig out of this 
hole, and it is going to be very expensive.
    Here is the problem. We have got to talk about paying for 
it. It is great--I was talking to loggers down in the southern 
part of my district who are unemployed; and they said, you 
know, we go out and buy some equipment. We would be happy to 
work on these projects, but we have got to know that there is 
some predictability here. If we are going to make the 
investment, we need to know this project lasts 3 years, 5 
years, 10 years. How much work is there going to be out there? 
They are not going to make the investment to get back into 
business.
    There are plenty of people who are qualified and could do 
it, but the Federal Government hasn't been willing to put up 
the money, neither Democrat nor Republican. Let us not turn 
this into a partisan issue, let us not go back to the old 
battle. Let us really deal with the problem.
    I see some kernels of potential agreement with 
Representative McInnis and with what Mr. Shadegg said, but the 
point is, when you look at the study--and I don't know if 
either of you are familiar with this, but the FI A biozone, 
which has not been peer reviewed and studied yet, but it is 
available in draft, from--been done at Oregon State University 
at the research station. They just did an intensive analysis of 
one forest in Oregon and Washington--in Oregon and California.
    In that one forest, after you net out what you could 
possibly make, because particularly on the east side forest 
there is very little value. Juniper for mulch, juniper doesn't 
biodegrade; it is not a very good mulch. But, you know, I mean, 
there is not much value there. They made great fence posts, and 
we might be able to market the juniper there.
    But the point is, $1,685 per acre, 2.7 B--billion--dollars 
outlay net for one forest. We are talking about mismanagement 
of the Federal forests over a hundred years that, if we were 
willing to make the investment, realistically, over the next 10 
years, with all the commercial value that could be realized--
and most of that is westside Oregon, Washington, Northern 
California--for any commercial species that might come out and 
need a thinning, you are talking about probably a net outlay by 
the Federal Government of $50 billion or more.
    That is what we need to hear from this administration. We 
didn't hear it from the last one. I don't know that we are 
going to hear it from this one. But the point is, we can't--
let's not go back. Let's not go back. I mean, let us not go 
back and fight the forest wars all over again. The current 
forest policy of the United States of America is a failure, and 
it is a bipartisan failure accumulated over many years with 
many contestants on either side. And let us not feed either 
side of this battle. Let us try and break through. Please, let 
us try and break through.
    There are things that we can do that bring vast agreement 
between environmentalists and industry and the people in the 
local communities who are the ones most impacted by this stuff. 
But there are other things that just feed back into the old 
wars, and that is where I am afraid we are headed with this 
hurry-up.
    Mr. Chairman, I ask respectfully that we hold another 
hearing on this issue. We have all the bills, including the 
ones the administration has just mentioned, today before us. We 
have it at a time when the Secretaries and other interested 
parties have the time to sit with the Committee and go into 
these things in detail. Let us deal with this issue seriously. 
Let us not use it for political advantage, I beg you, Mr. 
Chairman.
    The Chairman. The time of the gentleman has expired.
    I ask unanimous consent the gentleman from California, Mr. 
Herger, be allowed to sit on the dais. Hearing no objection, it 
is so ordered.
    On the majority side, questions for the two Secretaries. 
Mr. McInnis is recognized for 5 minutes.
    Mr. McInnis. Thank you, Mr. Chairman; and I would address 
it to both Secretaries.
    I keep hearing up here that there are proposals to throw 
all environmental laws out. Have you seen any proposal or does 
the proposal that the President intends to put in in front of 
the U.S. Congress propose in any sense whatsoever to throw the 
environmental laws out?
    Secretary Norton. Congressman McInnis, that is certainly 
not our proposal. Our proposal is a very reasonable approach. 
We have a collaborative process that we would work with the 
Western Governors and local stakeholders to identify priority 
areas for an emergency treatment project, and that would be a 
substitute for the ordinary NIBA analysis that would be done in 
that situation. It would still have the same kind of process 
that would be done for the overall management of the forest 
areas or the BLM districts or so forth.
    We have land-use plans, and those land-use plans would be 
addressing the overall plan for the health of that area. So you 
would have that overall guidance document in place, and then 
for the emergency treatment we would use a collaborative 
process instead of producing all of the paperwork.
    Mr. McInnis. Madam Secretary.
    Secretary Veneman. Yes, Congressman. I think that one of 
the things that is important to recognize about these proposals 
is it is not calling for an elimination of input but more 
upfront collaboration so that we don't continually get into 
delays in the process because of continued appeals and court 
actions, so that we can create the kind of predictability that 
Congressman DeFazio is talking about.
    I think that a couple of things also are clear in terms of 
some of the issues that were brought up.
    One, we don't want this to be a partisan debate either. It 
is a bipartisan issue. We have worked with a bipartisan group 
of Governors in proposing the various plans and the 
implementation. We had bipartisan representation in Oregon last 
week when we announced the programs with Senator Wyden and 
Governor Kitzhaber being with us, because these issues are 
long-term issues, as you say. One of the proposals in this 
legislation is to create the exact kind of predictability and 
investment that Congressman DeFazio talked about, and that is 
allowing us to enter into some long-term contracts so that 
those investments can be made so that we can have the 
predictability and we can get the long-term plans that are 
going to be necessary to deal with this long-term and long-time 
problem that you have identified.
    So I think that, in fact, the legislation does address a 
number of these issues that have been raised, and we need to 
work together in a bipartisan way to accomplish the kind of 
results that we all need.
    Mr. McInnis. I would also like to be point out that will 
probably be brought to your attention, is that there is a new 
study out by the Forest Trust in regards to the report--a 
comparison in the two government reports of which I mentioned 
earlier on factors affecting timely fuel treatment decisions. 
When you take a look at that, let me tell you that it is based 
on a faulty--the premises is based on a faulty comparison. It 
is not accurate. When we came out with our new numbers, we are 
focused on the mechanical removal of mechanical thinning. That 
is--it is very clear in the title of what we are attempting to 
figure out what appeals have delayed that. So I don't want this 
to distort the effort that I am making, frankly, to get 
accurate numbers of what this appeal or paralysis by analysis 
is doing.
    Finally, with the remaining seconds I have, Mr. DeFazio, I 
think the comments I heard from you are some of the best 
comments I have heard. I would invite you to come to my 
Subcommittee. Because in my Subcommittee it has become a 
partisan warfare on describing a thinning of--it can't be more 
than seven inches, or something like this, study after study 
thrown in our face. And I would like you to come in and broker 
a little bipartisanship in that Committee, because it seems 
that everybody talks about bipartisan, but as soon as we get 
into that Committee they lock horns, and it is a little easier 
said than done.
    Mr. DeFazio. I will be happy to work with the gentleman, 
and I will talk to him afterwards.
    Mr. McInnis. Thank you, Mr. Chairman.
    The Chairman. On the minority side, Mr. Miller.
    Mr. Miller. Mr. Chairman, I thank Secretary Veneman and 
Secretary Norton for joining the Committee hearing.
    The Chairman raised the issue in opening remarks, and there 
has been a lot of agreement here, that this has been a 
mismanaged policy in the past, and the crux of that has been 
around an intensive fire suppression policy.
    What are you envisioning in the future in dealing with the 
issue of fire suppression? Under our most optimistic policies 
and treatment, it is going to be a long time before we can 
outguess the lightning strikes. We have the forests in such a 
shape that just with the natural causes of fire, what is it 
that we are going to do, both on the Interior lands and the 
Forest Service lands, with respect to suppression? We are 
always subject to Monday morning quarterbacking when the winds 
change and weather change, and yet we know an extensive 
suppression policy has gotten us into the situation where we 
are now.
    Secretary Norton. We undergo a process of looking at each 
individual fire to decide if that is something that ought to be 
allowed to burn or should be suppressed. We have had a number 
of fires, even in this drought year where all of the forests 
are so fire-prone, where we still have allowed some fires to go 
forward.
    We had, for example, one that is on one of the Department 
of the Interior lands where we are monitoring that, but it was 
allowed to burn.
    In most years we can make better use of natural fires and 
allow those to do some of the prescribed burn-type thinning for 
us. This year has been such a drastic year, we have not been 
able to use that as much as possible.
    We have to make the balance of protecting homes and 
protecting from the catastrophic fires. If we get to a stage 
where we have thinned out our forests where it is back to a 
more natural state in our forests, then fires are not so 
catastrophic and do not have the same ecological effect that 
they have today, so we can judge it more just from the impacts 
on human habitation.
    Today we have to look at human habitation and the 
devastation to habitat that may also be caused.
    Mr. Rey. In the Forest Service, I think we have a pretty 
good example of how we can increase the use of prescribed fire, 
once we have refused fuel loads, so fire can be used safely. In 
our southeast region where we do a lot of prescribed fire, it 
is because we have forests where the fuel loads have previously 
been reduced, so we can use prescribed fire as a primary forest 
health tool.
    Mr. Miller. Do you have the same policy as the Secretary, 
fire by fire?
    Mr. Rey. Basically the same policy, that is correct.
    One thing that I think is worth adding, it is probably easy 
to beat ourselves up for 100 years of mismanagement, but I am 
not sure it is fair to our predecessors. At the turn of the 
century, we had an incomplete understanding of the role of fire 
and natural ecosystems in a large number of catastrophic fires, 
so the reaction at that time based upon what was known is not 
necessarily a bad reaction. Indeed, it was a reaction that was 
necessary at that time to convince people that you could 
protect forces and that forests were worthy of a long-term 
investment. It was the basis for the development of what we now 
call scientific forestry. But, like anything else, too much of 
a good thing is dangerous and we now know that we overreacted 
and suppressed fires in cases where we should not have.
    The Chairman. On the Majority side, Mr. Walden.
    Mr. Walden. Mr. Chairman, thank you.
    I share both the passion and concern of my colleague from 
Oregon, Mr. DeFazio. Forty percent of this Biscuit fire, over 
204,000 acres, burned in my side of the district. And I have 
had a lot of other fires, including the Squires fire which the 
President and the secretaries were at, and I want to thank you 
for coming to Oregon and I want to thank the President for not 
only coming out, but meeting with the firefighters and for 
speaking out on the need for reform and change.
    As I rode back down the hill with the President, with 
Senator Wyden and Senator Smith, he was very clear on his 
openness to work to find a solution. I sense in terms of 
legislation coming up here that there is an opportunity for us 
to weigh in and try to figure out a solution here. He was 
certainly open to that in the briefing and in the private 
discussions we had.
    Mr. Miller's comment was intriguing because I agree we 
cannot always outguess lightning, but the Forest Service did 
try on the McCache area where they tried to do a vegetation 
project. It took years to go through the process. ONRC appealed 
it. It was the fire this year that burned two of the houses at 
Black Butte, 500 of the 1,000 acres were proposed for 
treatment, but because of their appeal that was later thrown 
out, did not get treated, and that is where the fire burned.
    Occasionally we do try and outguess the lightning, and most 
of the time firefighters put out these blazes. I was amazed by 
the number of dry lightning strikes in my district, and it is 
an enormous percentage that get put out right away. Very few 
actually get away, but when they do, we have these catastrophic 
fires. I am concerned about where we are in terms of getting in 
and doing the treatments and the time delays and this enormous 
fight we are having over what size tree is allowed to be cut.
    Shouldn't we be managing based on the health of the trees? 
I hear these comments about saving old growth. I like being out 
in old growth, too. We do need to preserve some. The point is 
you can have a 24-inch diameter diseased tree up against a 30-
inch healthy tree. Doesn't it make sense to take out the 
diseased one regardless of its diameter?
    How do we get to an answer on old growth?
    Secretary Norton. Certainly we need to look at these 
situations on a case-by-case basis. From our perspective, what 
we would like to see are some open areas for wildlife. From our 
wildlife management perspective, we may want to do some things 
that are not dictated just on cut out every tree smaller than X 
or leave every tree bigger than X.
    Our proposal is not about trying to go after old growth. 
That is not what we are talking about here. We also need to 
have the on-the-ground flexibility to be able to manage to what 
a particular forest needs.
    Mr. Walden. Does this proposal prevent any appeal or any 
comment by people?
    Secretary Veneman. No, it does not. And I think that is 
important here. The public input process is what is important. 
The proposal attempts to put much more of that up front in the 
planning process as opposed to leaving it to appeal after 
appeal after appeal. That actually is impacting the overall 
health of the forest, whether it is cleanup after a fire or it 
is dealing with the underbrush and the fuels load, is that we 
want to be able to come in and actively manage but with proper 
planning and input.
    I might add that in response to your question about what 
you take out of a forest, as I said in my opening statement, 
what is critical here is what we leave behind. The Healthy 
Forest Initiative is about leaving behind a healthy forest that 
can withstand some fire, that can protect communities and 
protect people.
    Also, it is very important that this year I think we have 
had one of the most successful suppression years that we have 
ever had because we have suppressed, in early outbreak of fire, 
99.6 percent of the fires; and yet we have had one of the most 
devastating fire years because the areas that are burning are 
not well-thinned and they are not healthy and they are not well 
maintained, and that is what this initiative is really all 
about.
    Mr. Walden. I would just point out that on the Squires 
fire, 37 tankard sorties were flown out of the Medford tankard 
base. We are delighted it was able to remain open and we are 
doing our part on this end to make sure that it is upgraded and 
will remain open and active for the future.
    The Chairman. On the Minority side, Mr. Inslee.
    Mr. Inslee. Thank you, Mr. Chairman.
    There is a lot we still do not know, but we know that we 
cannot go back to the days of lawless logging and we cannot 
allow the smoke from these fires in the West to obscure the 
fact that the real question is not whether to have a fuels 
reduction program, but where to clear and what to clear.
    I have a couple pictures that I think, after listening to 
the hearing, identifies the issues that this Committee needs to 
resolve to try to improve our fuels reduction program.
    The picture we are looking at here is a 500-year-old 
Douglas fir in the Mount Baker National Forest. I was up there 
a week ago, and we were taking a core sample of it, aging it. 
That tree is an interesting tree in that it does something that 
fire-resistant trees do: It survives fires. It survived a fire 
60 to 80 years ago--our core sample disclosed that--that burned 
through the forest. These are the fire-resistant trees. We do 
not want to take these fire-resistant trees out of the forest.
    The controversy in these forests that lead to these appeals 
are the fact that the Forest Service frequently in mechanical 
thinning projects has attempted under the guise of a fuel 
reduction program to sell commercial timber to generate revenue 
rather than to protect the ecosystem from catastrophic fire. 
This tree was not marked for logging. I used it for a 
demonstration.
    This next picture was. This is a tree from an Oregon forest 
in an alleged fuel reduction program, a tree that is clearly 
not the sort of toothpick trees that we consider part of the 
fuel-reduction effort that ought not to be the ones that are 
cut.
    The diagnosis that I have is where we have controversy is 
in the mechanical thinning programs, where citizens have blown 
the whistle on commercial sales under the guise of fuel 
reduction programs. How do we solve that problem?
    The proposal that has been given under this bill and by the 
administration is to reduce the ability of citizens to blow the 
whistle on the government that they elect and pay for. We do 
not think that the answer to this problem is to reduce citizen 
involvement. In an administration that believes in local 
control, it seems to me to be a little bit ironic that its 
response to this issue is to reduce citizen involvement in 
decisionmaking. I would suggest that there are things that we 
need to do, can do successfully, to reduce controversy about 
these issues. And I will propose a bill that will do these four 
things, and I would hope you would support it.
    No. 1, we will focus these fuel reduction programs where 
they ought to be focused and that is in the urban/wildland 
interface. If we have 39 million acres at risk for fires, and 
we do not have as much to do about 1 to 2 percent of them a 
year, we ought to be focusing in the urban/wildland interface 
to first protect people's houses from burning down. But we are 
not doing that now.
    The Forest Service last year in the acreage it treated, 
two-thirds of the acres it treated was not close to anybody's 
house or a town that was under threat. We need to say 85 
percent of your budget is used first to protect people's homes 
from burning down. That ought to be the national priority when 
we have to husband our resources.
    If we look at the Los Angeles forest, you are spending huge 
amounts out in Timbuktu, and you are not spending money right 
next to people's houses that are in danger of burning down the 
next time there is a lightning strike. It is a priority issue.
    No. 2, we have to have definitions on a forest-by-forest 
basis of what trees we are going to cut down. The reason we 
have citizen concern about this is that the Forest Service does 
not offer citizens clarity or certainty as to what will be cut 
and what will not be cut. The Forest Service on a forest-by-
forest basis needs to adopt maximum diameter cuts so that 
citizens will know what the rules are in a local input 
decisionmaking process.
    No. 3, we need the funds from commercial sales from these 
programs to go to the general fund and not the Forest Service. 
The reason we need to do that is if we create an incentive for 
any agency to generate revenues by doing program X, you going 
to get program X. And it is asking too much of the Forest 
Service to ignore the fact if you sell timber out of this 
program you make money and if you just do thinning you do not, 
and to ask it not to be influenced by that fiscal situation.
    No. 4, we need to involve the States more, and the 
Governors have led a step forward in this. We need to create a 
grant program for the States because when the Governors looked 
at this issue they did not waive environmental laws or reduce 
citizen input, they welcomed it. We need to welcome citizen 
input to come up with locally generated solutions. I ask you to 
consider those four ideas, and I throw it open for your 
response.
    The Chairman. The gentleman's time has expired. They can 
give you a written response.
    The Chairman. Mr. Inslee.
    Secretary Veneman, I know you have to leave at 10:45. Let 
me just say we appreciate you coming to the Committee. We know 
this is a very emotional issue with a lot of people. The 
Committee and many of the members have talked to me about many 
of the things that you have alluded to. Many fall in the realm 
of the idea of the amount of your money and budget that goes to 
adjudicate issues, that really that money should be used for 
advancing the Forest Service or the Interior.
    I was appalled when I called BLM and talked to Mr. Bosworth 
about the amount of money that it takes to litigate these 
areas. It is unbelievable that the budget has gone that far in 
the years that I have been here. Somehow we have turned over 
the management of the public lands of America to people who 
wear black robes and are not scientists and do not have a good 
understanding of the issue.
    I hope in Mr. McInnis's bill and Mr. Shadegg's bill we can 
incorporate some of these issues to alleviate that huge 
problem. We really should probably double your budgets just to 
adjudicate these issues.
    We thank you for being here. It is 10:45. That is the time 
you needed to leave. I appreciate you being here.
    Does the Committee have further questions? They have two 
very competent assistants.
    Mr. Rehberg. Mr. Chairman, my question is for Mr. Rey.
    Secretary Veneman. Thank you, Mr. Chairman.
    Mr. Rehberg. I thank the Bureau of Land Management team for 
coming out on our fire. They responded very quickly, and we 
appreciate them being there. Please pass that along to your 
folks.
    Mr. Rey, I would like you to respond to Mr. Inslee. I take 
some offense with people trying to manage forests from 
Washington, D.C. It is easy to look at a picture, but can you 
look at that picture and tell us exactly why that a tree needs 
to be cut down? I doubt it.
    Mr. Rey. At the risk of offending you further by suggesting 
how we could manage these two stands from Washington, D.C., let 
us look at the first picture first.
    That picture is on the west side of the Cascades Forest on 
the Mount Baker Snoqualmie National Forest. It needs to be 
thinned, but it is Fire Regime 4, which means that fire is a 
less frequent visitor in this section. That would not be one of 
our top priorities for thinning. If we were to thin it, we most 
definitely would not cut the tree that Mr. Inslee is looking 
at.
    Now the other picture, that is the Ponderosa pine site on 
the east side of the Cascades. That would be Fire Regime No. 1, 
which is the most frequent Fire Regime, and depending on the 
ecological circumstances involved or its proximity to the 
wildland-urban interface, a priority for treatment.
    Now, one of the things that I have learned to become 
suspicious of over the years is pictures that show me part of a 
tree and not all of the tree. I would like to see the crown of 
that tree to see if it is diseased, dying, or dead so I can 
evaluate whether its removal would be necessary just for that 
reason. But beyond that, even if it is a perfect and live tree, 
I am looking at a stand density that is large.
    In some sites we will have so many trees of medium to large 
diameter per acre, that to get down to the stand densities that 
we want that we know that can withstand fire, we are going to 
take out some larger-diameter trees even if they are healthy, 
because we are concerned about the quality of the stand that we 
leave behind, not because we are necessarily looking to remove 
large-diameter trees.
    Mr. Rehberg. I have not heard you talk about loggers. Your 
decision was made based upon the commercial value of that tree.
    Mr. Rey. Whatever commercial value comes from one of these 
thinning operations is in our view incidental, not dispositive 
or motivating in why, when, or how we do it.
    Mr. Rehberg. That would be the mantra if you are trying to 
keep change from occurring. If you want it exactly as it is, 
you would always throw up the commercialization of the forest 
as opposed to seeing perhaps timber companies being a tool to 
create a better environment.
    Mr. Rey. If there is incidental value to taking out a tree, 
provided that your primary purpose is the health of the forest 
that you leave behind, I think it makes some sense to recover 
that value by creating jobs and products. But the real 
challenge is not to take out the big trees, but what to do with 
the small trees. If we can by writing longer-term contracts 
provide for stability of supply, we can add value to smaller-
diameter material by using that stability to attract 
infrastructure investments that do not exist now that can 
utilize that material.
    This is a 2x8 I joist. It structurally has the same 
properties as a 2x8 of sawn lumber which would have to come 
from a tree at least that big or bigger. This joist is 
comprised of 12 one-eighth-inch strips on either side, with a 
particle board insert in the middle. You don't need anything 
bigger than 4 to 6 inches in diameter to manufacture this. A 4- 
to 6- inch tree, put it on a lathe, instead of sending it 
through a head saw, peel it instead of sawing it, cut the sheet 
of veneer into strips, glue the strips together, grind up what 
is left to make the particle board and you have a 2x8.
    Mr. Rehberg. I would like to ask you one more specific 
question. The pictures were put up of the Bitterroot. The 
Forest Service made the recommendation that they would like to 
see 38 sales on the Bitterroot. It was appealed. You did not 
appeal that appeal.
    Did you not appeal that appeal because your determination 
of 38 or 39 sales was inadequate and wrong, or did you make it 
because the laws were in place to take the appeals process so 
far beyond the salvageability of those trees that it was not in 
the best interests of the Federal Government to do it? Did you 
compromise for the sake of compromising, or did you back off 
because you were wrong in the first place?
    Mr. Rey. We settled that case through a mediated settlement 
because the issues involved were time-sensitive. It was a 
choice between trying to see what we could agree to treat, or 
treating nothing.
    Mr. Rehberg. So the health of the forest was dictated by 
the law and an appeals process as opposed to doing the right 
thing for the forest?
    Mr. Rey. That is what our land managers would say, yes.
    Mr. Rehberg. Thank you, Mr. Chairman.
    Mr. McInnis. [Presiding.] We are going to have two votes. 
We will continue for another 5 minutes, and then recess until 
probably 11:20, at which time we would ask the second panel to 
testify. Hopefully we will be able to expedite so we can 
finish. We have 5 more minutes.

   STATEMENT OF THE HON. HILDA L. SOLIS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Solis. Mr. Chairman, I apologize for arriving late. We 
recently had a fire in my district that is still not fully 
contained. There are 15,000 acres that have burned in the Los 
Angeles National Forest. I am getting details now from the 
Forest Service as to how that got started, but one of the 
concerns that I have which was echoed earlier was how we deal 
with communities and populations that are near these areas 
which are fire-prone. What we are seeing is a lot of possible 
hazards to the locales and to structures there. Already we have 
spend $1.9 million in trying to contain the fire in this 
particular location.
    I would hope that we could have some input from the Forest 
Service to better understand what kinds of support we actually 
need in areas that are adjacent to these communities. We are 
talking about a heavily populated area that is visited 
extensively during the summer. We have thousands of families 
that go up there and camp. I would like to hear what kinds of 
plans there are for that.
    Secretary Norton. We have an agreement with the Western 
Governors Association, the National Association of Counties, 
and others that would establish a process for prioritizing our 
fuels treatment programs, and so we would envision a 
collaborative process that would have local public meetings, 
the local county commissioners would be involved, as we are 
deciding what to do to try to prevent the possibility of 
catastrophic fires in the future.
    So in that planning process stage, we would have a lot of 
involvement, in contrast to what Mr. Inslee was suggesting.
    That would be our involvement at that stage of the process, 
if that addresses your question.
    Ms. Solis. One of the concerns that I have is there are 
constituents who are distressed that they lost their property, 
their cabins. What kinds of decisions are made that would allow 
for those structures to be destroyed? Obviously there are 
issues about personnel. How many appropriate personnel were 
assigned and made available at this particular site?
    Mr. Rey. That was one of our fires. We would be willing to 
sit down and give you our post-suppression report and go over 
what the initial attack strategy was so you can see for 
yourself the decisions that the fire managers on the ground 
made. I would be happy to visit the forest with you and walk it 
through from the time of ignition to the early stages of 
initial attack. We have done that in a number of cases with 
local and Federal elected officials so they can see some of the 
variables that our fire managers have to confront when there is 
an ignition.
    The Angeles is a particularly challenging forest for us 
because our fire models show that there is no place on the 
Angeles where an ignition will not reach a dwelling or a 
neighborhood within 6 hours if we fail on initial attack. So 
the entirety of the Angeles for all practical purposes is in 
the urban/wildland interface, and that is Fire Regime 1, so 
fire is a very frequent visitor.
    In southern California, we have a cooperative agreement 
with Los Angeles County and the California Department of 
Forestry. They do the majority of initial attack work, and we 
come in behind them. But I think the best thing for us to do is 
to sit down after we get that fire suppressed and walk through 
the attack strategy and see how it played back.
    Ms. Solis. I am distressed to hear it will not be contained 
until next week. This will be a 10-day approach to this 
particular problem.
    Mr. Rey. It is not that we are dilly dallying to contain 
it. It is the practical realities of getting containment in 
that topography with gusting winds that are challenging.
    Mr. McInnis. Mr. Inslee, you have 35 seconds of time.
    Mr. Inslee. Mr. Rey, I trust your judgment there is risk 
here, but why the Forest Service spent $9.8 million in the 
Plumas National Forest, which is way away from dwellings, and 
21 times less than that in the Angeles forest, which your 
testimony just told me is 6 hours away from burning down 
homes--why do you prioritize in that way? Doesn't it make sense 
to change that prioritization?
    Mr. Rey. Much of the money spent on the Plumas National 
Forest was as result of a congressional earmark placed in the 
Department of Interior appropriations bill by Senator 
Feinstein.
    We are supportive of the work that was done there. It was 
necessary. There are wildland/urban interfaces on the Plumas. 
That is why the money was spent there.
    Clearly the wildland/urban interface is a top priority. It 
is not our only priority. We acknowledge that it is a top 
priority, and we will be moving resources into places like the 
Angeles.
    In 2002, our investment in the wildland/urban interface as 
opposed to outside of it flipped over. Sixty-nine percent of 
our work was done in the wildland/urban interface. The balance 
was outside of it. So that the statistics you cited from 2001 
have reversed themselves dramatically. I think that trend will 
continue as we move more aggressively into the wildland/urban 
interface. It is a top priority. It is not our only priority.
    Mr. McInnis. Mr. Inslee, your time is up. Mr. Gibbons.
    Mr. Gibbons. Mr. Chairman, thank you.
    I want to thank you for the bills you and the others have 
put forward, and thank our witnesses for being here today. I 
appreciate all the hard work they have done.
    I have one brief question that may require you to get back 
to us with a written response. We have heard about the costs of 
dealing with our forests and cleaning them up. Enormous numbers 
of dollars are argued out here as a reason not to do it. But 
what I would like you to do is to give me an estimate of the 
cost of the firefighting that has taken place or will take 
place as a result of not doing it, and sort of compare those 
two on economic and operational costs to fight fires when we do 
not go in and prepare not only our forests and our wildlands 
for fire resistance compared to a fire operation that takes 
place afterwards? I think that is a fair comparison to make and 
I know that we have spent a lot of money in the last few months 
just fighting fires, in addition to the lost resource revenues. 
I would ask if that can be provided.
    Secretary Norton. We will take a shot at that.
    Mr. McInnis. The Committee will recess. I think it is going 
to be about 20 minutes. We will try to be back in order at 
11:20.
    [Recess.]
    Mr. McInnis. The Committee now will have our second panel 
of Mr. Burley, Mr. Creal, Mr. Covington, Mr. Calahan, and Mr. 
Schulke. I would defer to Mr. Hayworth for a special 
introduction.
    Mr. Hayworth. Mr. Chairman, I thank you very much.
    It is a special honor to welcome a friend and constituent, 
who remains a constituent at least until the realignment and 
the formation of the 108th Congress, known formally as William 
Wallace Covington, known to us in Arizona and across the United 
States as Dr. Wally Covington.
    Dr. Covington has been a leader in forest health and 
ecological restoration since he became a professor at Northern 
Arizona University in 1975. Today he directs the Ecological 
Restoration Institute at NAU, the Nation's foremost applied 
research institute for forest restoration. Dr. Covington 
practices what I would like to refer to as enlightened 
environmentalism. He cares a great deal about the preservation 
of our forests and environmental resources and has provided us 
with some of the best scientific research in the field. We are 
grateful to have Dr. Covington here to testify. We thank you 
for coming back and doing this hardship duty in Washington, and 
we look forward to your testimony.
    Mr. Flake. I just want to echo Mr. Hayworth's sentiments. 
Anybody from Arizona has heard of Dr. Covington's work, and 
anyone who has visited and toured the forests with him knows of 
his commitment and knowledge and experience. I look forward to 
benefiting from that today.
    Mr. McInnis. We are going to go ahead and proceed. We will 
allow each panelist to testify for 5 minutes, and I ask 
everybody to respect the 5 minutes because we are going to try 
to move through this and finish early in the lunch hour because 
of other commitments that the Committee has.
    Mr. McInnis. We will go ahead and start with Mr. Covington. 
Mr. Covington, you may proceed.

STATEMENT OF WILLIAM WALLACE COVINGTON, REGENTS' PROFESSOR AND 
  DIRECTOR OF THE ECOLOGICAL RESTORATION INSTITUTE, NORTHERN 
                       ARIZONA UNIVERSITY

    Mr. Covington. Thank you very much.
    Where we are right now is where many people have been 
predicting where we would be for generations of professional 
ecologists and natural resource managers.
    I would like to start by saying that I feel that we have to 
be very careful in defining what the problem is and have some 
very clear thinking about moving forward in resolving the 
problem.
    Large catastrophic stand-replacing fires are natural in 
many western forest types. This includes chaparral, large pole 
pines, spruce fir types, and some other forest types. There is 
very little we can do to change that fact other than type 
conversions. The major opportunity here for dealing with a 
restoration-based hazardous fuel reduction is the Ponderosa 
pine, the drier forest types. That is where the bigger problems 
are. I think everyone is in agreement on that. Over 90 percent 
of the fire-suppression expenditures over the past several 
decades have been in this type.
    The next point that I want to make is state that the 
problem is a very complex one. It is not just about drought. We 
have always had periodic droughts in the West; we always will. 
But the problem is we have droughts intersecting with fuel 
conditions that are unprecedented in the evolutionary history 
of especially the Ponderosa pine type. It is not just about 
houses burning. Although the loss of a home is tragic, houses 
can be rebuilt in months. Ecosystems take centuries. Degraded 
watersheds take millennia. And it is not just about crown 
fires. Crown fires are just the latest in a long series of 
symptoms of degrading ecosystem health. They include the loss 
of native biological diversity, the decline of watershed 
function, increased erosion and sedimentation, and unnatural 
insect and disease eruptions.
    It is not just about too many trees. We have too few old-
growth trees. There has been a tremendous population crash of 
old-growth trees and far too many younger trees. It is not just 
about small trees. In restoring ecosystem health, we also have 
to look at removing some of the larger trees that have invaded 
areas where they should not be, especially wet meadows, open 
parklands. These openings that are so important to so many 
species that Secretary Norton alluded to.
    It is not just about 40-acre stands or a quarter-mile strip 
around a town. It is about greater ecosystems that have become 
so degraded and fragile that they are no longer sustainable; 
and instead of an asset, they are a liability to our generation 
and to many generations to come unless we get on this problem. 
To restore these degraded ecosystems, we need to approach 
restoration of greater ecosystems.
    Let me say a little bit about what a greater ecosystem is. 
First, for dealing with the problem of houses burning, it is 
pretty straightforward. It is a matter of building new houses 
with fire-resistant material, thinning immediately around the 
house, fire-wise landscaping, and then not building too close 
to highly flammable vegetation. It is a bit more of a complex 
problem when we are not just concerned about protecting human 
houses, but we are concerned about protecting Mexican spotted 
owl sites and the houses of other species. Those species 
require this greater ecosystem approach.
    By greater ecosystem what I mean is if we want to protect 
watersheds and critical habitat for humans for present and 
future generations and for other animals and for plants as 
well, we need to think on the greater ecosystem scale and we 
need to act at the greater ecosystem scale.
    What is the greater ecosystem? It is a large chunk of the 
landscape that includes not only wildlands but embedded human 
communities. These typically occur on a scale of 100,000 to 1 
million acres. It is not just a little problem here of 
protecting houses.
    I try to get my students and other people who have been out 
in the woods with me to think of themselves as time travelers 
from future generations, from 10 generations into the future. 
If you are here from 10 generations into the future, you see 
the problem very differently from the way you would look at it 
just from a narrow perspective: my house which may burn down in 
the next few months. The treatments are pretty straightforward.
    Ecological restoration deals not just with fire hazards, 
but with restoring comprehensively greater ecosystem health for 
human beings as well as for the rest of the members of the 
greater ecosystem community. These involve retaining trees 
which predate settlement, retaining sufficient presettlement 
trees needed to reestablish approximate presettlement 
structure; thin and, where environmentally sound, remove those 
trees, rake heavy fuels from the base of especially old-growth 
trees.
    We know from the early research that I did almost 30 years 
ago that prescribed burning cool fires can kill the old-growth 
trees from what we call hot-footing, from heavy fuels at the 
base of those trees. Old-growth trees are very rare and 
critical elements of the landscape.
    We must burn to emulate natural disturbance regimes, seed 
with natives, and control exotics. There are many benefits to 
taking an ecological restoration approach instead of just 
looking at this as a hazardous fuel reduction or a house 
burning problem.
    Ecological restoration approaches eliminate unnatural 
forest and insect disease outbreaks. I mean unnatural, too. I 
am not talking about endemic or natural of dwarf mistletoe 
infestation, bark beetles and so on. It protects critical 
habitats for threatened and endangered species. It enhances 
native plant and animal biodiversity, improves watershed 
function and sustainability; and again not just for current 
generations, but for generations yet unborn.
    The final point that I need to make is that there are 
solutions, and we can do it. We need to take a restoration 
approach. We need to be comprehensive in our thinking. And the 
final point that I have is this truly is a fork in the road. 
The decisions that we make today influence our great great 
grandchildren. Down the fork we are headed right now are 
degraded landscapes. Biodiversity has crashed. They are 
unsustainable. Down the other fork, if we move forward in a 
coherent fashion, are sustainable landscapes that will bring 
many benefits to human beings and other organisms on the planet 
for many generations to come.
    Thank you very much for asking me to speak at this meeting.
    Mr. McInnis. Thank you, Mr. Covington.
    [The prepared statement of Mr. Covington follows:]

  Statement of Dr. William Wallace Covington, Regents' Professor and 
   Director of the Ecological Restoration Institute Northern Arizona 
                               University

    Chairman Hansen, and members of the Committee, thank you for this 
opportunity to testify on a subject of personal importance to me and of 
critical importance to the health of our nation's forests and the 
people and communities that live within them.
    My name is Wally Covington. I am Regents' Professor of Forest 
Ecology at Northern Arizona University and Director of the Ecological 
Restoration Institute. I have been a professor teaching and researching 
fire ecology and restoration of forest health at NAU since 1975. 
Throughout my career I have applied my academic skills to real world 
problems. I chair Arizona Governor Jane Dee Hull's Forest Health/Fire 
Plan Advisory Committee and am a member of the National Commission on 
Science for Sustainable Forestry.
    I have a Ph.D. in forest ecosystem analysis from Yale University 
and an M.S. in ecology from the University of New Mexico. Over the past 
27 years I have taught graduate and undergraduate courses in research 
methods, ecological restoration, ecosystem management, fire ecology and 
management, forest management, range management, wildlife management, 
watershed management, recreation management, park and wildland 
management, and forest operations research. I have been working in 
long-term research on fire ecology and management in ponderosa pine and 
related ecosystems since I moved to Northern Arizona University in 
1975. In addition to my publications on forest restoration, I have co-
authored scientific papers on a broad variety of topics in forest 
ecology and resource management including research on fire effects, 
prescribed burning, thinning, operations research, silviculture, range 
management, wildlife effects, multiresource management, forest health, 
and natural resource conservation.
    I am founder and director of the Ecological Restoration Institute 
located in the Office of the President, Northern Arizona University. 
The ERI is recognized as the national leader in forest restoration-
based fuel reduction technology transfer, outreach, in-service 
education, public information, and mission oriented research for forest 
restoration. The Institute and its partners in federal, state, private, 
and NGO sectors have the talent and expertise in place and are applying 
it to get operational scale forest health restoration treatments on the 
ground. Working with partners, the Institute has built strong local, 
state, regional, and national support for restoration-based fuel 
treatments.
WE MUST ACT INTELLIGENTLY NOW WHILE CONSIDERING THE IMPACT OF OUR 
        ACTIONS ON THE FUTURE
    What is needed today is clear thinking. Fuzzy thinking can be a 
major threat to marshalling the nation's resources to address the 
critical problem in time to prevent catastrophic losses that will 
affect generations to come.
    There is plenty of blame to share over the current state of our 
forests. This hearing is intended to go beyond the blame to solve the 
crisis. It is my role and obligation as a scientist and as a 
professional forester to bring honest, objective, facts and informed 
recommendations to this committee. I will attempt to do so in this 
statement.
    My testimony will focus on the science of forest restoration and 
how to reverse the trend of increasing catastrophic wildfires in the 
dry forests of the West by implementing science-based forest 
restoration treatments.

WHAT MUST BE DONE

1. We need to act swiftly and with great care so that future 
        generations do not inherit yet another forest management 
        crisis. The best way to do this is by following a 
        scientifically rigorous, environmentally responsible, and 
        socially and politically sound approach. Such an approach must 
        begin with careful definition of the problem.
        a. Large, catatrophic stand replacing fires are natural in 
        chaparral, lodgepole pine, spruce/fir and other forest types. 
        We can do little to change that.
        b. Such fires are not natural in the ponderosa pine and dry 
        mixed conifer forests and are a major threat to ecosystem 
        integrity and sustainability
        c. According to a 1999 GAO report over 90% of the fire 
        suppression expenditures were spent in the frequent fire 
        forests of the West.
        d. There is abundant relevant scientific research in the 
        ponderosa pine type that began in the 1890's and continues 
        today that provides a sound scientific framework for 
        implementing the science and practice of restoration. We have 
        solid information about presettlement forest conditions, 
        changes in fire regimes over the last century, deterioration of 
        overall ecosystem health, and ecological responses to thinning 
        and prescribed burning--the key elements of any attempt to 
        restore ecosystem health in ponderosa pine and related 
        ecosystems. We know that current overcrowded stands of trees do 
        not sustain the diversity of wildlife and plants that existed a 
        century ago. We know this by examining the data of early 
        naturalists and scientists.

2. The problem is complex
        a. It's not just about drought we have always had periodic 
        droughts and always will, but the forest has never had the fuel 
        loads that exist today
        b. It's not just about houses burning--although the loss of a 
        home is tragic, houses can be rebuilt in months. However, 
        ecosystems take centuries, and watersheds millenia
        c. It's not just about crownfires--crownfires in ponderosa 
        forests are just the latest in a long series of symptoms of 
        failing ecosystem health, other symptoms include disease and 
        insect infestations and before that the loss of native 
        biodiversity, the decline of watershed function, and increased 
        erosion and sedimentation
        d. It's not just about too many trees--it's about too few old-
        growth trees and far too many younger trees
        e. It's is not about cutting trees--it's about thinning 
        forests (as opposed to logging) and implementing a range of 
        techniques to restore ecological integrity and create a long 
        term solution
        f. It's not about 40-acre stands or a quarter mile strip 
        around a town it's about greater ecosystems that have become so 
        degraded and fragile that they are no longer sustainable, and a 
        liability rather than an asset to present and future 
        generations

3. There are solutions, and we can do it
        a. To restore these degraded ecosystems, it is essential that 
        we restore entire greater landscapes, and do so quickly--time 
        is clearly not our ally
        b. We must do so in a systematic, scientifically rigorous 
        fashion
        c. For protection of structures such as houses, the science 
        seems pretty clear: use fire resistant materials, fire 
        resistant landscaping and don't build too close to heavily 
        fueled landscapes
        d. For protection of watersheds, critical habitat for humans 
        and other animals and plants we have to think much bigger. Here 
        we need to think and act at the scale of greater ecosystems--
        large chunks of the landscape that include not only wildlands 
        but also embedded human communities. These greater ecosystems 
        typically occur on a scale of 100,000 to 1,000,000 acres
        e. The treatments are straightforward, they include:
             i. Retain trees which predate settlement
             ii. Retain postsettlement trees needed to re-establish 
            presettlement structure
            iii. Thin and remove excess trees
             iv. Rake heavy fuels from base of trees
             v. Burn to emulate natural disturbance regime
    vi. Seed with natives/control exotics

4. There are many benefits from ecological restoration in these dry 
        forest types beyond the reduction of crownfire
        a. It eliminates unnatural forest insect and disease outbreaks
        b. It enhances native plant and animal biodiversity
        c. It protects critical habitats for threatened or endangered 
        species
        d. It improves watershed function and sustainability
        e. It enhances natural beauty of the land
        f. It improves resource values for humans, not just for 
        current, but also for future generations
        g. In cases where a road system is in place and small wood 
        processing facilities are available, the trees removed can 
        often help defray the cost of restoration treatments and 
        provide jobs and income for local communities

5. There are challenges to implementing restoration
        a. It could be expensive in the short term, but it will save 
        money and resource values over time
        b. It is important that we assure that trees that are removed 
        are being removed for the purpose of restoring natural forest 
        patterns and processes
        c. Political maneuvering over setting one-size-fits-all 
        diameter caps can interfere with cost effective, ecologically 
        sound restoration
6. There are consequences if we fail to implement restoration based 
        hazardous fuel reduction at the greater ecosystem scale
        a. Piecemeal solutions will treat symptoms and not the 
        underlying disease
        b. Scientific evidence supports the prediction that if we do 
        not act quickly the number, size, severity, and costs of 
        wildfires in the dry forests of the West will increase

RECOMMENDATIONS

1. Design treatments starting with solid science, set standards for 
        effectiveness, and measure progress
        Research to date indicates that alternative fuel reduction 
        treatments have strikingly different consequences not just for 
        fire behavior but also for biodiversity, wildlife habitat, tree 
        vigor and forest health. Treatment design should be based on 
        what the forest requires to maintain health and reduce 
        catastrophic fire. Science-based guidelines should be developed 
        and become the foundation for treatments. In addition, they 
        should be the criteria for evaluating the effectiveness of 
        treatments. Guidelines will help guide managers and provide a 
        base of certainty to those that are distrustful of land 
        management agencies. The standard should be clear if a 
        treatment does not permit the safe reintroduction of fire and 
        simultaneously facilitate the restoration of the forest it is 
        not a solution.

2. Reduce conflict by using an adaptive management framework to design, 
        implement and improve treatments
        We can wait no longer. Solutions to catastrophic wildfire must 
        be tested and refined in a ``learning while doing'' mode. Two 
        of the barriers preventing the implementation of landscape 
        scale treatments are the unrealistic desire for scientific 
        certainty and a fear that once an action is selected it becomes 
        a permanent precedent for future management. Scientific 
        certainty will never exist and the past century of forest 
        management demonstrates the need for applied research and 
        active adaptation of management approaches using current 
        knowledge. We should expand our environmental review process to 
        provide approval of a series of iterative treatments, provided 
        they are science based, actively monitored and committed to 
        building from lessons learned and new information.

3. Rebuild public trust in land management agencies by continuing to 
        support a broad variety of partnership approaches for planning 
        and implementing restoration-based fuel treatments
        The lack of trust that exists between some members of the 
        public and land management agencies is the genesis for 
        obstructionist actions. The only way to rebuild trust is to 
        develop meaningful collaborations between the agencies, 
        communities and the public. There are emerging models of 
        various forms of collaborative partnerships working to reduce 
        the threat of fire while restoring the forest for its full 
        suite of values. Their success depends on meaningful community 
        collaboration, human and financial resources and adequate 
        scientific support to make well informed management decisions. 
        Congress, federal agencies, universities, and non-governmental 
        organizations must support these communities to help them 
        achieve success.

        We are at a fork in the road. Down one fork lies burned out, 
        depauperate landscapes--landscapes that are a liability for 
        future generations. Down the other fork lies health, diverse, 
        sustaining landscapes--landscapes that will bring multiple 
        benefits for generations to come. Inaction is taking, and will 
        continue to take, us down the path to unhealthy landscapes, 
        costly to manage. Scientifically-based forest restoration 
        treatments, including thinning and prescribed burning, will set 
        us on the path to healthy landscapes, landscapes like the early 
        settlers and explorer saw in the late 1800s.
    Knowing what we now know, it would be grossly negligent for us not 
to move forward with large-scale restoration based fuel treatments in 
the dry forests of the West. Inaction is now the greatest threat to the 
long-term sustainability of these western ecosystems.
    Thank you very much for asking me to appear before the Committee.
                                 ______
                                 
    Mr. McInnis. Mr. Burley, you may proceed.

STATEMENT OF CHARLES H. BURLEY, PRESIDENT, BURLEY & ASSOCIATES, 
   LLC, TESTIFYING ON BEHALF OF THE AMERICAN FOREST RESOURCE 
                            COUNCIL

    Mr. Burley. Thank you, Mr. Chairman. We have heard here 
today, I think clearly, that we have a serious issue with 
wildfires. We have seen them throughout the West this year. We 
had a historic season in 2000. I think it is clear we have a 
problem. I agree with the comments earlier that this should not 
be a partisan issue. It is our public lands and communities 
that are at risk. My particular area of expertise in eastern 
Oregon, we have seen quite a few fires over there, some homes 
lost, and we really need to get out and get something done.
    The American Forest Resource Council does represent the 
forest products industry in 12 States. I have spent a lot of 
time going throughout the West the last couple of years. I was 
also on the Governors' collaborative team that helped write the 
10-year strategy and implementation plan. I think the outcome 
is extremely useful, and I hope to see it implemented. But the 
problem is that we have a process issue that needs to be dealt 
with because all of the funding and all of the support for that 
plan is not going to happen if we do not deal with this 
gridlock issue, this ``analysis paralysis'' as it is coined.
    Nobody is asking that these environmental laws be repealed. 
What we are asking is that they be made to work, that they go 
back to the original intent. The administrative appeals 
process--early in my career I spent 10 years working for the 
U.S. Forest Service, the last 12 years working for the 
industry. Throughout that entire time I have always felt the 
best thing we can do is get rid of the administrative appeal 
process because it has become abused in my opinion. It is an 
opportunity for people who do not like a decision, despite the 
fact that they have participated throughout the entire public 
process.
    And I think this example typifies my point. This is again 
the Oregon Natural Resource Council's appeal of the McCache 
vegetation project which was up in the central Oregon area. The 
McCache project was about 2-3 years in the NEPA process, public 
comment, draft documents out, public comment on those, and yet 
the appeal on this said the goals of reducing risk for 
firefighters and the public are inappropriate. They say that 
the McCache area is not very populated and you cannot 
realistically change fire behavior enough to make a difference 
for the firefighters.
    The point is that the McCache area, when that fire started 
by lightning strike, immediately they had to evacuate a youth 
summer camp. They then put two communities on notice, Black 
Butte Ranch as well as Camp Sherman. Within a 5-mile radius of 
the start of this fire, we had private industrial lands that 
had a tremendous amount of investment in them. We had two 
resorts, plus a full-blown community with 1,400 homes, all 
within a 5-mile radius of this fire. So to me, when we see the 
appeal process being used or abused in this case to stop 
projects that are well intentioned, scientifically based, that 
have gone through the NEPA process, to me I think this is 
indicative of a system that is broken.
    Again, I repeat, with all of the money and the 
collaborative plans and all the efforts that we have put into 
this, if we cannot deal with this gridlock problem, we are not 
going to get anything done, and all the science in the world is 
going to be trumped.
    The last comment before I am out of time here, regarding 
the science I urge extreme caution in avoiding one-size-fits-
all prescriptive direction. We have seen in eastern Oregon and 
eastern Washington since 1993, have seen this 21-inch diameter 
limit and it has been problematic to the Agency in trying to 
get the work done on the ground because these professional land 
managers that are trying to do the right thing out there, when 
they have these types of arbitrary, politically correct 
forestry--as we sometimes refer to it, these restrictions 
placed on them--it ties their hands and makes it more difficult 
for them to do the job.
    Using the pictures that Representative Inslee had, what 
happens out there has to be based on the site-specific 
conditions and we cannot sit here in Washington nor can we sit 
in Portland, Oregon and say what they should be doing in upper 
northeast Oregon. It is the person that goes out on the ground 
and looks at the specifics and decides what needs to be done. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Burley follows:]

Statement of Charles H. Burley, President, Burley & Associates, LLC for 
                  the American Forest Resource Council

                           Executive Summary

    The forest health crisis facing our federal forests can no longer 
be ignored. There are 72 million acres of National Forest System land 
at high risk to catastrophic wildfire. Another 26 million acres are at 
high risk to insect infestation and disease. That is enough to burn a 
path from New York City to Los Angeles 62 miles wide. The total federal 
land area at risk to catastrophic wildfire is 190 million acres.
    Effective fire suppression and a passive forest management 
philosophy have created this monumental crisis. It is going to take 
scientifically based, active forest management to restore our forest's 
health.
    Local land managers must be empowered to make decisions on forest 
health treatments based on site-specific conditions. In some cases they 
may recommend thinning and harvest, in some cases prescribed burning, 
and in other cases no treatment may be appropriate. The key to success 
is the local land managers who possess the site-specific knowledge and 
expertise must have all the tools at their disposal to make these 
decisions.
    It took a long time--maybe one hundred years--to get into this 
forest health crisis and it is going to take us a long time and a great 
deal of funding to get out of it. Healthy forests don't just happen and 
every day we delay makes the problem exponentially worse. Every day we 
delay management projects we increase the risk a new wildfire will be 
sparked or an insect infestation will occur, or a disease epidemic will 
spread.
    The federal land management agencies are drowning in paperwork and 
red tape. The President has asked Congress and the Council on 
Environmental Quality to throw them a lifeline; restore common sense to 
the management of our federal lands. The application of NEPA and 
appeals must be brought back in line with the original intent--to 
prepare a detailed statement for major federal actions significantly 
affecting the quality of the human environment--instead of the unending 
planning and analysis process it's become.
    Treating the unhealthy forests around homes and communities is 
important work and needs to be done to protect human life and property; 
however, most wildfires don't start in these areas. They start in 
overgrown, unhealthy forests typically far from communities and rural 
residences. These fires destroy wildlife habitat, threaten our drinking 
water, degrade air quality for hundreds of miles, and pose great risk 
to property and human life.
    Fire is a natural part of a healthy ecosystem and can be quite 
beneficial. The problem is our public forests are not healthy. Fires in 
these forests tend to burn hotter, faster, and larger than anything 
that occurs in nature. Healthy forests don't just happen. We need to 
actively manage our forests, return them to healthy conditions, and 
then allow fire to be naturally reintroduced where and when it's 
appropriate.

                               Testimony

    Good morning, Mr. Chairman. My name is Charles Burley and I am the 
president of Burley & Associates, LLC. My testimony today is on behalf 
of the American Forest Resource Council (AFRC). The AFRC represents 
about 80 forest product manufacturers and forest landowners--from 
small, family-owned companies to large multi-national corporations--in 
twelve states west of the Great Lakes. AFRC's mission is to create a 
favorable operating environment for the forest products industry, 
ensure a reliable timber supply from public and private lands, and 
promote sustainable management of forests by improving federal laws, 
regulations, policies and decisions that determine or influence the 
management of all lands. Nationally, the industry has sales of over 
$195 billion annually and employs 1.6 million people.
    Over the past several years we have experienced record-breaking 
fire seasons. The 2000 fire season, which until this year was the worst 
on record, generated significant interest in addressing the risks of 
wildfire. This led to the collaborative efforts of western governors, 
federal, state, local and Tribal governments and interested 
stakeholders, including the forest products industry, to develop the 
``Collaborative Approach for Reducing Wildland Fire Risks to 
Communities and the Environment: 10-Year Comprehensive Strategy 
Implementation Plan''. The Secretaries of the Interior and Agriculture 
adopted this plan on May 23.
    This year we are again experiencing a record setting fire season. 
As of August 31, over 6.3 million acres have burned which is more than 
twice the 10-year average of 3.1 million acres. We've also, tragically, 
lost the lives of 20 firefighters and over a thousand structures, 
including homes.
    Communities throughout the West are impacted either directly or 
indirectly. Direct impacts include evacuations and structures lost. 
Indirect impacts include decreased air quality and reduced tourism as 
we saw with Denver and Florence, Oregon this year.
    There are numerous contemporary reports from the Government 
Accounting Office, National Fire Protection Association, National 
Research Council, and other equally qualified bodies pointing out the 
increased risk of wildfires and their impacts to our nation's forests 
and communities. I won't belabor this by listing and citing all the 
reports and statistics.
    Suffice it to say that it's become readily apparent that we have a 
major problem with the risk of wildfires across our country. These 
problems won't go away and the sooner we address them the sooner forest 
health can be restored. Something must be done and done quickly.
    Actions taken must treat the problems and not the symptoms. The 
fundamental problem causing the increased risk of wildfire is the poor 
forest health and excessive fuel loads on our public lands. I cannot 
overemphasize the need for urgent, decisive, and direct action to treat 
these problems.
    The President's Forest Health Initiative, which was released on 
August 22, outlines the tools necessary to accomplish this. Some argue 
the President's proposal is simply another excuse to log the public 
lands or to turn the key over to the industry. But there is evidence 
that proper management can help reduce the risk of wildfires.
    In a recent study of the fire hazards in Montana, it was reported 
that comprehensive, ecologically based prescriptions ``achieves far 
greater hazard reduction immediately post-treatment, and is far less 
expensive to employ. It is also superior in terms of longevity and 
extent of effectiveness compared to the treatments with a singular 
focus on small-tree removal. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Fiedler, Carl E., Charles E. Keegan III, et al, ``A Strategic 
Assessment of Fire Hazard in Montana'', Report submitted to the Joint 
Fire Sciences Program, September 29, 2001.
---------------------------------------------------------------------------
    Another report that looked at actual on-the-ground management pre- 
and post-fire concluded that the ``results unanimously indicate that 
treated stands experience lower fire severity than untreated stands 
that burn under similar weather and topographic conditions. 
<SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ Omi, Philip, Erik Martinson, ``Effects of Fuels Treatment on 
Wildfire Severity'', Western Forest Fire Research Center, Colorado 
State University, March 25, 2002.
---------------------------------------------------------------------------
    So why aren't we doing more? There's this 800-pound gorilla on our 
back that Forest Service Chief Dale Bosworth calls the ``analysis 
paralysis.'' This analysis paralysis is the result of a patchwork of 
laws and regulations that has accumulated over the past few decades. 
The two that most directly affect the agency's ability to get work done 
are NEPA and the administrative appeals process.
NEPA
    A recent Forest Service internal study of NEPA <SUP>3</SUP> had 
some very interesting results. This analysis of NEPA used business and 
process workflow models to show the activities necessary to conduct 
project planning and comply with NEPA and other laws within the context 
of a timber sale. These results include:
---------------------------------------------------------------------------
    \3\ Internal Forest Service report, ``Complexity of Laws Introduced 
in Project Planning'', USDA FS Inventory & Monitoring Institute, 
October 8, 2001.
---------------------------------------------------------------------------
    <bullet> Undue impacts in terms of time and costs during the 
planning phase of a project.
    <bullet> Considerable complexity caused by the exponential 
interactions among the laws that govern environmental analysis within 
project planning.
    <bullet> Potential for interruption in the project analysis/
decision making process by other State and Federal agencies with 
environmental regulatory authority.
    <bullet> An intense level of detail (time & effort) has been 
introduced into the process, due to risk mitigation and burden of proof 
(as it relates to public comment).
    <bullet> Case law is often over interpreted and inconsistently 
applies, which can result in additional time and effort being expended.
    There are many detailed and technical comments on NEPA which I'd be 
happy to provide you if requested. I also wish to note the CEQ is 
looking at this problem with its NEPA Task Force. We applaud this 
effort and are submitting detailed comments on NEPA through that 
process. The bottom line is that the application of NEPA must be 
brought back in line with the original intent--to prepare a detailed 
statement for major federal actions significantly affecting the quality 
of the human environment--instead of the unending planning and analysis 
process it's become.
APPEALS
    The U.S. Forest Service is rather unique in that it is one of only 
a few, if not the only, federal agency that has an administrative 
appeals process. Prior to the enactment of the Appeals Reform Act 
(Section 322 of Public Law 102-381, the Department of the Interior and 
Related Agencies Appropriations Act 1993), the appeals process had been 
the result of agency rulemaking. The passage of the Appeals Reform Act 
marked the first time Congress legislated the appeals process.
    Like so many things in life, the appeals process was well 
intentioned when first instituted. Unfortunately, over time, it has 
become a process all too often abused by individuals and organizations 
that wish to delay or stop Forest Service activities from being 
implemented--this is particularly acute if the project involves 
harvesting trees.
    For example, a recent Forest Service internal report <SUP>4</SUP> 
documents the fact that 48 percent of mechanical treatment decisions 
for hazardous fuels were appealed in fiscal year 2001 and 2002 (through 
June 27).
---------------------------------------------------------------------------
    \4\ ``Factors Affecting Timely Mechanical Fuel Treatment 
Decisions'' (July 2002) USDA Forest Service Internal Report
---------------------------------------------------------------------------
    The appeals process has become a formality or simply part of the 
agency doing business. Whenever the agency estimates the time to plan a 
project, it always allows for at least a 90-day appeal period.
    Appeals are problematic in that the timeline set aside for them is 
excessive given all other factors. In fact, most NEPA scoping and 
public comment periods are less than the time allowed to file an 
appeal. This is counter intuitive given the fact that most appellants 
have already participated in the process, are familiar with the details 
and thus should require little time at the end to decide whether to 
appeal or not.
    But perhaps more importantly, the appeal period is increasingly 
being used to simply block or delay projects. Appellants also use the 
informal disposition provision to effect changes in the project at the 
exclusion of others that had participated in the process prior to the 
final decision.

                            Solutions Needed

    The American Forest Resource Council supports the recently 
completed plan entitled ``A Collaborative Approach for Reducing 
Wildland Fire Risks to Communities and the Environment: 10-Year 
Comprehensive Strategy Implementation Plan.
    This plan was the result of months of collaborative work by 
representatives of federal, state, local and tribal governments and 
interested stakeholders. It clearly lays out the goals, specific action 
items, and performance measures to ensure our nation's wildfire risks 
are being addressed appropriately. Being a collaborative plan, no party 
got everything they wanted. Nevertheless, with the broad base of 
support, we are confident the plan will be successful.
    One essential element for success in restoring forest health and 
reducing the risk of wildfire is adequate funding. It's imperative that 
Congress familiarizes itself with this plan and funds it for success. 
The performance measures provide for monitoring both for outcomes and 
wise use of taxpayers' dollars.
    It's also important to point out that the plan, given it's 
collaborative development, is a balance of differing points of views. 
Participants maintained the flexibility to ensure when decisions are 
made at the local level, the necessary tools are available to get the 
work done both effectively and efficiently. This includes active forest 
management when and where it's appropriate.
    There must be recognition that scientific forest management cannot 
be arbitrarily limited. To be truly effective, management must be free 
to utilize all the information and technology that's available. One 
specific example here is the arbitrary 21-inch diameter limit in 
eastern Oregon and eastern Washington. Such one-size-fits-all, top-down 
prescriptive direction does more harm than good in the long run.
    Stewardship contracting authority is another means to help 
accomplish forest health restoration goals. This presents opportunities 
to treat areas otherwise not available under ordinary contracting 
methods. Stewardship contracting has the added benefit of supporting 
local communities and keeping receipts local where they can do the most 
good.
    More importantly, however, all the above changes won't do any good 
if we don't realize substantive, structural changes to the project 
planning process. Long-term structural changes must occur if we want to 
have a reasonable, cost-effective process to meet the intent of NEPA 
yet get work done in a timely manner.
    Short-term we must realize immediate relief in the form of 
exemptions and ``alternative arrangements'' as already allowed in the 
CEQ NEPA regulations. Exemptions may not be politically attractive but 
they are not without precedent. In a 1998 Report for Congress by the 
Congressional Research Service <SUP>5</SUP>, it was shown that 
``Congress has often enacted provisions that modify the application of 
[NEPA] or specify the extent of the documents that need be prepared in 
particular instances or contexts.'' This includes instances of 
exempting certain federal activities from NEPA compliance (vis-a-vis 
Senator Daschle's recent language regarding the Black Hills National 
Forest), pronouncing certain analyses to be sufficient or adequate 
consideration under NEPA, and limiting the scope of NEPA analysis.
---------------------------------------------------------------------------
    \5\ ``Statutory Modifications of the Application of NEPA'', CRS 
Report for Congress, 98-417A, May 1, 1998.
---------------------------------------------------------------------------
    We face an emergency crisis with the wildfires and immediate action 
is necessary. Without short-term relief from the process gridlock, we 
will in all likelihood be here again next year having this same 
conversation.
    Our national forests and other public lands are a treasure that 
must be carefully managed for the benefit of future generations as well 
as for today's. I urge you to take the necessary action in support of 
the President's Forest Health Initiative, provide short-term relief 
from the gridlock, and institute structural changes to make the process 
more effective in the future.
    This concludes my testimony and I'd be glad to answer any questions 
you may have regarding this important issue.

                          EXAMPLES OF GRIDLOCK

McCache Vegetation Project
    Santiam Pass is a major highway corridor over the Cascades in 
Central Oregon. Much of the area in Santiam Pass is within the 
Northwest Forest Plan. About a decade ago the forest suffered an 
epidemic of spruce budworm resulting in extremely high mortality of the 
dense stands of fir and spruce. Due to the early spotted owl lawsuits, 
the agency was enjoined from doing anything in the area despite the 
common knowledge that the area was at high risk of wildfire. This risk 
was particularly acute given the proximity of the communities of 
Sisters, Black Butte Ranch, and Camp Sherman. After the injunctions 
were lifted and the Northwest Forest Plan was in place, the agency 
began planning restoration activities in the Santiam Pass area.
    One of these activities focused on the Cache Mountain area. The 
McCache Vegetation Management Project decision notice was signed in 
October 2001. It said,
        This decision will guide the stewardship efforts in restoring 
        the forests in this unique Late Successional Reserve. The 
        project area was hit hard in the 1990s by the spruce budworm, 
        and over 1/3 of the forest stands have moderate to very high 
        mortality. The decision addresses what type of actions the 
        Forest Service will take to reduce the risk of losing important 
        habitat for plants and animals and to restore forest health. 
        Other important goals are to reduce fuels in order to lower the 
        risk to people (local residents, visitors, and fire-fighters) 
        from severe wildfire. The types of management actions addressed 
        in this decision include removing dead and dying trees and 
        dense shrubs, thinning dense forest stands, and re-introducing 
        low-intensity fires. These restoration activities would occur 
        on about 5,000 acres of the 15,000 acre project area.'' 
        (McCache Decision Notice, October 19, 2001) (emphasis added)
    This project had gone through NEPA with all the obligatory public 
review and comment periods. Nevertheless, there were some environmental 
groups that did not like the final decision, despite their involvement 
throughout the process. Consequently they appealed the final decision 
in December 2001.
    One appeal, from the Oregon Natural Resource Council (ONRC), felt 
the objectives of reducing the risk of wildfire were inappropriate. In 
its appeal, ONRC stated:
        ``The goal(s) of reducing risk for firefighters and the public 
        are inappropriate.'' ,and
        ``The McCache area is not very populated and you can't 
        realistically change fire behavior enough to make a difference 
        for the firefighters.
    This ONRC appeal, and those of others, was denied in the early part 
of this year. Unfortunately, by that time, it was too late to implement 
the project this past field season. As a result there was no vegetative 
management done on or in the vicinity of Cache Mountain as planned.
    On July 23 this year around 5:30 p.m. lightening struck Cache 
Mountain and started a fire in the immediate vicinity of where 
treatments that had bee appealed were planned. Forest Service briefing 
materials on the fire had the following to say:
        Threatened resources: ``Potential threat to Suttle Lake 
        recreation complex 1-2 miles north, Black Butte Resort (about 
        1300 homes) four miles east, Weyerhaeuser land and timber 
        directly east, bald eagle and spotted owl habitat near Suttle 
        Lake, and Santiam Wagon Road.
        Remarks: ``Fire is actively burning in extreme dry heavy dead 
        and downed fuels on the north side of Cache Mountain. Fuels on 
        the east side of Cache Mountain are brush and bug-killed 
        whitebark pine and fir.
    By July 29, the fire had grown to 4,200 acres. During the course of 
the fire, a church summer camp and Black Butte Ranch, a resort and 
residential development, had to be evacuated. By the time the fire was 
contained, it had burned two homes in Black Butte Ranch approximately 
4-5 miles from where the fire started. In addition, valuable resources 
on public land such as spotted owl habitat was lost, and an adjacent 
private forest landowner lost a large investment in its plantation.
    Now no one can say with certainty that had the McCache project been 
implemented there would have been no fire or it would not have grown to 
the size and cause the damage it did. But chances are pretty good that 
had the project been implemented, the fire could have been controlled 
sooner and the damage less severe.
    The other lesson that can be learned from this is that time is of 
the essence. Fires won't wait for us. We have to get out in front and 
the NEPA and appeals processes are not conducive to effective and 
timely action.

Little Canyon Mountain
    The Little Canyon Mountain is located in eastern Oregon and is 
typical of the problems associated with wildland-urban interfaces 
(WUIs). The mountain is owned and managed by the Bureau of Land 
Management (BLM). Because of its size and the lack of BLM resources in 
the immediate vicinity, the agency has an agreement with the Oregon 
Department of Forestry (ODF) to provide fire protection for the area.
    Nearly three years ago, a BLM employee who is familiar with the 
Little Canyon Mountain and a homeowner in the WUI, recognized the need 
for restoration and fuels reduction on the mountain. He prepared an EA 
that sat on his supervisor's desk for two years despite cries from the 
communities to do something before disaster strikes.
    During this year's fire season, there was renewed interest in 
implementing the EA that still has not been signed. When the BLM was 
asked why not, the response was they don't want to be sued by the 
environmentalists. Instead, the BLM Prineville Office expressed its 
desire to collaborate with the environmentalists and others to develop 
a level of trust before anything is done on the mountain.
    In fairness to the BLM, they are doing some treatments strictly in 
the interface area but it's questionable whether this will be effective 
in the event of a large fire on the mountain. The ODF recently visited 
the site and wrote BLM urging action. In its memo, the ODF states, 
``Many ``green'' trees show visible indicators of ongoing attack or 
severe stress that makes attack in the near future nearly certain. The 
standing dead fuels with retained needles will promote sustained crown 
fire runs with extreme rates of spread in the near term. Absent 
treatment, these fuels will convert to heavy down fuels that create 
different, but equally difficult, control problems. Either condition is 
likely to lead to stand-replacement fires. The close proximity to 
populated areas also introduces high risk that such events will be 
community-replacement fires.
    Little Canyon Mountain highlights the problems federal agencies 
face with the constant threat of appeals and litigation from opponents 
of active forest management. As a consequence, public and private 
resources and properties are put at risk. In cases such as this 
delaying activities is inviting disaster.
``Beschta Report''
    The ``Beschta Report'' typifies problems associated with the NEPA 
process. This report is a compilation of views by several scientists 
regarding resource issues to consider when planning for the salvage of 
fire-killed timber. There's some question of the scientific robustness 
of the report and the degree to which it was peer reviewed. But few 
would argue that the recommendations, which outline the factors to 
consider when planning salvage sales, are not without merit.
    However, the report exemplifies the issue of new information and 
how best to treat it. Some argue it's not new information in that the 
recommendations are factors normally considered anyway. Others argue 
that the report represents the best available science and the science 
supports the position of no salvage logging.
    The first question is how does the agency evaluate the quality and 
validity of the information in the report? Is it truly science just 
because a scientist wrote it or is it just his opinion shared by 
others?
    The second question is how does the agency utilize the information 
in the report? In this case, when the report was first released, the 
Regional Forester issued a directive to the field saying they had to 
incorporate the report in all salvage sale environmental documents. 
Subsequent to this direction, when environmental documents were 
released and the ``Beschta Report'' was not found in the ``four corners 
of the document'', i.e., the actual words ``Beschta Report'' and its 
recommendations weren't physically found in the EA, then the EA was 
found by the courts to be inadequate.
    Early this year, after losing a court case, the Regional Forester 
issued another directive again stating the report must be mentioned in 
the environmental document. This only made the situation worse. The 
Regional Forester should have looked at the report and realized it's 
not the source of information but the information itself that was 
relevant. That is a directive to ensure when salvage logging is 
planned, the environmental document should address certain factors such 
as sedimentation and soil compaction--factors in the Beschta Report and 
also factors that should be included nevertheless.
    This response gets the agency out of the box of having to find the 
words ``Beschta Report'' in the environmental document. It also gets 
away from having to respond in similar fashion when the next piece of 
new information is forthcoming.
                                 ______
                                 
    Mr. McInnis. Dr. Creal, you may proceed.

STATEMENT OF DR. TIMOTHY H. CREAL, TESTIFYING ON BEHALF OF THE 
  FOREST COUNTIES PAYMENTS COMMITTEE, SUPERINTENDENT, CUSTER 
                 SCHOOL DISTRICT, SOUTH DAKOTA

    Mr. Creal. Mr. Chairman, thank you for asking me to be here 
to speak today.
    My name is Tim Creal. I am superintendent of schools in the 
Custer School District in the Black Hills of South Dakota. 
Actually I am here today representing the Forest Counties 
Payments Committee of which I am a member. The seven-member 
committee is comprised of four nonFederal members appointed by 
Congress, and three Federal members representing the Forest 
Service, the Bureau of Land Management, and the White House 
Office of Management and Budget.
    The committee was created by Congress to advise Congress on 
long-term solutions for making payments to States and counties 
where national forests and Revested Oregon and California Grant 
lands exist. The committee is to evaluate certain impacts to 
States and counties and make recommendations on policy and 
legislation. Recommendations are to be consistent with 
sustainable forestry. In addition to its responsibilities to 
Congress, the committee is chartered as an advisory committee 
to the Secretary of Agriculture under Federal Advisory 
Committee Act guidelines.
    The Forest Counties Payments Committee has conducted an 
extensive public comment effort to understand the issues 
affecting many of the 772 counties, parishes, and communities 
where public lands exist.
    The committee held listening sessions in many regions of 
the country. These were all announced in the Federal Register. 
Sites include Portland, Oregon; Pendleton, Oregon; Boise, 
Idaho; Albuquerque, New Mexico; Jackson, Mississippi; 
Tallahassee, Florida; Reno, Nevada; Rapid City, South Dakota; 
Washington, D.C., and we still have one listening session to do 
in Rhineland, Wisconsin.
    All comments made by the public and elected officials were 
documented by a court reporter and they are part of the 
official record and are on the Committee's website. A summary 
of these issues from the listening session and alternatives for 
future payments was included in an interim report of which this 
is the document that was recently submitted to Congress.
    Members of the Committee met in August to begin developing 
recommendations for future payment options. During this 
meeting, the Committee discussed the need to make a 
recommendation to Congress regarding an issue the public raised 
at several, almost all, if not all of our listening sessions.
    The current Forest Service appeal regulation governing 
decisions on projects has created a tremendous amount of 
frustration among people who try to work with the Agency 
collaboratively. This is all people. Many of these citizens 
depend on timely decisions that affect their communities, and 
they are concerned about solving forest health problems. The 
work they do together and with the Agency can be undone by 
someone who did not make an effort to find solutions for 
addressing forest management issues.
    Based on what it heard, the Committee felt it was important 
to make a recommendation to Congress now, rather than wait 
until a report on the payment options is submitted early next 
year at the end of the 18-month timeframe. That recommendation 
was recently submitted to the six Committees in Congress who 
had jurisdiction over our work.
    The recommendation includes two parts. The first is to 
repeal the statutory language that requires the Forest Service 
to have an appeals process for projects implementing resource 
management plans. The Forest Service should then review their 
current regulation at 36 CFR 215 and propose needed changes. 
When the Organic Act was passed in 1897, Congress recognized it 
could not develop regulations that would adequately address the 
unique biologic and social differences of the forest reserves. 
As a result, it vested authority in the Secretary to develop 
appropriate regulations for the management of these lands.
    The full authority to create and manage an administrative 
appeals process needs to be returned to the Secretary. The 
Committee stopped short of suggesting any specific changes to 
the appeal regulation. These decisions should be made as part 
of a review process in developing a new regulation with public 
comment and discussions in Congress.
    The terrible effects from wildfires this year have caught 
the attention of the American public, Congress, and the 
President. As we stated in our earlier letter, a bias for 
action is needed. The Forest Counties Payment Committee 
recommends that Congress provide language to exempt from 
appeal, salvage and restoration activities from wildfires 
occurring in 2002. This would provide the Forest Service time 
to review the current appeal regulation and determine what 
changes are needed under these circumstances.
    Mr. Chairman, our Committee members are aware that 
different ideas exist for managing public lands. It is clear to 
us, having listened to people from many parts of the country, 
that they do not object to reasonable laws and regulations for 
these lands. However, they have told us that some of those laws 
and regulations are not working well. The Forest Service appeal 
regulation is one of the biggest concerns the Committee heard 
about.
    Mr. Chairman, that concludes my remarks. I would be happy 
to answer any questions.
    Mr. McInnis. Thank you.
    [The prepared statement of Mr. Creal follows:]

   Statement of Dr. Timothy H. Creal, Superintendent, Custer School 
 District, Custer, South Dakota, Representing Forest Counties Payments 
              Committee, an Advisory Committee to Congress

    Mr. Chairman and members of the Committee, thank you for inviting 
me to speak to you today. I am Tim Creal, Superintendent of Schools for 
the Custer School District in South Dakota. I am here today 
representing the Forest Counties Payments Committee of which I am a 
member. The seven-member Committee is comprised of four non-federal 
members appointed by Congress, and three federal members representing 
the Forest Service, the Bureau of Land Management, and the White House 
Office of Management and Budget. The Committee was created by Congress 
to advise it on long-term solutions for making payments to states and 
counties where National Forests and Revested Oregon and California 
Grant lands exist. The Committee is to evaluate certain impacts to 
states and counties, and to make recommendations on policy and 
legislation. Recommendations are to be consistent with sustainable 
forestry. In addition to its responsibilities to Congress, the 
Committee is chartered as an Advisory Committee to the Secretary of 
Agriculture under Federal Advisory Committee Act guidelines.
    The Forest Counties Payments Committee has conducted an extensive 
public comment effort to understand issues affecting many of the 772 
counties, parishes, and communities where these public lands exist. 
Listening sessions were held in many regions of the Country and 
announced in the Federal Register. All comments made by the public and 
elected officials were documented by a court reporter, and are part of 
the official record. A summary of issues from these listening sessions 
and alternatives for future payments was included in an Interim Report 
recently submitted to Congress.
    Members of the Committee met in August to begin developing 
recommendations for future payment options. During this meeting the 
Committee discussed the need to make a recommendation to Congress 
regarding an issue the public raised at several listening sessions.
    The current Forest Service Appeal Regulation governing decisions on 
projects has created a tremendous amount of frustration among people 
who try to work with the Agency collaboratively. Many of these citizens 
depend on timely decisions that affect their communities, and they are 
concerned about solving forest health problems. The work they do 
together, and with the Agency, can be un-done by someone who did not 
make the effort to find solutions for addressing forest management 
issues. Based on what it heard, the Committee felt it was important to 
make a recommendation to Congress now, rather than wait until a report 
on payment options is submitted early next year. That recommendation 
was recently submitted to the six Committees in Congress who have 
jurisdiction over our work.
    Our recommendation includes two parts. The first is to repeal the 
statutory language that requires the Forest Service to have an appeals 
process for projects implementing resource management plans. The Forest 
Service should then review their current regulation at 36 CFR 215, and 
propose needed changes. When the Organic Act was passed in 1897, 
Congress recognized it could not develop regulations that would 
adequately address the unique biologic and social differences of the 
forest reserves. As a result, it vested authority in the Secretary to 
develop appropriate regulations for the management of those lands. The 
full authority to create and manage an administrative appeals process 
needs to be returned to the Secretary.
    The Committee stopped short of suggesting specific changes to the 
Appeal Regulation. Those decisions should be made as a part of 
reviewing and developing a new regulation, with public comment and 
discussions with Congress.
    The terrible effects from wildfires this year have caught the 
attention of the American public, Congress, and the President. As we 
stated in our letter, a bias for action is needed. The Forest Counties 
Payments Committee recommends that Congress provide language to exempt 
from appeal, salvage and restoration activities from wildfires 
occurring in 2002. This would provide the Forest Service time to review 
the current Appeal Regulation, and determine what changes are needed 
under these circumstances. Mr. Chairman, our Committee members are 
aware that different ideas exist for managing the public lands. It is 
clear to us having listened to people in many parts of the Country, 
that they don't object to reasonable laws and regulations for these 
lands. However, they have told us that some of those laws and 
regulations are not working well. The Forest Service Appeal Regulation 
is one of the biggest concerns we heard about.
    Mr. Chairman, that concludes my remarks. I would be happy to answer 
any questions you, or members of the Committee may have.
                                 ______
                                 
    Mr. McInnis. Our next witness is Mr. Calahan.

        STATEMENT OF DAVID CALAHAN, RETIRED FIREFIGHTER

    Mr. Calahan. Mr. Chairman, members of the Committee, thank 
you for your invitation to testify today. My name is David 
Calahan. I was born and raised in Oregon, a son of a timber 
faller. My first job out of high school was working in the 
woods as a choker setter. For 30 years I have lived in the 
wildland interface of southern Oregon. My home is located in 
the Applegate Valley which is west of Medford. I am on 80 acres 
of land, surrounded on three sides by 6,300 acres of BLM land. 
I retired from the Medford Fire Department in November 1999. 
The Medford Fire Department also protects the rural area around 
Medford, so firefighters are trained in wildland fires and work 
closely with all of the local fire agencies.
    I would like to advise anyone in the rural area as to how 
best to make their homes less likely to be lost to a forest 
fire. I am not opposed to logging or thinning, and I do both on 
my properties.
    In 2001 I helped defend homes threatened by the Quartz 
fire. This summer I worked as a volunteer on the Squires fire 
which started 3 miles from my home. Within a few hours of the 
fire's ignition, I was on the scene defending an absentee 
friend's buildings, and I continued for another 4 days 
monitoring hot spots. This is the fire that burned the tree 
stands recently visited by President Bush. I have observed 
firsthand the burned landscape, having taken multiple hikes 
through much of the fire area to learn what really happened on 
the ground. Once again I was shown that forest fires burn in a 
mosaic pattern, burning hot in some areas, cooler in others, 
and sometimes it only underburns or the fire skips areas 
completely.
    During the President's visit, the press and the public were 
shown very unrepresentative and misleading pictures of how the 
Squires fire burned in relationship to thinning. There are a 
number of areas burned by the Squires fire where thinning had 
recently been done on BLM lands, and yet overall the tree 
sustained severe mortality. The photos submitted were taken in 
the Squires fire area which show areas burnt with quite the 
opposite effect. These are stands that BLM had thinned which 
burned quite severely. Photos 1 through 3 show recently thinned 
stands where very little will survive. These photos demonstrate 
thinning may help reduce a fire's severity if the weather 
conditions are working for you. But when weather turns against 
you, thinned areas can suffer even more than untouched areas. 
These photos show where thinning, described as fuel reduction, 
took place and there were large stumps where mature trees were 
cut, trees that are the most fire resistant.
    One of the downsides of thinning is it lets in more sun and 
wind that dries out the forest, making it potentially even more 
prone to severe fire. In the same canyon were places that BLM 
had not yet thinned. There are many places in the Squires fire 
that had beautiful burns, where the fire burned cool and stayed 
on the ground.
    Photos 4, 5 and 6 show a stand BLM plans to thin soon, but 
at the time of the fire was untouched. Trees planned for 
removal are marked with the blue paint. The trees in these 
photos are still healthy.
    The effect of this burn was to do exactly what we want fire 
to do, a nice beneficial underburn. The aftermath of the 
Squires fire shows multiple factors at work to create a mosaic 
burn pattern. The untreated, heavily burned stand shown by 
President Bush and the press illustrates only one part of this. 
This was an area above the private land logged by Boise 
Cascade. Boise's land is 200 acres and was completely stripped 
of its commercial timber approximately 4 years ago and left 
covered with logging slash and small conifer trees. When the 
fire came through this industrial logged area, it burned very 
hot. The fire came out of this private land and traveled a 
short distance through BLM land to reach the ridge viewed by 
President Bush. Most of this area of the ridge burnt severely, 
whether thinned or not. As the fire crested over the ridge, it 
became less severe due to burning downhill.
    This can explain the area President Bush also visited, 
showing a stand of trees thinned by BLM and had burned less 
intensely. In any fire, you will get many different kinds of 
burns, which is mostly determined by weather and terrain. Fuel 
density is many times overruled by weather and terrain. The 
point is, individual stands cannot be used as an example of how 
fire will treat a certain area in the future. There are simply 
too many factors, of which fuel density is only one and 
sometimes a small one. My experience and observation in 
fighting forest fires have convinced me that logging of the 
larger, mature trees can lead to fires burning much hotter.
    As I saw repeatedly in the Squires fire, some areas thinned 
by BLM burned much hotter and did more damage to the remaining 
trees and soil when compared to areas that had not been 
touched. I would like to get the message across that most fire 
in the forest, when it is not threatening someone's house, is a 
good thing. We know that we got into this high fuels situation 
by denying fire, and in the more remote areas by changing our 
approach to fire is the only way we are going to get out of it. 
We also need to be willing to spend the necessary money to do 
the rural interface thinning. We need to remove the premise 
that logging mature trees is an acceptable way to pay for 
thinning.
    We cannot log ourselves out of this problem. Logging 
practices and the building of more new roads contribute to the 
fire problem. The act of logging makes a firefighter's job far 
more hazardous due to the slash created once a tree is felled. 
Thinning has a role, but from the moment a tree hits the 
ground, the fuel increases and it can only return to nearly the 
level it was before the trees fall with intense management 
through prescribed burns or hand piling and burning the ground 
fuels.
    In the year or two before that can be accomplished, we have 
increased the ground fuel loading by 3 to 15 tons per acre, and 
within a decade you need to return to think again as Mother 
Nature will fill those open spaces created between the 
remaining trees with lots of brush. We need to protect people 
and homes from the risk of fire through community protection 
projects which focus first on the wildland interface. Thinning 
the forest will not solve fire problems.
    I will be happy to answer any questions. Again, thank you 
for inviting me.
    Mr. McInnis. Mr. Calahan, I think your remarks 
appropriately should include not just the house but the 
watershed situation and wildlife areas as well.
    Mr. Calahan. I agree.
    [The prepared statement of Mr. Calahan follows:]

            Statement of David Calahan, Retired Firefighter

    Mr. Chairman, Ranking Member Inslee, Members of the Committee: 
Thank you for your invitation to testify today.
    My name is David Calahan. I was born and raised in Oregon, a son of 
a timber faller. My first job out of high school was working in the 
woods as a choker setter. For 30 years I have lived in the wildland 
interface of southern Oregon. My home is located in the Applegate 
Valley, which is west of Medford, on 80 acres of land bordered on three 
sides by 6300 acres of Bureau of Land Management land. I retired from 
the Medford Fire Department in November, 1999. The Medford Fire 
Department also protects the rural area around Medford, so firefighters 
are trained in wildland fires and work closely with all the local fire 
agencies. I continue to work on the thinning of small fuels around my 
property and I love to advise anyone in the rural area as how best to 
make their home less likely to be lost to a forest fire. I am not 
opposed to thinning or logging and I do both on my own properties.
    In 2001 I helped defend homes threatened by the Quartz fire. This 
summer I worked as a volunteer on the Squires Fire, which started just 
3 miles from my home. Within a few hours of the fire's ignition I was 
on the scene defending an absentee friend's buildings (house, shop and 
new barn), and I continued another four days of monitoring hot spots. 
This is the fire that burned the tree stands recently visited by 
President Bush. I have observed first hand the burned landscape, having 
taken multiple hikes through much of the fire area to learn what really 
happened on the ground. Once again I was shown that forest fires burn 
in a mosaic pattern, burning hot in some areas, cooler in others and 
sometimes it only underburns or the fire skips areas completely.
    During the President's visit, the press and the public were shown 
very unrepresentative and misleading pictures of how the Squires Fire 
burned in relation to thinning and other treatment of the land. 
Attached are photos that will show areas burnt with quite the opposite 
effect.
    There are a number of areas burnt by the Squires Fire where 
thinning had recently been done on BLM lands and yet overall the trees 
sustained severe mortality. As the attached photos illustrate (all 
taken in areas burned in the Squires Fire), stands that the BLM had 
thinned sometimes burned quite severely. Photos no. 1, 2, & 3 show 
recently thinned stands, and you will see that the fire burned up into 
the trees' crowns, scorching them far up the trunks, killing the 
needles (most of the needles on the trees in these photos are missing 
or brown) and the tree. These photos demonstrate thinning may help 
reduce a fire's severity if the weather conditions are working for you. 
But when the climate/weather turns against you, thinned areas can 
suffer even more than untouched areas.
    You can also see from these photos where thinning (described as 
fuel reduction) took place there are large stumps where mature trees 
were cut, trees that are the most fire resistant. One of the downsides 
of thinning is it lets in more sun and wind that dries out the forest 
making it potentially even more prone to severe fire.
    In the same canyon were places that BLM had not yet thinned. One 
such area I saw was about 60 acres that had a beautiful burn where the 
fire stayed on the ground and only scorched the trees when it got to 
the very top of the hill. Photos no. 4, 5 & 6 show stands BLM plans to 
thin soon but at the time of the fire was untouched. Trees planned for 
removal are marked with blue paint. This stand and other untouched 
areas in riparian zones burned cool and the trees remain healthy. The 
trees in these photos are not scorched high up and the forest canopy is 
mostly undamaged. The effect of this burn has been to do just what we 
want fire to do, a nice beneficial underburn. Over time, some of the 
scorched small trees will die from the effects of fire and/or lack of 
light, reducing the stand density and leaving the strongest, largest 
trees to withstand future fires as they withstood the Squires Fire.
    The aftermath of the Squire's Fire shows multiple factors at work 
to create the mosaic burn pattern. The untreated, heavily burned stand 
shown by President Bush and the press illustrates only one part of 
this. This was an area above private land logged by Boise Cascade. 
Boise's land (200 acres) was completely stripped of its commercial 
timber approximately four years ago and left covered with logging slash 
and small conifer trees. When the fire came through this industrially 
logged area covered with logging slash it burned very hot. The fire 
came out of this private land and traveled a short distance through BLM 
land to reach the ridge viewed by President Bush. Most of this area of 
the ridge burnt severely whether thinned or not. As the fire crested 
over the ridge it became less severe due to terrain burning downhill. 
This can explain the area President Bush also visited showing a stand 
of trees that had been thinned by BLM and had burned less intensely. In 
any fire you get many different kinds of burns, which is mostly 
determined by climate/weather (wind, humidity, inversion layers, etc.) 
and terrain. Fuel density is a factor which is many times overruled by 
climate and terrain. The point is, individual stands cannot be used as 
an example of how a fire will treat a certain area in the future. There 
are simply too many factors of which fuel density is only one.
    The Squires Fire also illustrates problems with the `defensible 
fuel profile zones,' or shaded fuel breaks located on ridges that 
federal land management agencies have started to favor recently. This 
is a wide strip on each side of a ridgetop with very few trees left 
standing. The DFPZ on the northern flank of the Squires fire failed to 
stop the fire and a number of the few trees left after the treatment 
were killed.
    My experience and observations fighting forest fires in the 
wildland-urban interface have convinced me that logging of larger, 
mature trees in the backcountry can lead to fires burning much 
``hotter,'' which is very damaging to the health of the forest. As I 
saw repeatedly in the Squires Fire, some areas thinned by BLM (where 
they cut down larger and mature trees), burned much hotter and did more 
damage to the remaining trees and the soil when compared to areas that 
had not been touched
    I would like to get the message across that most fire in the 
forest, when it isn't threatening someone's house, is a good thing. We 
know that we got into this high fuels situation by denying fire and, in 
much of these more remote areas, changing our approach to fire is the 
only way we will get out of it.
    We also need to be willing to spend the necessary money to do 
wildland interface thinning. We need to remove the premise that logging 
mature trees is an acceptable way to pay for the thinning. We cannot 
log ourselves out of this problem. Logging practices and the building 
of more new roads contribute to the fire problem. This is partly 
because of opening up the forest to sun and wind, as I discussed above. 
Partly, too, the act of logging makes fire problems bigger and a 
firefighter's job far more hazardous due to the slash created once a 
tree is felled. Thinning has a role, but from the moment a tree hits 
the ground the fuel increases and it can only return to nearly the 
level it was before the tree's fall with intense management through 
prescribed burns or hand piling and burning the ground fuels. In the 
year or two before that can be accomplished, we have increased the 
ground fuel loading by 3 to 15 tons per acre (figures supplied by the 
BLM). And within a decade or less you need to return to thin again, as 
Mother Nature will fill those open spaces created between the remaining 
trees with lots of brush.
    I believe we need to protect people and homes from the risks of 
fire through genuine community projects which focus first and foremost 
on protecting homes in the wildland interface. As my inspection of the 
Squires Fire area and the attached photos show, thinning the forest 
does not reliably solve fire problems.
    Thank you again for the opportunity to testify today. I would be 
happy to answer any questions you might have at this time.
                                 ______
                                 
    [Attachments to Mr. Calahan's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T1551.016
    
    [GRAPHIC] [TIFF OMITTED] T1551.017
    
    [GRAPHIC] [TIFF OMITTED] T1551.018
    




    Mr. McInnis. Mr. Schulke.

 STATEMENT OF TODD SCHULKE, FOREST POLICY DIRECTOR, CENTER FOR 
                      BIOLOGICAL DIVERSITY

    Mr. Schulke. My name is Todd Schulke. I am a forest policy 
director for the Center for Biological Diversity. I sit on the 
Arizona Governor Jane Hull's Fire Forest Health Advisory 
Committee, Senator Bingaman's Collaborative Forest Restoration 
Program Advisory Committee, and the Southern New Mexico 
National Fire Plan Implementation Team.
    Based on my experience and the Center's research, we 
believe that the bills that are being considered will actually 
make the problems worse and will certainly increase public 
controversy on this issue. Much has been made about fuels 
reduction projects being blocked by conservationists. The truth 
has been shown by various reports, including the Southwest 
Fuels report that I provided you. When one sifts through the 
rhetoric, it becomes obvious that the vast majority of all 
fuels treatments go unchallenged.
    Eleven timber sales that were challenged in Region 3 that 
showed up on Mark Rey's list that claimed 48 percent of all 
mechanical fuel treatments were challenged. The Center appealed 
seven of these. Each included destructive salvage logging, 
logging of mature and old-growth trees, and/or drastic 
overstory removal. A current analysis of the NEPA docket in 
Region 3 showed a total of 244 thinning, burning and logging 
projects. Of these 244, 10 are controversial, less than 3 
percent.
    Mr. Schulke. This site-specific analysis corroborates the 
GAO report that showed the vast majority of fuels projects are 
not challenged.
    There are obviously disagreements about logging large 
trees. To illustrate this, I will discuss a few projects in 
detail.
    The Sheep Basin project on the Gila National Forest emerged 
from the early collaborative planning process that was 
initiated by local conservationists and supported by Senator 
Bingaman. After years of dialog, an agreement was reached. 
Conservationists and locals agreed that there should be a 
diameter cap to stop logging of large trees. However, the Gila 
National Forest disregarded this agreement, and the project was 
repealed.
    The regional forester upheld that appeal because there was 
not a cumulative effects analysis done. This illustrates the 
value of citizen involvement in oversight of environmental 
analysis.
    Another relevant example of a project that was challenged 
is the Baca Timber Sale in the recent Rodeo fire in Arizona. 
Ninety-five percent of the trees in this area were below 12 
inches. The Forest Service wanted to log over 25 percent of the 
volume in large trees.
    The Rodeo fire began on the heavily logged White Mountain 
Apache Reservation, but the Baca sale only covered 2 percent of 
the area. It is really impossible to say that this challenge 
resulted in or played a signature role in the Rodeo fire.
    The Center's challenge of this timber sale has received a 
lot of attention, but the fact of the matter is the Forest 
Service and the local community approached us and asked us to 
release 1,300 acres for community protection treatments. We 
readily agreed, and after 2 years the thinning was not done 
even though there was not legal constraint to doing so.
    In Ashland, Oregon, the Ashland Watershed Protection 
Project was initiated after a timber sale was proposed that 
would cut four-million-board-feet trees as large as three feet 
in diameter. The community of Ashland was concerned about the 
logging, and an alliance formed that developed an alternative 
for the final EIS, and this alternative was chosen.
    These examples show that appeals are often--often improve 
projects, the projects can be implemented in a timely manner, 
and the forest protection laws are also implemented.
    The scientific basis for supporting the above action is a 
clear understanding that focusing fuels reduction near 
communities is the most effective and efficient way to protect 
communities.
    There is also growing agreement on the need to thin small 
trees to get fire back into forests. Consider the quotes in 
front of you in my testimony. I will read a couple:
    Fuel treatments that reduce basal area density from above, 
i.e., removal of the largest stems, will be ineffective within 
the context of fire management. That is from Omi and Martinson 
at Colorado state.
    Clearing underbrush and dense thickets of smaller-diameter 
trees through prescribed burns is more effective at preventing 
catastrophic fires than cutting down more fire-resistant trees. 
Dr. Tom Swetnam, for the University of Arizona.
    The Center for Biological Diversity recently completed a 
report that analyzed the stand structure in all the forests in 
the West and showed that 90 percent of all the trees in the 
West are below 12 inches. They are small.
    In restoration efforts, it is also critical to recognize 
differences in forest types. In a recent oped, Secretaries 
Norton and Veneman asserted that forests in the West 
historically had 25 trees per acre. So much for taking things 
forest by forest. This information is just not true. The 
forests of the West varied dramatically and still do.
    It will take several years to complete effective fuels 
reduction in areas near communities. During this time we should 
be implementing pilot forest restoration projects to learn more 
about how to do this right.
    Recently, a coalition of environmental groups developed a 
proposal that would again focus most of the energy on 
protecting homes and communities and thinning small trees to 
reintroduce fire back into the back country.
    In closing, I would like to say it is a waste of time to 
continue the argument over ecologically destructive and 
scientifically unsupportable timber sales that log large trees. 
There is a tremendous amount of work to be done in areas where 
there is strong scientific agreement and social support. All 
the parties involved in these complex and challenging issues 
need to begin working together in this emerging zone of 
agreement and get on the job with protecting communities from 
fire. Thank you.
    [The prepared statement of Mr. Schulke follows:]

     Statement of Todd Schulke, Forest Policy Director, Center for 
                          Biological Diversity

    My name is Todd Schulke. I'm the forest policy director for the 
Center for Biological Diversity. I sit on Arizona Governor Jane Hull's 
Fire and Forest Health Advisory Committee, Senator Bingaman's 
Collaborative Forest Restoration Program Advisory Committee and the 
Southern New Mexico National Fire Plan Implementation Team. I also live 
with my wife and 2 young sons in a fire prone ponderosa pine forest on 
the Gila National Forest in southwestern New Mexico.
    Based on my experience and the Center's research on community 
protection and forest restoration, we believe that the bills being 
considered by this committee will not contribute to fire risk reduction 
or the protection of communities. These proposals may actually make 
fires worse in some cases and will certainly increase public 
controversy.
    I will discuss the following points:
        1. Timber sale challenges do not get in the way of legitimate 
        fuels reduction;
        2. The reasons timber sales are appealed;
        3. How the appeals process has helped improve some fire 
        projects;
        4. Community Protection and Forest Restoration Science
        5. Recommendations for an ecologically sound fire policy.

Timber Sale Challenges
    Much has been made about fuels reduction projects being blocked by 
conservation challenges. The truth of the matter has been shown by the 
various reports including the GAO report, Mark Rey's report, and the 
Southwest Fuels Reduction report that I provided.
    When one sifts through the rhetoric about who challenged what 
projects it becomes obvious that the vast majority of all fuels 
reduction, such as wildland urban interface work and prescribed burning 
have gone unchallenged even though virtually all of these projects are 
eligible for litigation. The large numbers of projects approved under 
categorical exclusions get through this NEPA shortcut (and other 
efficient analyses) precisely because generally all parties agree these 
fuels reduction efforts are not controversial. The trend here is 
obvious, timber sales that log large trees get challenged--legitimate 
fuels reduction projects do not.
    Eleven timber sales that were challenged in Region 3 showed up on 
Mark Rey's list that claimed 48% (155) of all mechanical fuel 
treatments were challenged nationwide. The Center for Biological 
Diversity was the appellant on seven of these 11 projects. The projects 
challenged by the Center all include destructive salvage logging, 
logging of mature and old growth trees, and/or drastic overstory 
removal.
    An analysis of current projects on the NEPA docket in Region 3 
showed a total of 244 thinning, burning, and logging projects. Of these 
244 projects, 10 (less than 3%) are currently either being challenged 
or under consideration for challenge (pending alternative chosen in 
decision). Again, each of these 10 projects includes destructive 
salvage logging, logging of mature and old growth trees, and/or drastic 
overstory removal.
    This site-specific analysis corroborates the GAO report showing a 
vast majority of fuels projects are not challenged. It also casts doubt 
on the percentages shown in the Rey report that neglected to consider 
non-controversial thinning and burning, as did the other 2 reports.
Projects Appealed by Conservation Groups
    There are obviously deep disagreements concerning logging of mature 
and old growth trees, particularly in the backcountry far away from 
homes. Some of these conflicts are outlined in 2 reports that you have 
(Southwest Logging report, American Lands Alliance Fuels Reduction 
report). To further illustrate the issues I'll discuss a few projects 
in more detail.
    On the Gila National Forest the Sheep Basin ``Restoration'' Project 
illustrates the basic disagreement that keeps us from moving beyond 
debate and to focusing our efforts into action. The Sheep Basin project 
emerged from an early collaborative watershed planning process that was 
initiated by local conservationists and supported by Senator Bingaman. 
The watershed chosen is in Catron County, N.M.--a nationally known 
hotbed of environmental conflict. The idea was to move beyond this 
conflict to watershed restoration that benefited all stakeholders.
    After years of dialogue an agreement was reached. A several 
thousand-acre project was identified for thinning and other restoration 
activities. Conservation groups and the Catron County Citizen's Group 
(interested in utilization of restoration by-products) agreed that the 
project should proceed with a diameter cap limiting logging of large 
trees.
    However the Gila National Forest disregarded the agreement by 
choosing an alternative that will log large trees, though over 90% of 
the trees in the area are below 12'' and all other parties agreed there 
were alternatives to logging big trees that would meet both ecological 
and economic objectives.
    The decision to log large trees (in this case healthy trees up to 
35'' more than 20 miles from the nearest community) resulted in an 
appeal. By ignoring this unusual agreement the Forest Service chose 
controversy over cooperation.
    The Regional Forester upheld the appeal because essentially no 
cumulative effects analysis had been done. This decision is typical of 
appeals--in every positive appeal decision, the Forest Service finds 
itself in violation of the law and sends the project back to the 
individual forest for further analysis.
    Conservation groups had been warning the Gila for several years 
that they needed to address cumulative effects, as the Forest Service 
plans to log approximately 90 million board feet off 60 million 
contiguous acres in a single watershed. This successful appeal, that 
caused the logging plan to be sent back to the forest so cumulative 
effects could be analyzed, illustrates the value of citizen involvement 
in oversight of environmental analysis processes.
    Another relevant example of a project that was challenged is the 
Baca Timber Sale, on the edge of the recent Rodeo fire in N. Arizona. 
This sale was proposed in an area where 95% of all trees were below 
12''. But the Forest Service wanted to log over 25% of the volume from 
trees over 16''. This same area has also recently been logged under the 
Jersey Horse Timber sale. Further, the Sitgreaves National Forest is 
the most heavily logged forest in the Southwest. The Rodeo fire burn 
area alone contains over 2100 miles of logging roads. (See Baca Timber 
Sale Fact Sheet)
    The Rodeo Fire began on the heavily logged White Mt. Apache 
Reservation with reservation land accounting for over 50% of the total 
fire area. The Baca Timber Sale covered only 2% of the Rodeo fire area 
and burned toward the end of the fire. It's impossible to say that the 
challenge to the Baca sale played a significant role in the Rodeo Fire 
saga. The bottom line is logging proved to be ineffective in stopping 
the Rodeo fire, especially during the 100-year drought conditions.
    The Center's challenge of this timber sale has received a 
tremendous amount of criticism (it was highlighted in President Bush's 
Healthy Forest initiative as an example of analysis paralysis). But the 
truth of the matter is that twice the Forest Service and the community 
of Forest Lakes requested release of areas for community protection 
treatments. We readily agreed both times to fuels reduction on over 
1300 acres. Though the second release of 1000 acres was agreed to in 
November of 2000, the Forest Service had not implemented the thinning 
project even though there were no legal constraints to doing so.
    In the case of the Rodeo fire it would have made much more sense to 
implement aggressive home protection treatments near communities rather 
than last ditch efforts in the face of a drought driven fire. The 
residents that lost their homes and those that lived in fear that it 
would happen to them, would have been much better served if the Forest 
Service had focused on protecting their homes proactively rather than 
trying to push through another timber sale.
    The Ashland Watershed Protection Project is an example of public 
involvement improving agency decision-making. Initially, the Ashland 
Watershed Protection Project was named the HazRed Timber Sale Project, 
a four-million-board-foot timber sale that would have logged trees as 
large as three feet in diameter.
    The community of Ashland was concerned about the proposed logging, 
and several groups and individuals appealed the project. As a result, a 
diverse group of residents formed the ``Ashland Watershed Stewardship 
Alliance,'' which met twice a week for six months. The Alliance 
included representatives from the mayor's office, small- business 
owners, forest workers, members of the Society for American Foresters, 
environmental groups, and other concerned citizens.
    During the public comment period the Alliance produced a proposal 
that became the basis for the development of a new alternative that was 
included in the Final Environmental Impact Statement. A modified 
version of this alternative was approved by the agency as the Ashland 
Watershed Protection Project.
    Implementation of the project began in 2001 and will continue for 
several years. Treatments include the following:

    <bullet> Treatment of 10 percent of Ashland's municipal watershed. 
It reduces fuels on national forest lands using manual treatments (e.g. 
brush cutting, pile and swamper burning) directly within the Wildland 
Urban Interface (WUI) zone and in areas within the interior proposed 
for prescribed understory burning.
    <bullet> Prescribed under burning in area-wide treatments in 
suitable and manually pre-treated areas and fuel break maintenance are 
also taking place.
    <bullet> The project does allow for some overstory tree removal, 
but a 17-inch diameter cap has been imposed on trees marked for 
removal. Trees 17 inches or greater in diameter in southern Oregon are 
typically considered late successional and have developed resistance to 
fire.
    These projects illustrate various aspects of the issues surrounding 
timber sale challenges. These examples show that following appeals 
projects are often improved, often get implemented in a timely manner 
(with community support), and ensure that forest protection laws are 
being implemented.

Community Protection and Forest Restoration Science
    The scientific basis supporting the actions mentioned above is the 
clear understanding that focusing fuels reduction on areas near 
communities is the most effective and efficient method to saving homes 
and lives. The best available science shows treatment of an area of up 
to one-quarter mile is justifiable for home protection, fire fighter 
safety, and other community values. (CBD WUI paper). The area beyond 
one-quarter mile should be considered wildland forest and subject to 
restoration oriented treatments such as prescribed burning.
    There is broad agreement that prescribed burning is an effective 
method for reduction of forest fire intensity. Reintroduction of fire 
is also critical to the long-term enhancement of ecological integrity 
in fire dependent forests. An extensive prescribed burning program 
should be implemented when it will be safe and where it will be 
effective.
    There is also growing agreement on the benefits of fuels reduction 
focused on small diameter trees, brush and ground fuels to lessen the 
severity of forest fires and to facilitate reintroduction of beneficial 
fires where appropriate. Consider quotes by prominent fire ecologists 
from universities around the West:
    ``...fuel treatments'' that reduce basal area or density from above 
(i.e. removal of the largest stems) will be ineffective within the 
context of wildfire management.''--from ``Effect of Fuels Treatment on 
Wildfire Severity'' (Omi and Martinson 2002), Western Forest Fire 
Research Center at Colorado State;
    ``...clearing underbrush and dense thickets of smaller-diameter 
trees through prescribed burns is more effective at preventing 
catastrophic fires than cutting down more fire-resistant large trees. 
``It's clearly the small-diameter trees that are the problem,'' Swetnam 
said, citing trees 8 to 10 inches in diameter. - Dr. Tom Swetnam, 
director of the Tree Ring Lab at U of AZ (Arizona Daily Star, June 25, 
2002);
    ``The small trees and surface fuels contribute most to fire risk, 
as they provide ``ladders'' for the fires to climb from the surface 
into the tree crowns. Forests where ``ladder fuels'' are limited and 
tree crowns (or the crowns of groups of trees) are separated won't 
support a crown fire. Thus, ``thinning from below'' to remove the 
smaller trees, e.g. those 8-10 inches in diameter or less, greatly 
reduces the intensity with which fires will burn through a forest.'' - 
Dr. Penny Morgan--University of Idaho, House Resources Committee 
Hearing, July 11, 2002.
    The Center for Biological Diversity recently completed a report 
using Forest Service information that showed more than 90% of all trees 
in the West are 12 inches in diameter or smaller. This shows that any 
overstocking problems in our forests are clearly in the small tree size 
classes. (See Forest Structure in the West Report)
    In restoration efforts it is critical that differences in forest 
types be recognized. In a recent USA Today oped, Secretary's Norton and 
Veneman asserted that forests in the West historically had 25 trees per 
acre. This gross generalization is simply not true for most of the 
West. Certainly there were forests with lower stand densities 
historically but to erroneously claim that western forests universally 
had 25 trees per acre would lead us to apply restoration based on 
faulty historical information and ecological theory. This would 
certainly lead to more damage to ecosystems.
    Unfortunately there is a dearth of empirical research concerning 
the effects of thinning on fire behavior. Omi and Martinson found 6 
relevant papers--2 of those studies from New Jersey and 1 from Florida. 
Clearly, more work needs to be done in this area before considering 
large-scale forest restoration that involves thinning.
    It will take several years to complete effective, focused fuels 
reductions in areas near communities. During this time it will be 
important to implement pilot forest restoration projects to develop the 
knowledge base necessary to avoid causing widespread ecological harm.
Recommendations for Community Protection
    Recently a coalition of grassroots and national conservation groups 
developed a proposal for a comprehensive community protection program. 
The elements of a focused and effective program would include:

    1. Community protection as the Forest Service's top wildfire 
management priority.
    2. Focus of resources on priority work that protects homes and 
communities by:
        <bullet> Providing funds and expertise to fireproof buildings; 
        and
        <bullet> Thinning trees and removing other vegetation within 
        the Community Zone (up to a maximum of 500 meters from a 
        community's buildings).
    3. Outside the Community Zone: avoid controversy, delay, and harm 
by preparing dry forest sites to burn cooler and more controllably by 
clearing brush, thinning only small trees, and using prescribed fire 
through best value and/or service contracts.
    4. Prohibiting road construction and major reconstruction in 
national forests, activities, which double the chances that a fire will 
occur and, when fires do occur, can increase severity.

FUNDING
    1. Providing $2 billion per year for five years for community 
protection.
    2. Of new funding, 75% to state/tribal fire assistance through 
Block Grants for community protection, including public education and 
outreach on making homes ``firewise,'' homeowner cost share grants, 
seed money for community protection, and treatment of non-federal lands 
in the Community Protection Zone.
    3. Direction that 90% of all hazardous fuels treatment funding 
(planned fiscal year 03 appropriations and added funds) be spent within 
the Community Protection Zone on lands adjacent to projects funded by 
block grants.
    4. Reallocation of Forest Service and BLM personnel so that the 
number of FTEs working within the Community Protection Zone is 
proportionate to amount of funding spent within the Community 
Protection Zone, assisting communities in public education and planning 
for fire safety and fuel reduction work.

PROCESS
    Promotion of community involvement, timeliness, accountability and 
local employment by:
    <bullet> Using an open process that incorporates local priorities 
for structural safeguards and fuels reduction in the Community 
Protection Zone;
    <bullet> Excluding work that requires new roads or major road 
reconstruction;
    <bullet> Using existing legal authorities that agencies have 
successfully used to accomplish work promptly and without controversy;
    <bullet> Requiring an efficient multiparty monitoring program, 
including planned timelines for all funded hazardous fuels reduction 
projects on federal lands with a monthly report-back mechanism to 
advise Congress of unplanned delays of greater than 60 days.
    <bullet> Awarding best value and service contracts (including 
monitoring contracts) to local cooperatives, small and micro-
businesses, and other entities that train and use local employees.
    This outline provides and effective and efficient framework for 
protecting communities from forest fires that can be the basis for 
developing widespread agreement need to facilitate rapid protection of 
homes and lives from the risk of forest fires.
    In closing I'd like to say it is a waste of time to continue the 
argument over ecologically destructive and scientifically unsupportable 
timber sales that log large trees. There is a tremendous amount of work 
to be done in the areas where there is strong scientific and social 
support. All parties involved in these complex and challenging issues 
need to begin working together in this emerging ``zone of agreement'' 
and get on with the job of protecting communities from the risk of 
fire.
    Thank you.
Appendix
    A. Southwest Fuels Reduction Report
    B. Southwest Logging Report
    C. American Lands Fuels Reduction Report
    D. Baca Timber Sale Fact Sheet
    E. CBD Wildland Urban Interface Paper
    F. Small Tree Quote Report
    G. Forest Structure In the West Report
                                 ______
                                 
    [Attachments to Mr. Schulke's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T1551.001
    
    [GRAPHIC] [TIFF OMITTED] T1551.002
    
    [GRAPHIC] [TIFF OMITTED] T1551.003
    
    [GRAPHIC] [TIFF OMITTED] T1551.004
    
    [GRAPHIC] [TIFF OMITTED] T1551.005
    
    [GRAPHIC] [TIFF OMITTED] T1551.006
    
    [GRAPHIC] [TIFF OMITTED] T1551.007
    
    [GRAPHIC] [TIFF OMITTED] T1551.008
    
    [GRAPHIC] [TIFF OMITTED] T1551.009
    
    [GRAPHIC] [TIFF OMITTED] T1551.010
    
    [GRAPHIC] [TIFF OMITTED] T1551.011
    
    [GRAPHIC] [TIFF OMITTED] T1551.012
    
    [GRAPHIC] [TIFF OMITTED] T1551.013
    
    [GRAPHIC] [TIFF OMITTED] T1551.014
    
    [GRAPHIC] [TIFF OMITTED] T1551.015
    

    Mr. McInnis. I thank the panel.
    We will go ahead and open for questions or comments. I will 
initiate that.
    First of all, Mr. Schulke, I want to make it very clear to 
you that our focus here is not just on old growth or, as you 
say, big trees; it is a focus on the forests as a whole. And I 
see out there some of the more radical organizations--not to 
say that yours is--but some of the more radical organizations 
are constantly trying to pull this argument into old growth in 
an effort to bolster their arguments that we shouldn't touch 
the forests at all. I think you would find the testimony from 
the Secretaries, any of the bills here, it is a very small 
percentage of old growth that is necessary. That is not where 
the focus is, and I think you need to acknowledge that we are 
looking at the forests as a whole.
    The second point I would like to ask is you is, you use the 
number 244 thinning projects and how little you appeal them. 
Can you tell me what number of the 244 were not appealable 
because they had categorical exclusion?
    Mr. Schulke. Not at this time, but I can get you that 
information.
    Mr. McInnis. I think that would be very pertinent as to 
your 244.
    Part of the problems of the GAO study is that in their 
initial one--which, by the way, they have even withdrawn their 
support of their own study. They said it is inaccurate. But 
part of their problem was that they considered thinning 
projects that you couldn't appeal in the first place. That is 
what threw out the numbers. Now, that is GAO's own numbers.
    Mr. Schulke. But Mr. McInnis--.
    Mr. McInnis. So I--.
    Mr. Schulke. --you can't litigate those projects.
    Mr. McInnis. I am the Chairman. You may speak when I am 
finished.
    Mr. Schulke. Thank you.
    Mr. McInnis. My point here to you is that I think it is 
very important we know what number the 244 that were 
categorical exclusions.
    The other point I would like to make to the Committee as a 
whole is, keep in mind, I happen to agree that controlled or 
prescribed burns are helpful. But my understanding--and I could 
be corrected. But my understanding is that one out of every 20 
or one out of every 22 controlled burns gets out of control. 
This is a very risky, very dangerous proposition. So I don't 
want people to think that this is the automatic answer, these 
prescribed burns. You saw it in New Mexico, what happened a 
couple of years ago. We saw it in Yellowstone. Those were 
prescribed burns that got out of control, and I am sure we 
could come up with a number of others. So, one out of 20.
    So while I support that, we also have to work very 
diligently that making sure--to put whatever safeguards we can.
    I found the testimony--Mr. Burley, your testimony, 
especially interesting. And it was helpful for--excuse me. Mr. 
Covington, I'm sorry. I got--Mr. Covington. I found that 
testimony very helpful, and I appreciate some of the comments, 
things I didn't even think about there.
    Mr. Calahan, your testimony was interesting. You are a 
fireman. I used to be a volunteer fireman. I have been in the 
wildfires, and in my district this year I have gone to most of 
those. That is why we need to custom look at every forest.
    Obviously, in some of the areas you saw, you didn't think 
thinning was necessary. In your own yard, you thought thinning 
was necessary. It just shows that we cannot categorically say--
and I am not saying that you have. But we can't categorically 
dismiss thinning as helpful.
    We had a terrible fire down in the four corners at the 
park, the Mesa Verde National Park this last summer about a 
month ago, and they--it is a textbook example which saved the 
headquarters and saved many of the ruins, the thinning--and the 
superintendent will tell you categorically that it was the 
thinning that saved their headquarters and these facilities 
from burning. They had just finished the thinning last year.
    You can go up and you can look. You can see where the fire 
came from all sides, and it stopped right where the thinning 
was completed. So, thinning works sometimes; sometimes thinning 
doesn't.
    With that, I will be happy to--yes, Mr. Udall. And let me 
mention one other thing. We had heard earlier testimony about 
old growth trees don't burn, or apparently they are very fire 
resistant. In the Hayman fire--and I think Mr. Mark Udall was 
on a tour recently. On the Hayman fire, we lost trees that were 
over 500 years old that will take over 20 generations to 
replace. They were not fire resistant. That fire burned so hot, 
it burned down a grove of these trees or a group of these 
trees. So these trees are not fire resistant, as some might 
imply.
    Tom Udall. Mr. Tom Udall.
    Mr. Tom Udall. Thank you, Mr. Chairman. I very much 
appreciate the panel being here and having your testimony 
today. I think that the testimony has shown that all of us 
really need to learn a lot about this area in terms of 
embarking on policies.
    [The prepared statement of Mr. Udall follows:]

  Statement of Hon. Tom Udall, a Representative in Congress from the 
                          State of New Mexico

    First I would like to thank Secretaries Norton and Veneman for 
coming here today to discuss these very important issues facing 
America's forests today.
    This season's wildfires have burned more than twice the ten-year 
average on public and private property across the West. Scientists, 
environmentalists, and even lawmakers agree that 100 years of fire 
suppression and a record drought year contributed to the conditions 
that set the stage for this year's fire season. And, we can all 
understand that clearing some of the fuel that feeds these fires is 
necessary. However, that is where our agreement ends.
    The Administration's ``common sense'' policy for managing our 
National Forests is not common and makes no sense. This policy 
perpetuates and expands the current unsound practice of not spending 
our limited resources in the communities that need them most, and 
instead spend them in the backcountry. The General Accounting Office 
(GAO) was asked by several Members of Congress to review the steps the 
Departments of Agriculture and Interior have taken to date regarding 
implementation of the National Fire Plan. In that report, the GAO 
identified the need for two things--more and better interagency 
coordination, and better focus on identifying and responding to the 
highest-risk communities in the wildland/urban interface area. So why 
is the Administration looking to move resources away from these high-
risk communities?
    I am equally concerned that the proposal essentially cuts the 
public out of having a say in land management decisions when it gives 
the agency the authority to proceed without environmental checks and 
sideboards. The key to land management now and in the future is to have 
all stakeholders involved in the process when it comes to our lands.
    All fire season, the Administration and other public officials have 
blamed environmentalists who appealed forest thinning projects for the 
catastrophic wildfires. The Administration wants to exempt a range of 
agency actions from the National Environmental Policy Act, the very law 
that epitomizes open and thoughtful decision making by allowing the 
public to have a say in and look at the environmental impacts of a 
logging or development project. This cornerstone of good government has 
kept a check and balance in place that has helped to improve countless 
projects on public lands.
    Even more troubling, the Administration and sponsors of 
legislation, have based this massive environmental policy overhaul on 
false premises. The Administration and the bill sponsors somehow would 
have us believe that if the environmentalists had not held up so many 
thinning projects, the fires never would have happened. They cite a 
July Forest Service report claiming nearly half of all thinning 
projects have been appealed as the smoking gun leading to the 
conclusion that appeals must be stopped. Yet, just one year ago a GAO 
study revealed that only one percent of hazardous fuels reduction 
projects had been appealed.
    Last month, Representative Inslee and I asked the Forest Service to 
provide the documentation to support its report's claims. Only by using 
suspect methods in their data collection, and cooking the books, can 
the Forest Service make the outrageous statement that almost 50 percent 
of all thinning projects were appealed. According to a Forest Trust 
analysis of the appeals report, the Forest Service report used 
selective sampling to skew the numbers. The Forest Service report only 
surveyed mechanical fuel treatment appeals and ignored all other forms 
of fuel reduction treatments. But, in 2001, mechanical treatments 
accounted for a mere 15 percent of all hazardous fuels reduction 
efforts. So looking at the larger universe of fuels treatment projects, 
of 244 such projects in the Southwest region, only 2 are opposed. Let 
me repeat that only 2 projects out of the 244 in the Southwest were 
appealed. That's less than 1%
    Furthermore, the Forest Service definition of mechanical fuels 
treatment projects in the report was so broad that virtually any timber 
sale was included. Almost 90 percent of the appealed projects in the 
Forest Service report include timber sales. In fact, many of the 
appealed projects listed in the Forest Service report are not even fuel 
reduction projects, once again illustrating the biased and unreliable 
nature of this report. And that's just the point: when the agency 
proposes controversial projects outside of the wildland urban 
interface--timber sales in the name of forest health, they're likely to 
be scrutinized and challenged.
    At a time when Members of this committee are demanding better 
science in the implementation of environmental laws, I do not see how 
we can establish a national policy based on such mistruths. To think 
that thinning projects would fire-proof our forests is seriously 
misguided.
    This is not, as the President has said, a common sense approach to 
forest management. If we are to truly address wildfire management and 
improve forest health, we need a common sense approach that allows the 
people to continue to play a role in land management. Thank you.
                                 ______
                                 
    Mr. Tom Udall. Mr. Covington, to start with you, when we 
heard earlier testimony that, you know, about a hundred years 
and we have been in mismanagement and we have had overgrazing 
and we have disconnected native Americans from the land and 
they used to use burning to manage the land and then we have 
had this very aggressive fire suppression, when did we first 
start thinking that fire suppression was not the way to go? You 
seemed to indicate in your earlier comments that we have known 
for a couple of generations. And why? You know, what is your 
take on that and why has it taken the bureaucracy so long to 
realize that and put a policy in place, in your opinion?
    Mr. Covington. Thank you, Mr. Udall.
    The--just historically--I will try to make this short. I 
tend to talk in 50-minute units, being a professor. But the 
short version of that is there was a tremendous idealogical war 
when the Secretary of Interior was Noble back when John Wesley 
Powell and Gifford Pinchot were duking it out. John Wesley 
Powell advocated for managing western lands close to natural 
conditions, including fire. Powell actually learned how to use 
fire from the Paiute people of northern Arizona, Southern Utah, 
was a strong advocate of it. He was not formally educated in 
forestry, forestry of the day. Pinchot was. Pinchot was 
educated in western European forestry, where fire was the enemy 
of the mixed mesophytic forests that were over there. So they 
were at ideological loggerheads, basically. Pinchot won that 
argument. That sent us down the point where we are today.
    As a young man, when I was first becoming educated in fire 
ecology, fire was still fundamentally bad in western forests. 
By the time I was into my master's degree program there was 
some, well, yeah, you know, people have been saying for a while 
fire is a good thing as long as it is a natural fire. Now we 
are at the point where--as a matter of fact, when I started 
working in Northern Arizona University in 1975, the West had 
just--the Forest Service had just said we will start using 
prescribed burning, not let fires go.
    We have won kind of the battle that prescribed fires can be 
good, but it is too late. In the 1940's, we could have used 
prescribed burning to do the thinning and restore forest 
ecosystem health.
    One of the first research projects I did started in 1975. I 
tried this, and to my great surprise it did not kill the trees 
that needed to be removed, it killed the old growth trees. And 
I did not want to believe that. That data hit me square in the 
eyes. I did it repeatedly, which led me then to realize that in 
dense forests of ponderosa pine and related types, you have to 
go in and mechanically thin those trees so you can safely then 
reintroduce the natural process of fire.
    So, anyway, that is just a little bit of the background.
    Steve Pine, by the way, has a great documentation of this. 
I know you know of Pine's work and so.
    Mr. Tom Udall. So was it in the 1940's that people like you 
were urging the Forest Service to start to change in terms of 
the usage of fires and that?
    Mr. Covington. People like me? Maybe. But not me, clearly. 
While I have some years on me, I wasn't here then.
    Mr. Tom Udall. I am not giving you all those years. I am 
just trying to document. Because you said for generations we 
have known this.
    Mr. Covington. In the 1940's, Harold Weaver started working 
on the Coleville Reservation up in eastern Washington. My 
subsequent students and grad students have continued the 
prescribed burning project. Harold Weaver, following on 
Leopold's statements, said: Fires are going to get worse in the 
ponderosa pine mix dry forest types. They are going to get 
catastrophic. Insect and disease problems. We have got to 
reintroduce fires.
    Do you know what the response of the mainstream community 
of land managers, of forest managers, and fire experts were at 
the time was, that is just a bunch of Paiute forestry. That is 
what ignorant, uneducated people do to the land.
    That fight went on. It started in Arizona with Harry 
Calender. Weaver came over. Biswell from California came over 
and worked with the White Mountain Apaches--which is, of 
course, where the Rodeo-Chediski fires started--to start doing 
prescribed burning on grand scales. But still the mainstream 
didn't get it until now it is too late under dense forest 
conditions.
    We simply--you cannot kill--safely kill the trees that need 
to be removed to restore natural conditions, biological 
diversity and so on with prescribed burning.
    Mr. Duncan. [Presiding.] The time of the gentleman has 
expired.
    Mr. Hayworth.
    Mr. Hayworth. Thank you, Mr. Chairman; and thank all the 
panelists. Especially pleased to have Wally here.
    Wally, let us continue on with what you were talking about 
earlier, maybe to amplify a couple of these things. If you 
could crystallize for us the difference between ecological 
restoration and hazardous fuel reduction.
    Mr. Covington. OK. Hazardous fuel reduction treats a 
symptom of ecosystem health, but just one symptom. Ecological 
restoration seeks to treat, in a sense, the entire patient. So 
with ecological restoration approaches we are not merely 
concerned about unnatural fire behavior or unnatural insect and 
disease outbreaks, but we are concerned about unnatural crashes 
of the species in the ecosystem, unnatural eruptions of 
species, losses of long-term soil processes, losses of 
watershed function. So it gets then what we are trying to do 
with ecological restoration, get at the whole problem, not just 
a part of it.
    Mr. Hayworth. Wally, I am reading different documents--and 
I thank Mr. Schulke for being here. Going through his testimony 
I see I guess what message was released from the Center for 
Biological Diversity: Southwestern National Forests Threatened 
by Logging.
    Maybe we need to get a definition here. Professor 
Covington, in your mind, what is the difference between logging 
and thinning? And is there a scientifically standardized 
definition of the distinction between the two?
    Mr. Covington. Well, there is a professional--and I am also 
a professional forester, as you know, J.D. And in the 
profession we differentiate between logging. The purpose of 
logging is to provide wood for wood utilization. The purpose of 
thinning is to improve land conditions. So, it is--what I like 
to emphasize is again that ecological restoration would be 
using thinning to improve land conditions.
    Then, as Mark Gray said, as almost incidental to the land 
health restoration project, where roads exist, you may be able 
to, in an environmentally, socially, and politically sound 
fashion, remove those excess trees and then get some 
utilization for the human component of the ecosystem to, you 
know, have jobs and also to help defray some of the cost.
    Mr. Hayworth. In your opinion, do you share the assessment 
that I see in Mr. Schulke's notion that our forests are 
threatened now by logging in the Southwest?
    Mr. Covington. No, I don't think they are. That was true 
some years ago. Right now, the greatest single threat by far to 
the vast ponderosa pine dry forest types, the dry mix conifer, 
dry Douglas types is unnatural, severe catastrophic crown fire. 
There is just no doubt at all that that is the largest single 
threat to the long-term sustainability to these ecosystems.
    Mr. Hayworth. I thank you very much, Professor.
    Let me turn to Mr. Calahan. Thank you for coming, sir; and 
we appreciate your first-hand knowledge of what was transpiring 
in Oregon. My friend Congressman Walden especially is concerned 
about that.
    Our documentation says you are a retired firefighter. I 
guess you obviously had to come out of retirement, given the 
severity of what was going on with your property and what was 
happening to your neighbors there.
    Mr. Calahan. I think firefighters are like moths to the 
flame, you know.
    Mr. Hayworth. What are you doing now, sir?
    Mr. Calahan. I seem to be plenty busy. There is plenty to 
do. But I am working on my own property. I lost a hundred fir 
trees this year due to drought in 1 year.
    Mr. Hayworth. Well, we thank you for coming down and being 
a part of this; and I thank all who join us here today.
    Obviously, we have some differences of opinion. Mr. 
Schulke, can there be a meeting of the minds, or are we 
destined to fall into the traps of demonizing each other as we 
continue ad infinitum? Is there any realm of compromise that 
the Center would accept, from just hearing some of the 
testimony that you have heard?
     Mr. Schulke. Absolutely, Mr. Hayworth. Absolutely.
    I don't know if you have heard the outcome of the meeting 
we had with Senator McCain a couple weeks ago in Flagstaff, but 
we talked about that exact thing.
    One thing I will provide you. This is a newsletter that I 
brought that shows some of the efforts that we are working on 
to do forest restoration which involves the kind of small tree 
thinning that I was suggesting, and economic development to 
utilize those small trees. This is a Center project. So, we do 
have a lot of agreement. There is a lot to move forward 
together on here.
    Mr. Duncan. The time of the gentleman has expired.
    Mr. Mark Udall.
    Mr. Mark Udall. Thank you, Mr. Chairman.
    I also want to welcome the panel, and thank you for your 
compelling testimony.
    Dr. Covington, I think we could all sit and listen to you 
for a 50-minute block. I look forward to taking advantage of 
your expertise.
    I had an opportunity, as Congressman McInnis suggested, to 
tour the Hayman fire, and I spent some time with Dr. Kaufman, 
who I think you probably know. One of my concerns is that we 
are really focused on I think what you call the dry forest 
environment, and there is a lot of talk about the ponderosa and 
Douglas fir ecosystems. Then people then tend to lump, in my 
experience, other forest types into that particular situation.
    I would urge all of you and all of us here to help begin 
the education process. I think it is really necessary when it 
comes to the general public to help them better understand we 
do face--it is not just one forest type. Lodgepole, for 
example, are subject to stand replacement type fires as we saw 
in Yellowstone. We have both environmental and social 
considerations we have to take into account when it comes to 
lodgepole.
    I called on the Forest Service to study with a scientific 
panel the Hayman fire to better understand the behavior of that 
fire, because even today we are hearing a lot of anecdotal 
evidence. We see the photographs that--the two Secretaries were 
here. Those of you on this panel have made various observations 
and then drawn some conclusions, and I think it is all very 
well-intentioned, but there is more work to be done to analyze 
the fires, as terrible as they have been, to help us understand 
where we might go in the longer run.
    I do appreciate the science emphasis here, because those of 
us here get caught up in the policymaking and by extension the 
politics.
    I was pleased--I think my colleague, Mr. Hayworth, I think 
has stepped out, but he represents a district where there has 
been significant fire this summer. I get the sense from Mr. 
Hayworth that he is really looking for some common ground, as I 
think all of us here on the Committee are.
    Mr. Calahan, I was just really impressed with your 
testimony. I am going to ask you questions, probably unfair, 
but if you were in a position where you could direct resources 
and personnel in this challenge we face, what would you do? 
What would you do to reduce the hazards of wildfire and protect 
property and human life?
    I think you come with a great credibility and your 
testimony was very powerful in that you give us a sense that 
you understand the environment, you understand forests, but you 
also want to protect and preserve forests, but you are not 
adverse to logging and fuel reduction efforts when necessary.
    Mr. Calahan. Thank you. I think probably, at least in our 
area, in the Applegate Valley, we are becoming educated, the 
citizens are, about the vulnerability of their homes. In fact, 
there is a bill I believe that was just passed, it has been 
introduced and been worked on, where you will be fined if you 
are a contributor to this fire if you don't do the fuels 
treatment around your home. And I think that is moving ahead 
rather well. The public is becoming aware that they need to be 
responsible for their own property in any way they can.
    There was a little bit of funds that came out that helped, 
and you could get about $330 to do some thinning around your 
home if you qualified. So that is a step in the right 
direction.
    But I see very little of the money that is happening in BL 
M and the Forest Service being applied to the rural interface, 
that area where the private land and the government land is. 
They are concentrating it out, they do big blocks of land, but 
it is up here on a hill where everybody can see it, but it is 
not really doing the area we need. I would like to see that 
drawn into these places where people want to put their homes 
next to BLM land. BLM land, where the Forest Service is a great 
neighbor because they don't come around too often, but they are 
a bully when they do come around.
    I may stand alone in this one, but I think we are really 
making a mistake when we go out on something like the Biscuit 
complex and deploy 92 plus cats and try to stop it at every 
hill and dale. That was a remote fire. When it comes to the 
communities, if we had already done our homework, that wouldn't 
be such a problem. But protect our communities and the private 
lands.
    But I see where we need to back up to one of those natural 
breaks or one of those where we have a road and a somewhat bald 
ridge and back off and let the fire burn to you, because you 
have to understand that this fire is doing a good thing. It is 
one of the few ways we are going to be brought back to zero, 
because we cannot go out and manage all these lands and thin 
them all. We just don't have a prayer. There is too much. It is 
too big. We need to put the money where it needs to be.
    I also think we need to separate logging and thinning. They 
are two separate--I mean, they are related, but we are trying 
to tell these BLM managers and Forest Service managers that 
they have to make this pay for itself. And when you throw in 
all this little stuff, they have got to throw in something big 
in order to make it pay for itself.
    Mr. Mark Udall. Mr. Chairman, I thank you for indulging.
    I think, if I could just add a final comment, Mr. Calahan, 
you make the very good point that we need to continue to do all 
we can to have our fuel reduction and our thinning debates and 
policy-setting here and separate the logging debate and the 
logging policy; and the more we can do that I think the more 
successful we can be, understanding that they are at least 
cousins and perhaps even siblings.
    Mr. Duncan. Thank you very much. The time of the gentleman 
has expired.
    Governor Rehberg.
    Mr. Rehberg. Thank you, Mr. Chairman.
    Dr. Covington, it just goes to show you, you can hear the 
same testimony and view it two different ways. I have 
particular problems with Mr. Calahan's testimony because I 
think it is a simplistic view of the kinds of problems that are 
created within a forest. Now, I guess my question to you is, is 
the thinning--first of all, are you familiar with the Squires 
fire? Have you seen it? Have you been there?
    Mr. Covington. Yes. I haven't been on there.
    Mr. Rehberg. Based upon your knowledge of the ecology of 
the forest, is the thinning of the forest what creates the 
potential for a more severe burn, or is it some other factor 
within that forest that created the more severe burn?
    Let me tell you the direction I am heading from, just to 
give you a little hint. My background is grass. I know grass 
inside and out. There is nobody in this room that knows more 
about grass than I do. That is why I talk about undergrazed 
grass kills it every much as overgrazed grass.
    So, if you have a forest canopy, you have got thick trees, 
you have got pine needles. When you have got pine needles, you 
have a severe burn. Not only do you have the crowning, but you 
also have a severe burn on the ground because of the pine 
needles. If you have a thin forest, you have a better 
opportunity for better grass, but from an ecological 
standpoint, unless you change the management of the way you 
treat those grasses, some day you are going to have the same 
problem but on the ground. You are going to have too much 
grass. Because grass in itself, when the sun is shining and it 
is raining or it is snowing, builds upon itself and it 
eventually becomes such a wolfey plant that it creates a fire 
danger at a more severe level on the ground level.
    So my question is, based upon his testimony, is it in fact 
the thinning that created the more severe fire? And he uses the 
term: One of the downsides of thinning is that it lets in more 
sun and wind that drys out the forest, making it potentially 
even more prone to severe fire. No. What happened is the sun is 
going in and you are not doing anything to manage the ground 
and, as a result, you are creating a different kind of a fire 
damage.
    Mr. Covington. In brief, thinning is not thinning is not 
thinning, right? So if you do too little thinning and you leave 
the slash, the thinning debris on the ground, it is true that 
you can get greater wind movement, greater sunlight drying out 
of that surface and you can get--you can actually increase the 
severity of the fire.
    Mr. Rehberg. Because of the slash, not because of thinning.
    Mr. Covington. Because of the slash. Well, but also because 
there is better wind movement and it dries out more if you do 
too little thinning. It is kind of like if you go in--you know, 
if--God forbid, but I go into my doctor and he says, you have 
got a tumor, you know, that is malignant. And he says, well, 
you know, I will tell you what I am going to do. I am going to 
go in and remove 10 percent of that, and then we will come back 
in another 3 years and we will remove another 10 percent, maybe 
20 percent of it. That can make it worse.
    The tree population eruptions are a cellular disorder. They 
are like a cellular disorder in the body. So if you remove only 
part of the problem, you can make it worse. However, in the 
case of ponderosa pine, frequent fire types, if you go in and 
remove the excess trees that should be removed to restore more 
natural conditions, there is no way that large crown fires can 
occur. It simply will not occur.
    As you have pointed out, fires will occur in the surface 
vegetation through the grasses and wildflowers and shrubs. 
Those fires for the most part can be controlled with direct 
attack. You can put people in front of those fires with hand 
equipment and stop those. It doesn't take a huge fire line like 
Mr. Calahan was talking about, you know, in the conditions that 
we have now.
    So, does that answer your question?
    Mr. Rehberg. I had mentioned in my opening statement the 
tools that are available to manage a forest; and I would 
suggest that in my business, you know, if I have got a 
mismanaged pasture that I am moving into, one of the things 
that I do consider is a prescribed burn. Because I may have too 
much sagebrush because I purchased a piece of property that 
used to be farmed and they have gone back and now it is 
sagebrush.
    But you clearly understand that when you go in with a 
prescribed burn to change the ecology of that land, unless you 
change the management after the burn, what have you solved? And 
isn't that the same issue that we are talking about here, is 
that if we don't in fact change the management of the entire 
ecosystem in the long-term, yeah, maybe we did go in and thin 
and create a more difficult problem. That is why we have to 
look at it from the ecological system standpoint.
    Mr. Covington. Exactly. And within the absence of fire or 
other forms of management of the understoring vegetation, you 
may have a healthy--let us think of the trees as sort of the 
lungs or something like that in the body. You may have healthy 
lungs, but if you are not paying attention to the herbaceous 
and shrub layer, then you don't have a healthy body or a 
healthy ecosystem.
    Mr. Duncan. The time of the gentleman has expired.
    Mr. Rehberg. If somebody could ask Mr. Burley perhaps, it 
looked like he was trying to wave a response of some sort.
    Mr. Duncan. Just very quickly.
    Mr. Burley. It will be brief, Mr. Chairman. I just wanted 
to follow on on Dr. Covington's comment.
    You know, when you are managing these stands--I mean, there 
are multiple objectives, as he has pointed out, under ecosystem 
restoration. But with respect to fire behavior specifically, I 
mean, you have got different fuel classes. We have got fuels 
that are a thousand hour classes. They are large chunks of 
woody material that will sit there and burn for thousands of 
hours, and you have got very fine light fuels. So to say that 
just thinning will increase the fuel load, you have to kind of 
look at what fuel class is it. Because the lighter finer fuels 
aren't nearly as dangerous or have as severe an impact on the 
stand when the fire does burn through it.
    But it is also--you know, it also points out--I think Dr. 
Covington's answer points out that it is more than just--you 
know, it is more than just the fuels and the number of trees, 
that you have to look at the crown closure. There is so many 
factors involved in this thing, which is why it just makes it 
all the more difficult to try and write a one-size-fits-all 
prescription.
    Mr. Duncan. All right. I understand that Chairman McInnis 
accidentally skipped over Mr. Inslee a while ago, so we are 
going to go next to Mr. Inslee.
    Mr. Inslee. It has happened before. Thanks, Mr. Chair.
    I just want to note Mr. Rey's comment about trying to find 
commercial value for some of the real thin trees is something I 
think worth investigating. I hope we can work on that together 
to find a way to have value inducement for the very, very thin 
products.
    But I want to focus on what I think really is the crux of 
our issue here, and that is, how do we get to a fuels reduction 
program that citizens have trust in their government, that is 
motivated by a desire to have healthy systems rather than to 
increase commercial productivity? And I think that is the real 
question. How do we design a system to do that?
    I think Mr. Calahan's statement about the issue of what 
happens when you essentially tell the Service to finance a 
fuels reduction program by selling big trees, you are going to 
end up with controversy with citizens. Because they are going 
to make decisions to cut down big trees because that is where 
the commercial value is, rather than being a decision driven by 
science on ecosystem values. And that is the crux of this.
    To me, financing this system by selling big trees is a 
little like selling your kidney to finance an operation on your 
good kidney--or your bad kidney. That is not the way to finance 
the fuel reduction program, for two reasons. One, there is not 
enough money to do it or even close enough. No. 2, it creates 
these perverse incentives to cut big trees. And that is why we 
have ended up with some appeals in the mechanical portion of 
our project.
    We have the additional problem--and I hope we can find a 
bipartisan solution to this--but this is not a moment where the 
citizens, after this administration has tried to roll back, you 
know, rules against arsenic, protection on clean air, 
protection of our coastal waters, anything on global warming, 
try to roll back discharge rules on toxic waste for mining, and 
now they expect the citizens to just trust them. That is what 
they are asking. This is not a moment where citizens are 
reacting real positively to that request, and we need to find 
some fences around this program so citizens can have confidence 
that these decisions are made for fuel reduction purposes 
rather than commercial timber harvest.
    Now, I have proposed a couple things, and we are going to 
propose legislation to try to do that in a couple ways: one, to 
have the funds from any commercial productivity go to the 
general treasury rather than the Forest Service; two, to ask on 
a forest-by-forest, boutique way of individualized, customized 
diameter requirements, customized to the circumstances of each 
forest, with exceptions for diseased trees perhaps or 
exceptions for exceptional density in the woods perhaps. Those 
are two ideas that I have proposed to try to give citizens more 
confidence that these decisions are made for the right reasons.
    So I guess, let me ask you, Mr. Burley, first, those are 
two ideas I have proposed. Do you have any others or do you 
have any comments on how you think we could increase citizens' 
confidence that these decisions as to which trees to cut are 
based on a fuel reduction motivation rather than a commercial 
timber sale?
    Mr. Burley. Well, speaking as a professional forester also, 
I think it would be helpful if we demonstrated trust in the 
profession. And I think these are professional managers out 
there, and they need to be given the tools and the latitude and 
be empowered to do the job.
    You know, I--personally, I wouldn't feel qualified 
questioning, you know, somebody that is designing a nuclear 
submarine because that is not my area of expertise. And I don't 
know how else to answer that, sir. I mean, it--granted, it is a 
real issue; it is a trust issue. I know that. But these are 
professionals and, you know, they know what to do. They are 
educated, they read the science, they stay abreast of what is 
going on. And by tying their hands through these arbitrary 
restrictions, I think we are just--we are creating more 
problems than we are solving.
    Mr. Inslee. Mr. Calahan, do you have any thoughts in this 
regard?
    Mr. Calahan. Well, dealing with the Medford BLM quite a bit 
in the last few years because of a project that is behind my 
place, it is actually the follow-up to the Squires fire area, I 
find that there is a lot of people in the agency that really 
are trying to speak out, but they are so limited. They are 
afraid. You know, they have got a job. They have got health 
insurance. They want to stay there. And they are trying to make 
changes from within the agency, but the agency itself is still 
like that train going down the track. It has so much momentum 
on this cooperating with the logging industry that they just--
they are overruled. The people that care are overruled most of 
the time.
    The changes are happening subtly. In the last decade or so 
I think we have really made some inroads into the agencies as 
far as--because of people that care and the citizens input. We 
are actually helping the forest. It is coming about, but it is 
a slow process.
    Mr. Inslee. Well, you know, I think Congress needs to help 
in that movement, and I will tell you why. The Forest Service 
has been told by the administration essentially to finance this 
on their own. They want to do more fuel reduction programs, but 
they haven't doubled the appropriation to do it. The 
appropriation they have given the Forest Service only allows 1 
to 2 percent a year of all the acreage that they themselves 
have identified of needing these treatments. They have 
essentially told the Forest Service, go finance this by cutting 
down big timber. And that will get us nothing but more appeals, 
many of which are rightful, because these decisions are being 
made for the wrong purposes.
    I empathize with the individuals in the Service, but 
Congress needs to help them move along. And I want to thank the 
panel and thank Mr. Chair.
    Mr. Duncan. The time of the gentleman has expired.
    I am next on our side. I don't really have any questions, 
but I do want to commend Chairman McInnis and Mr. Shadegg and 
Governor Rehberg for their very reasonable and moderate 
approaches that they are taking to this very serious problem.
    Chair McInnis Chaired hearings of the forest Subcommittee 
in early 1998 in which I participated four and a half years 
ago, at which time we were warned that some 40 millions acres 
out West were in imminent and immediate danger of catastrophic 
forest fires. Then, again, those warnings were repeated in a 
hearing in early 2000, two and a half years ago. And those 
warnings came true in 2000, when we had seven million acres and 
$10 billion--seven million acres burn, $10 billion worth of 
damage.
    The worst thing, though, about this whole situation is, as 
we heard the Secretary of Agriculture say this morning, 20 
firefighters have lost their lives this year. I had a young 
woman from my district in Tennessee who was a firefighter out 
there who, in a fall, is now paralyzed from--I am told is 
paralyzed from the waist down. And the sad thing is that many 
of these fires were preventable.
    I want to read for the record a couple of quotes I have, 
that the Washington Times had a story recently that said: There 
are simply too many trees--quoting Dale Bosworth, head of the 
U.S. Forest Service. Quote: We have so many more trees out 
there than under natural conditions. There might have been 40 
to 50 ponderosa pine per acre at one time. Now you have the got 
several hundred per acre.
    The June 27th Washington Post had a headline reading, 
quote: Did politics put a match to West wildlands? Unquote.
    Jay Ambrose, the director of editorial policy for the 
Scripps Howard newspaper chain, a very moderate, middle-of-the-
road newspaper chain, wrote that: The most flammable and dead 
trees and underbrush should have been removed, but, quote, the 
extreme environmentalists hate the prospect. It is 
unconscionable to them that anyone might make money off the 
forest. Never mind that a multi-use public-private plan would 
help save the national forests from high heat scorching fires 
that will slow renewed growth, and never mind that mechanical 
thinning would give firefighters a chance of controlling fires 
and protecting homes without risking their own lives. The 
extremist idealogy spits on private enterprise. Unquote.
    Then Robert Nelson, a professor at the University of 
Maryland, wrote a column about this, and he said this. He said, 
in fact, over the last decade it was more important to the 
Clinton administration to promote wilderness values by creating 
roadless areas and taking other actions to exclude a human 
presence. This aggravated last summer's tinderbox forest 
conditions and continues to threaten public land.
    He said, Federal policies, quote, have produced an enormous 
buildup of small trees, underbrush, and deadwood that provide 
excess fuels to feed flames.
    I think it is pretty clear, you have to cut some trees to 
have a healthy forest and prevent forest fires, yet amazingly 
there are extremists who seem to be dictating much of this 
debate who don't even want the removal of the dead and dying 
trees.
    Professor Nelson said in a similar statement to Mr. 
Bosworth, he said: In many Federal forests, tree density has 
increased since the 1940's from 50 per acre to 300 to 500 per 
acre, and that these forests are filled with dense strands--
quote, are filled with dense strands of small stressed trees 
and plants that, combined with any deadwood, to provide virtual 
kindling wood for forest fires.
    I recently read Bill Bryson's book about hiking the 
Appalachian trail, and in that book he noted that New England 
was only 30 percent in forestland in 1850, but now it is 70 
percent in forestland--New England.
    The Knoxville News Sentinel in my hometown reported a 
couple of years ago that Tennessee was 36 in percent forestland 
in 1950, while today the State is half in forestland. Yet, if I 
went in any school in my district and asked the young people 
there, are there more trees today than there were 50 or 100 or 
150 years ago, they would all say there is many fewer trees 
now.
    We have a lot of misinformation out about this, and it is 
causing a lot of problems. I will say again that if any of us 
burned one tree in a national forest, we would be arrested; but 
these policies we have been following have caused millions of 
acres to burn and have cost many, many lives, and it is time 
for a change I think.
    Next, we will hear from Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Dr. Covington, on your principles here: Retain trees which 
predate settlement; retain post-settlement trees needed to 
reestablish presettlement structure; thin and remove excess 
trees; rake heavy fuels; burn to emulate; seed with natives/
control exotics.
    Then you go to the challenges: Could be expensive, in the 
short-term, save money and reduce resource values over time; 
important we assure that trees are removed or being removed for 
the purpose of restoring natural forest patterns; and, 
political maneuvering over setting one-size-fits-all diameter 
caps can interfere with cost-effective, ecologically sound 
restoration.
    Now those sound like principles that most people could 
agree on. I think that the two key things, if you can focus on 
this, is, how, without being prescriptive, can we be certain 
that the trees being removed are for the purposes of restoring 
natural forest patterns and processes? That is kind of the nub 
of the argument here. I mean, we have some bad history with 
some salvage sales where really prime timber, particularly east 
side in Oregon was cherry-stemmed in order to make--because the 
Forest Service was told, you have got to pay for this stuff, 
and so they added those trees in.
    It seems to me one of the things we have to do, we are 
going to have to admit up front a lot of this isn't going to 
make money; in fact, it is going to cost a lot of money. Would 
that be sort of one way to--I mean, how would you get at that 
level of confidence? Because that is really the key controversy 
that is swirling here between industry and environmental 
advocates.
    Mr. Covington. Well, that is an excellent question. I spend 
a lot of time thinking about this and actually working with 
various groups to try to figure out how to do that. I think it 
would be ill-advised to try to set a national sort of a policy 
or even a forest level policy on diameter caps, for example, or 
on how to control aggressive exotic species or what frequency 
to burn the sites on.
    The issue--it is out there at this tree and this 
subwatershed, this four acres, this hundred acres, to 
politically, what I have great hope in, is of collaborative 
partnerships of various forms, you know, citizens, base groups, 
collaborative community groups who can work with the concerned 
agencies and landowners, whether they are State or Federal 
agencies or landowners, to try to come to a level of 
understanding about how environmentally, socially, politically 
and ecologically sound restoration treatments might best be 
implemented.
    I have a tremendous faith and respect for such democratic 
processes and for people who are coming to the table with the 
idea of let us do something so that we can pass the land on in 
a better condition than we received it.
    The Greater Flagstaff Forest Partnership there around 
Northern Arizona University has been a model kind of case study 
in this sort of work, but there are many others around the 
country. That is one.
    Mr. DeFazio. Quincy Library Group, if you are familiar with 
that.
    Mr. Covington. Well, the Quincy Library Group, I have some 
familiarity with it. I haven't looked into the politics of it 
very much.
    I am, this fall, will be working more closely with the 
citizens base group, the Applegate partnership up in the 
vicinity of the Biscuit fire.
    So it just--let me close this off by saying, you know, I am 
not all that bright, frankly. You know, I am an ecologist. I am 
a conservation ecologist. I am a forester. Many of the 
political, social, economic sides of this are a stretch for me 
to do well to get into them and still maintain my depth in 
that.
    I do have working with me in the Ecological Restoration 
Institute a number of gifted persons. One of them is Hannah 
Cortner, whose special area is the human dimension of ecosystem 
management, the social, political, more philosophical concerns.
    So, anyway, that just, in a nutshell, that is the way--I 
wish Hannah were here. I would pass this off to her.
    Mr. DeFazio. Yeah. I mean, as law-makers and as, you know, 
trying to move forward from what we see as sort of gridlock in 
this, I am not sure--I mean, your--I would agree with your 
sentiments, and I think there is some potential for that, but 
how we move that process forward is not--does anybody else have 
an idea how to get past this sort of--this level of confidence 
issue, something that we could do?
    You know, it is just critical I think that we back off from 
the controversy and potential controversy and--go ahead.
    Mr. Duncan. The gentleman's time has expired. I am going to 
give you extra time, Mr. DeFazio.
    Mr. DeFazio. Thank you.
    Mr. Duncan. But try to make these answers brief so we can 
get to the other members.
    Mr. Burley. I will do that. Thank you, Mr. Chairman.
    I agree with Wally. I mean, it is an education problem as 
well; and I think the collaborative efforts can be helpful, 
provided they, too, have some sideboards on them.
    We have seen, for instance, in Oregon, we have the Blue 
Mountain demo area that Governor Kitzhaber was--I mean, that 
was his thing, and 7 years later it has very little to show for 
it. We had a lot of meetings. And I think people, you know, 
kind of--the trust level got up.
    Mr. DeFazio. So your answer would be sideboards, something 
to move the process along?
    Mr. Burley. Yeah. There needs to be sideboards.
    Mr. DeFazio. Something to move the process along.
    Mr. Burley. Right. Because 7 years from now we are going to 
be right back here asking the same questions.
    Mr. DeFazio. Given the Chairman's prescription, can anybody 
answer briefly?
    Mr. Creal. I would like to respond to that. The Secure 
Rural Schools and Communities Act really addresses that with 
regional advisory Committees; and we are seeing great success 
through that Committee work, where they are building trust and 
building those relationships back up between the diverse 
groups.
    Mr. DeFazio. OK. So if we imposed a structure for the 
Committees or locally oriented Committees with some mandate to 
go out and address these problems?
    Mr. Creal. Well, one of the most powerful parts, though, is 
that they have resources.
    Mr. DeFazio. Sure. The sections two and three. Yeah. Right.
    Mr. Calahan?
    Mr. Calahan. Well, I see all this small fuel out in the 
forests, the smaller--basically, you don't count anything less 
than six inches and call it commercial value, you know. There 
are countries in this world where women go out and find a stick 
anywhere for their fire and it is important to them. We are 
blessed with all of this excess wood, but it is not being 
utilized. It is basically being chopped up and put on that pile 
and being burned.
    I wonder if there isn't some sort of push toward finding a 
better way of utilizing those small products. And I don't just 
mean poles by chipping them up and getting them out of the 
woods. Maybe if the government put some energy into that 
direction, it might be a help.
    Mr. DeFazio. Sure. Like biomass for electric generation 
something, like that.
    Mr. Schulke. Mr. DeFazio, I mentioned earlier in my 
testimony the zone of agreement, finding those places where we 
do agree and starting from there. I would refer you to Senator 
Bingaman's Community Forest Restoration Project, where there 
were parameters set up in a bill and there is a panel that 
makes decisions and--within those parameters, and $5 million a 
year gets spent on projects that the conservation community 
agrees with because they are in on making those decisions. So, 
yeah, there are models out that work. Getting rid of the loss 
is going to make that--.
    Mr. DeFazio. OK. Great. Thank you.
    Thank you, Mr. Chairman, for the indulgence.
    Mr. Duncan. Thank you, Mr. DeFazio.
    Mr. Walden, and then Mr. Shadegg.
    Mr. Walden. Thank you very much, Mr. Chairman.
    Mr. Calahan, I appreciate your coming here from our 
district and testifying. I think your comments are very 
helpful. I especially agree with your comment about sometimes 
it is the natural barriers that actually are what stop the 
fires, the ridge tops, the creekbeds, whatever it may be, a 
road, something like that.
    I, as you know, was up there with the President on the 
Squires fire, and there were four firefighters there who also 
met with him and talked to him about the Squires fire. There 
were actually four--I think most of them--I may be wrong, but I 
think all four actually fought that fire were engaged--one of 
them certainly was, because he was the one that took the 
pictures that were used. And a couple of them also had been 
involved in some of the thinning efforts and some of the 
restoration efforts on the lands there. But to a one of them, 
they said, you have got to help us do this kind of work. Every 
one of them said that.
    I was impressed by that, because not only had they done--
some of them done the pre-thinning, but they had also been 
there fighting the fire then. And it was--they made it clear to 
us up there--you know, we can't control what the media decides 
to cover out of an event, but they made it clear that when that 
fire came up that ridge, that even though they had done some 
thinning, it came with such force that it just wiped it out. So 
that was conveyed to all of us on the ridge top. Then it 
crested over, and in some areas it had been thinned. And 
then--.
    The picture that you have here, the one that Mr. Inslee 
used as well with the blue paint on the tree, is that not from 
a proposed timber sale that has been appealed for 18 months or 
thereabouts?
    Mr. Calahan. No, that is not. That is down the ridge 
probably three-quarters of a mile.
    Mr. Shadegg. So it is not the Superior sale that has been 
held up?
    Mr. Calahan. Well, Superior is the logging company that got 
the contract to do the Spencer project. But you are speaking--.
    Mr. Walden. I guess that is what I am trying to sort out. 
Because I talked to some of the Boise folks today, and they 
were talking about their sale. And, yeah, it did burn through 
their land, as you say, in your testimony. About 2 days into 
the fire they thought it finally hit, and then it kind of 
wandered through there a couple of days. And there was some 
slash on the ground, obviously.
    Mr. Calahan. A lot of slash, sir.
    Mr. Shadegg. But they had replanted as well. So you had 
young conifers, and there was slash on the ground, no doubt. 
But they were indicating that it actually started on the BL M 
lands, and by the time it hit their property it was going 
pretty good.
    Mr. Calahan. Both sides of that ridge surrounding the Boise 
land is pretty much what I call toast, and some of it is 
thinned toast.
    Mr. Shadegg. Right. We saw that as well. So I think you are 
right in that sometimes, even when you have done the thinning, 
what comes at you you cannot stop for whatever reason.
    Mr. Calahan. Absolutely correct.
    Mr. Shadegg. But I have also been with Mr. Burley out in 
the Dechutes forest where they have done a thinning project 
and--or were in the middle of it and a fire came through. And, 
boy, that was real obvious, that the lodgepole was going to 
survive, most all of it where it had been thinned out, and the 
ponderosa pine clearly was going to survive. You could just see 
this clear line where they had stopped work for the day before 
the fire; and the other side, the soils were, however you 
describe them, totally destroyed. It was like flour. And that 
most of the ponderosa was destroyed and all the lodgepoles.
    So I really think we need to move forward in a 
collaborative way to try and do the best we can on this, and I 
intend to work with our Chairman and Mr. DeFazio on that. 
Because it really bothers--as an Oregonian, I don't want 
charcoal forests; I want green, healthy ones.
    I also heard Mr. Rey--and I don't know if you were here 
when he testified--but repeatedly make clear it is not their 
intent to make this a logging operation in the former sense of 
the word. That if trees were taken out that were commercial 
grade, it would be very incidental to what they are trying to 
do. So I think they are trying to get at what some of my 
colleagues have indicated, you have got to sort of divide out 
logging from ecosystem restoration.
    So I hope we can work together on this. I think we have to 
as a country, because America's forests are going up like never 
before in my memory. It costs us, as I understand it, twice as 
much to fight these fires as to go in and do the restoration 
work; and I didn't hear anybody on the panel today from the 
administration saying we are going to pay for this by cutting 
big trees. That is not--I haven't heard them tell me that on 
the record or off, and yet I hear it from Mr. Inslee, who is 
not here at the moment, but I don't hear that out of the 
administration. I don't think that is practical.
    I do think they are going to have to come forward with a 
fairly substantial appropriation as we did in the fire plan to 
try and address this.
    The final point I would make, because we have talked a lot 
about now we have got to protect around homes, and I fully 
agree with that. I also think we have got a lot of private 
forestland out there that abuts Federal land, and we are losing 
it. Boise Cascade lost nearly 10,000 acres of 30- to 50-year-
old trees because the fire roared off the Federal land in some 
cases, including here in Squires, onto their land. Some of the 
back fires had to be set there.
    I know there are other private, State, and county 
forestlands that get burned up; and they are not always, you 
know, completely properly managed, either. But I do think, as 
the Federal Government, what I have seen is a real delay in 
managing--gaining and managing these lands that we have, and 
they abut private lands that in most cases or at least some are 
better managed. I think we have got a liability there, frankly, 
or should morally, that we need to take care of our lands.
    In conclusion, Mr. Chairman--I know I am out of time--the 
comments about local decisionmaking I think are really 
appropriate. Your comment, Dr. Covington, about one size 
doesn't fit all, it is a problem we faced on the east side 
where they just arbitrarily set a 21-inch limit on breast 
height you could cut. Well, what does that really mean? It is 
supposed to be a temporary rule. It has been there for 8 or 9 
years, you know, and then meantime we don't get things done.
    So, I want to get something done. I want to work in a 
bipartisan manner to do that so we have green forests and not 
black ones.
    Mr. Duncan. All right. Thank you very much. The time of the 
gentleman has expired.
    Mr. Shadegg.
    Mr. Shadegg. Mr. Chairman, I appreciate the Committee 
indulging me as a guest today and getting to go last. I also 
thank all of the witnesses. I think their testimony has been 
educational and helpful.
    It is difficult to try to bridge this gap, but I am 
encouraged by the compromise discussions that have occurred 
here today. I had some discussions with Mr. DeFazio. His speech 
at the beginning of the hearing could have been my speech. My 
speech was his speech. Let us get past the politics and get to 
a policy that works, because there are clearly some problems 
with the current policy.
    I also find it encouraging when everyone on my side of the 
aisle says we should not be doing logging. We should not allow 
a forest restoration project distorted into a logging project, 
and we should not be paying for it with logging. I think there 
is agreement on this side of the aisle on that.
    I am encouraged when I hear Mr. Inslee talk about 
commercial value. I am encouraged when I hear Mr. Schulke say 
they support thinning and even, I believe he said, economic 
development. I think we can find a common ground, and I think 
we have got to.
    I want to focus my questions on three topics. Dr. 
Covington, you are the focus. I want to discuss this urban-
wildland interface. I want to discuss the issue of cutting only 
small trees and the question of caps. With all due deference to 
Mr. Calahan, I heard today a certain degree of thinning did not 
work, and in some instances thinning made the fire worse. I was 
a little shocked to hear that because that is contrary to 
everything else that I am hearing.
    First, Dr. Covington, tell me, should we be focusing 
exclusively on the urban-wildland interface? Do you agree with 
that?
    Mr. Covington. No, I do not. Again, it is a matter of 
perspective. With complex problems like this, it is often best 
to break them down into subproblems and then prioritize them.
    In the urban-wildland interface insofar as houses being 
burned down and threats to firefighter lives, that is a very 
high-priority area. However, I do not feel we can wait until we 
have solved that problem completely before we at least start 
addressing some of the other problems.
    From a future generations standpoint, I am very concerned 
about the Mexican spotted owl. You lose 12 Mexican spotted owl 
houses, and that is a much bigger impact to the Mexican spotted 
owl population than losing thousands of human houses. We need 
to set priorities and then move forward in them, but I don't 
think that it makes sense just because we have subproblems that 
you prioritize them and you only do this one and wait until you 
get that one solved before you go to the next one.
    Mr. Shadegg. It is odd to me that some of the strongest 
environmental groups are saying we ought to work only on the 
urban-wildland interface when they ought to be the ones 
reminding us that we better save the most remote stuff. I share 
that concern.
    Second, this issue of removing only the small trees and the 
caps, I will tell you I have read every number in the world on 
caps, from 6 inches to 16 inches and above, and during the 
Rodeo-Chediski fire we got into a blame game. There is no point 
in looking back. Let us look forward, and should we be looking 
at just small trees? Caps may be a way of giving some relief 
that we are not going to cut big trees, but the point was made 
earlier that big diseased trees should not necessarily be 
saved. I would like you to talk about caps and diameters.
    Mr. Covington. Cap diameter limits, the maximum size of 
trees, it is not really an ecological issue from an ecological 
health standpoint.
    From a fire behavior standpoint, it is clear that in the 
areas where the most severe unnatural fire behavior is, the 
Ponderosa pine forest, it is predominantly the small-diameter 
trees. You remove those, and you will not see crown fires 
again. That is simple, if that is your only issue is the 
elimination of crown fires.
    If, however, it is an ecosystem health issue, we cannot get 
something for nothing. So for every tree that you leave in an 
ecosystem in excess of the natural carrying capacity of the 
land, of the natural density of the land, it comes at the 
expense of grasses, wildflowers and shrubs, and then the 
associated and dependent food web for those flora. If we are 
just concerned about eliminating crown fires, we can set 
diameter caps and that will do it. If we have this 
intergenerational perspective and we are concerned about 
passing on biologically diverse ecosystems to future 
generations, I think we have to be very cautious about 
politically expedient across-the-board rules like that.
    Mr. Shadegg. Third, this issue of thinning did not work by 
Mr. Calahan's observation, and some areas that were thinned 
burned worse. How do you respond to that?
    Mr. Covington. This can happen. One of the problems we 
have--and the Biscuit fire was also predominantly in a frequent 
fire ecosystem. In the unnatural, heavily loaded, feud-loaded 
ecosystems, greater ecosystems, when we get a fire start, we 
get a plume-dominated fire behavior. Under plume-dominated fire 
behavior, you buildup the big cumulus cloud above the fire. 
Eventually that reaches a weight and cools enough that it 
collapses. When that collapses, it drives wind out, air out, in 
all directions at very high rates of speed. It is just like a 
bellows in a foundry.
    In those circumstances, it would not matter if there was 
one tree standing per acre, and with that kind of heat coming 
out there, 1,000 degrees, well above the ignition point of 
organic matter, it is going to burn like hell. That is another 
reason why we have to think big about this. We have to think 
about the greater ecosystem.
    Mr. Shadegg. Mr. Schulke, if you were convinced that the 
larger trees proposed to be removed were being removed for the 
reasons that Dr. Covington said, and determinations were not 
being made for commercial logging purposes or by people who 
were going to get a commercial benefit out of it, would you 
still have a concern about removing some of those bigger trees 
if they were removed for ecological reasons?
    Mr. Schulke. If you look at the old-growth Ponderosa pines 
out in the woods, they have mistletoe in them. They have the 
disease that seems to be anathema to the Forest Service. Yes, 
we would have a problem with that. Oftentimes mistletoe creates 
nesting sites for the spotted owls.
    Mr. Shadegg. You are saying you might not necessarily agree 
with Dr. Covington about which was a diseased tree?
    Mr. Schulke. Diseased trees are part of the natural 
ecosystem, plain and simple. I would say a large percentage of 
old-growth trees have mistletoe in them. Should they be logged? 
No.
    Mr. Shadegg. What you are saying is no large tree should be 
removed, period, and you just fundamentally disagree with Dr. 
Covington on that point?
    Mr. Schulke. Generally. And the problem is that the logging 
report that somebody referred to earlier, those are the kinds 
of projects that are abused all the time by the Forest Service, 
and they are cutting large trees in many cases, and they--.
    Mr. Shadegg. I am saying if we can figure out a mechanism.
    Mr. Schulke. But that is the problem; we cannot.
    Mr. Shadegg. Dr. Covington, do you want to respond to that?
    Mr. Covington. I Chaired the Arizona Forest Health Fire 
Plan Advisory Committee that Todd has done a lot of hard work 
on, and I appreciate the work he has done.
    One thing that Todd and I talked about after Senator 
McCain's hearing in Flagstaff on conflict resolution is perhaps 
if there were a diameter cap, let us say there were a 16-inch 
cap, if we could specify under what conditions there would be 
exceptions to the cap, that might be a way to move forward.
    Frankly, this does revolve around ideological warfare and a 
lack of trust. I have a lot of faith in the profession. My 
students are out there. They are post-Earth-Day-educated, and 
they have a strong land ethic.
    We tend to, I think, all too often bring up the ghost of 
the past in trying to deal with this. The old forester, the 
idea of a forester with his head full of sawdust, and there is 
no tree that, once it reaches financial maturity, you zip it 
down, that is gone.
    The bottom line here is there are some ways to move forward 
with this. We do need to be very careful to police these 
projects. Good intentions are not enough. We do have to have 
well-informed decisionmaking on this. One of the things that we 
have kicked around in the advisory Committee, Governor Hull's 
advisory Committee, is requesting maybe the National Research 
Council of the National Academies, and the Ecological Institute 
would also be glad to take a leadership role in this, too, but 
together kind of a biophysical basis of restoration in fire 
management in these forest types, the social-political-economic 
basis of it, and then some management guidelines, but not 
prescriptive management guidelines, guidelines that would 
instead advise local groups on how to use this information to 
develop adaptive management experiments to operationally learn 
while we are doing.
    Let us go ahead and approach these big projects, use the 
best information we have, and we have to find out whether it is 
working or not, otherwise we will just keep doing things that 
do not work.
    Mr. Shadegg. We thought fire suppression was working, and 
we discovered it did not work.
    Mr. Duncan. Mr. DeFazio, and last questions?
    Mr. DeFazio. Mr. Chairman, thank you.
    Dr. Covington, you talked about this tremendous distrust, 
and hopefully in the future we can move beyond that. Just to 
get something now, you said there would be a possibility of 
establishing on some sort of a basis diameter caps, and if you 
can specify the conditions under which exceptions would be 
made, and I assume that would be done on a forest basis or some 
smaller unit because there is an incredible amount of diversity 
in tree species. How would you determine the exceptions?
    Mr. Covington. We have put some thought into this, some 
with BLM's Mount Trumbell's projects where we first confronted 
this concern.
    One example of an exception to the diameter cap would be--
and this is in the Forests Forever document prepared by the 
Southwest Forest Alliance and the Center for Biological 
Diversity and other members of that group--is that one of those 
exceptions would be where trees have invaded a park or 
grassland or a wet meadow. One of the classic examples of that, 
some of my collaborators in the environmental community, when 
they visited one of our first cuts up at the Mount Trumbell 
area, BLM lands, came in and said they are cutting old-growth 
trees. One tree had a 28-inch diameter. We went in and got a 
cross-section of it and looked at it. It was 90 years old. It 
was a postsettlement tree, but it was growing in a swale, in an 
area that was a wet meadow. In presettlement, that would have 
been a lot of grasses and wildflowers in it, a critical hotspot 
for biological diversity. To restore that area, that tree had 
to be removed.
    By the way, that area before treatment did not have a blade 
of grass or wildflowers on it, because where do trees come in 
and thrive? Areas that are most productive. They are not only 
most productive for trees, but also these critical other 
elements in the ecosystem. There are some other examples that 
demonstrate that.
    Mr. DeFazio. Historically that tree would have been 
prevented from growing in that area by the periodic fires that 
swept through, so starting sometime around the time of fire 
suppression, the tree became opportunistic even though it was a 
species that was widely found in that area?
    Mr. Covington. Exactly, although it was not so much fire 
suppression as it was fire exclusion. The first fire exclusion 
was by almost mandated overgrazing on public lands. The purpose 
of that overgrazing was not to produce livestock. The reason 
foresters were behind it was fire was the greater evil. By 
overgrazing, you eliminate the grasses and the grass 
competition, so it is a perfect opportunity for a population 
expansion.
    Mr. DeFazio. Is there a place where we can find a list of 
these exceptions that have at least been put in place for that 
ecosystem there?
    Mr. Covington. No, there is no place you can go for it, but 
I would be glad to think this through with some other folks.
    Mr. DeFazio. We have to probably think pretty quickly.
    Mr. Covington. Can do.
    Mr. Duncan. Thank you, Mr. DeFazio.
    I will just say one additional thing. At the hearing I 
mentioned that 4-1/2 years ago the Forest Subcommittee staff 
told me that in the mid-1980's the Congress passed a law that 
the environmental groups wanted saying we would not cut more 
than 80 percent of the new growth in the national forests, but 
at that time we were having approximately 23 billion board feet 
of new growth per year, yet allowing less than 3 billion board 
feet to be cut, less than half of that that was dead and dying. 
Yet I know that if somebody went to most people and said, 
horror of horrors, we are cutting 3 billion board feet a year 
out of the national forests, that could be stated in such a way 
that people would think that it is terrible. Yet it was just a 
tiny fraction of what the environmental groups wanted in the 
mid-1980's, yet they had to keep raising the bar.
    I think what we need in this debate is a little moderation 
and balance. The debate is being controlled now and has been 
for several year by extremist groups, and we have these groups 
all over the country that protest any time anybody wants to dig 
for any coal, cut any trees, or drill for any oil, or produce 
any natural gas. That hurts the poor and the lower-income and 
the working people because it drives up prices and destroys 
jobs. I know that most of these environmental extremists come 
from wealthy or upper-income families, but they are hurting a 
lot of the middle and lower-income people in this country. We 
do need some moderation and balance in this debate.
    Mr. Shadegg. Mr. Chairman, I would like to formally request 
to put my opening statement in the record and a newspaper 
article.
    Mr. Duncan. Your opening statement and any additions 
thereto will be put in the record at your request.
    Mr. Shadegg. Thank you, Mr. Chairman.
    Mr. Duncan. The hearing is adjourned.
    [Whereupon, at 1:15 p.m., the Committee was adjourned.]
    [The prepared statements of Mr. Gallegly and Mr. Herger 
follow:]

Statement of Hon. Elton Gallegly, a Representative in Congress from the 
                          State of Califrornia

    Mr. Chairman, I support the President's ``Healthy Forest 
Initiative'' and have cosponsored the bills before us today (National 
Forest Fire Prevention Act and Healthy Forests Reforms Act) because the 
cost of inaction is too high. We are in the middle of the worst 
national fire season in recent memory. My district contains a small 
portion of the Angeles National Forest, which had 60,000 acres burned 
this year. In addition, 30,000 acres burned in my district during the 
massive ``Wolf Fire,'' in the Los Padres National Forest.
    In my district, the fires were created by drought conditions that 
forced forest managers to curtail forest fuel reduction practices, such 
as prescribed burning. Last year, the Angeles National Forest reduced 
fuel on 3,800 acres, this year only 458 acres. In addition, forest fuel 
reduction funds are rapidly drying up. The entire fuel clearing budget 
for the Los Padres is only $487,000. Merely half a million dollars is 
used to pay for brush thinning and controlled burns for over 2 million 
acres of national forest. Los Padres officials say they are capable of 
treating up to 10,000 acres of forest land, but funding only allows for 
6,000.
    Natural occurrences, such as droughts, are beyond our control. 
However, many forests in California and across the West faced a lack of 
funds and a burdensome NEPA process that ties up fuel reduction 
projects for years and wastes taxpayer funds.
    We pay a high price for not providing the resources necessary to 
prevent forest fires. Many communities are adjacent to national 
forests, and people's lives and property are threatened. Many of these 
forests also contain many endangered species and historic artifacts. 
The Los Padres National Forest in my district is home to endangered 
species such as the California condor and arroyo toad. The forest is 
also home to many priceless Native American sites. All that is put at 
risk by not addressing the man-made causes of wildfires.
    Mr. Chairman, our communities deserve to have the best preventative 
measures to stop wildfires before they happen. I therefore urge this 
committee to act and pass a package that truly prevents wildfires.
                                 ______
                                 

Statement of Wally Herger, a Representative in Congress from the State 
                             of California

    Mr. Chairman, members of the Committee, thank you for the 
opportunity to be here today to discuss this incredibly important 
issue.
    Secretary Norton and Secretary Veneman, thank you so much for being 
here. Those of us who represent heavily forested areas are so relieved 
that President Bush and you are taking a proactive role to finally 
restore some common sense, reasonableness and balance to our forest 
policies and to the regulatory quagmire that has put our forests in 
serious jeopardy. And I want to commend you for standing up and doing 
the right thing in the face of the political attacks and half-truths 
from the radical environmental community.
    Let me briefly tell a story from the Six Rivers National Forest, 
which is located partially in my Northern California District, that I 
think is a poignant demonstration of the lunacy of environmental 
extremism and of how it has gone far beyond environmental protection to 
a policy of gridlock, and ultimately, environmental devastation.
    In 1995/96, winter storms caused a severe blowdown and breakage of 
trees in the Six Rivers National Forest that created an emergency fuels 
situation with extremely high potential for catastrophic fire. The 
local Forest Supervisor at that time pleaded for special permission to 
do expedited salvage and restoration work in the area that would 
prevent the downed wood and debris there from becoming fuel for the 
next devastating fire. She called it ``a true emergency of vast 
magnitude'' and said, ``it is not a matter of if a fire will occur, but 
how extensive the damage will be when the fire does occur.
    Unfortunately, her plea was denied by the former administration. 
The local Forest Service officials were left to wrestle over the next 
two to three years through a time-consuming regulatory and procedural 
quagmire. By 1999 only 1,600 acres were treated when, just as the 
Forest Supervisor predicted, a fire raged through this area burning 
more than 125,000 acres. In the areas of the most intense blowdown the 
fire created a moonscape with, as officials later described, ``ashes 
three feet deep, and nothing green remaining.
    Since the 1999 fire, the local Forest Supervisor, Lou Woltering, 
and his staff have been working diligently to implement a community 
protection project that would remove excess fuels and create fuel 
breaks along ridges in the area so firefighters can protect three local 
communities against the next devastating fire, which is not a matter of 
if, but when. It is important to note that of the 120,000 acre burn 
area from the original fire, the Forest Service's plan was to treat 
only 1,050 acres. The Environmental Impact Statement (EIS) for the 
project took 2 years to prepare. For this project--one that is designed 
to protect public health and safety--the final environmental record was 
10,000 pages long!
    Yet, even after all that environmental analysis, it was appealed by 
a coalition of environmental groups and recently halted by an activist 
judge--seven years after the original blowdown. It was stopped NOT 
because there was some demonstrated harm to species or to the 
environment, but because of a technicality. The judge ruled in part 
that the Forest Service failed to take into account a document called 
the Beschta Report, a 1995 paper commissioned by a coalition of 
environmentalists about the effects of salvage logging. Courts have 
sometimes showed support for the paper, even though it contains many 
unsubstantiated statements and assumptions and has never been published 
in any scientific journal, nor subject to any peer review!
    Four or five years from now, unless the Forest Service is given the 
authority to go in and do their job in this area, the burned and downed 
trees will be fuel for the next fire, threatening the neighboring 
communities and the people who live there.
    These Forest Service officials tried to do the right thing for the 
local communities and for the environment. But they were stopped cold 
by the radical environmentalists. What the environmental community has 
left us with is a scorched landscape. THAT is their idea of 
environmental protection.
    Let me take this opportunity to publicly commend the local Forest 
Supervisor, Lou Woltering, and his staff for their hard work and 
dedication. These folks cannot reasonably be expected to disprove every 
possible negative. But that is essentially what they are being required 
to do under the layer upon layer of regulatory and court-imposed 
analytical and process requirements that exist today. The system has 
elevated form over substance. And land managers are being set up to 
fail, because any radical group with a postage stamp, an agenda and a 
sympathetic judge can find some report or scientific document that has 
been overlooked, or an analysis that has not been done. This needs to 
change. Local managers need to be given flexibility to do their jobs, 
with the help and involvement of local communities.
    I believe that is precisely why, Madam Secretary, we must 
streamline our regulatory process in such a way as to allow these 
managers to go about the serious business of restoring our forests to a 
healthy condition and protecting our communities. I look forward to 
hearing from you today on the President's initiative and on the various 
legislative proposals that are being considered as possible 
opportunities to get us to that important end.
    Thank you.


</pre></body></html>
